<html>
<title> - MISCELLANEOUS PUBLIC LANDS AND FORESTS LEGISLATION</title>
<body><pre>[Senate Hearing 110-603]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-603
 
                    MISCELLANEOUS PUBLIC LANDS AND 
                          FORESTS LEGISLATION 

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON
                                     
              S. 2354                               S. 2448

              S. 3065                               S. 3069

              S. 3085                               H.R. 2632

              H.R. 3473                             H.R. 3490

              H.R. 3651

                                      

                               __________

                             JULY 16, 2008


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

45-335 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



















               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

DANIEL K. AKAKA, Hawaii              LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          RICHARD BURR, North Carolina
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee



























                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Wyden, Hon. Ron, U.S. Senator From Oregon........................     1
Barrasso, Hon. John, U.S. Senator From Wyoming...................     2
Bingaman, Hon. Jeff, U.S. Senator From New Mexico................    22
Bisson, Henri, Deputy Director, Bureau of Land Management, 
  Department of the Interior; Accompanied by Avra Morgan, Bureau 
  of Reclamation.................................................     7
Boxer, Hon. Barbara, U.S. Senator From California................     4
Craig, Hon. Larry, U.S. Senator From Idaho.......................    23
Hinz, Tom, Chairman, Great Gallatin Watershed Council, Bozeman, 
  MT.............................................................    37
Holtrop, Joel, Deputy Chief, National Forest System, Forest 
  Service, Department of Agriculture.............................    15
McCracken, Jan, Delta County, Commissioner, Delta, CO............    35
Salazar, Hon. Ken, U.S. Senator From Colorado....................    33
Wahlquist, Brent, Director, Office of Surface Mining Reclamation 
  and Enforcement, Department of the Interior....................     6

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    47

                              Appendix II

Additional material submitted for the record.....................    53


           MISCELLANEOUS PUBLIC LANDS AND FORESTS LEGISLATION

                              ----------                              


                        WEDNESDAY, JULY 16, 2008

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:37 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. The subcommittee will come to order.
    Last week the subcommittee held a hearing on eight public 
lands bills, and in an effort to consider as many bills as 
possible before the end of the summer, we will examine an 
additional nine bills today. A number of them are 
noncontroversial. Some do seem to be a bit more complicated and 
will take some time to work through. Our intent, however, is to 
work to get as many of them as ready as possible for full 
committee review.
    The specific bills we will consider this afternoon include 
S. 2354, to convey Federal lands to the city of Twin Falls, 
Idaho; S. 2448, the Surface Mining Control and Reclamation Act; 
S. 3065, designating the Dominguez-Escalante National 
Conservation Area and Dominguez Canyon Wilderness in Colorado; 
S. 3069, the Eastern Sierra and Northern San Gabriel Wild 
Heritage Act; S. 3085, the Cooperative Watershed Management 
Act; H.R. 2632--if I am pronouncing it right--the Sabinoso 
Wilderness Act; H.R. 3473, the Bountiful, Utah Land 
Consolidation Act; H.R. 3490, Tuolumne Transfer Act; H.R. 3651, 
to convey certain Federal land within Camp Williams to the 
State of Utah.
    At this time, I would like to recognize the subcommittee's 
ranking member, and we are going to recognize other members of 
the subcommittee.
    [The prepared statements of Senator Reid and Mr. McKeon 
follow:]
   Prepared Statement of Hon. Harry Reid, U.S. Senator From Nevada, 
                               on S. 3069
    I want to thank Chairman Wyden and other members of the Committee 
for the opportunity to comment on the Eastern Sierra and Northern San 
Gabriel Wild Heritage Act. Senator Barbara Boxer and Congressman Howard 
McKeon and their staffs have worked incredibly hard on this 
legislation. They have each reached across the aisle to accomplish 
something special here, and I commend them for their vision and their 
determination.
    As conversations about this legislation continue I hope that some 
extra attention can be paid to Furnace Creek Road in the White 
Mountains. The Bureau of Land Management and the Forest Service have 
led a public process over the last many years to determine how much 
motorized access is appropriate in the Furnace Creek area. This process 
has been highly contentious and is ongoing. My constituents in Nevada, 
and particularly in Fish Lake Valley, have invested hundreds if not 
thousands of hours in this public dialog. I hope very much that some 
resolution can be found on the wilderness designation around Furnace 
Creek that meets the interests of both the conservation groups involved 
in this effort and my constituents in Nevada for whom this issue is a 
serious and long-held concern.
                                 ______
                                 
      Prepared Statement of Hon. Howard P. ``Buck'' McKeon, U.S. 
               Representative From California, on S. 3069
    Mr. Chairman, let me first thank you for including the Eastern 
Sierra and Northern San Gabriel Mountains Wild Heritage Act in today's 
hearing. As you know, I represent California's 25th district, and am 
the sponsor of a companion bill in the House, H.R. 6156.
    Having originally championed new wilderness designations in the 
109th Congress, I was pleased to have the opportunity to work directly 
with Senator Boxer on a new, expanded bill. This legislation follows 
over 18 months of direct negotiations, building on the input of our 
respective constituencies, Federal agencies and local governments. S. 
3069 and its companion in the House, H.R. 6156, are a shining example 
of genuine compromise in the pursuit of shared goals.
    This legislation calls for 470,000 acres of wilderness additions 
districtwide. From snow-capped peaks of the proposed Hoover wilderness 
to the high-desert oasis of the White Mountains and green meadows of 
the Owens River Headwaters this bill will provide lasting protections 
for these world class treasures. In addition the bill designates over 
50 miles of the Amargosa River, Cottonwood Creek, Owens Headwaters, and 
Piru Creeks as wild and scenic rivers.
    Furthermore the bill provides resolution of long-standing winter 
recreation issues by legalizing recreation on 11,000 acres in the 
Humboldt-Toiyabe National Forest. In addition, 50,000 acres of 
Wilderness Study Area are released in the bill, following almost three 
decades of Administrative limbo. The totality of this legislation will 
greatly benefit the Eastern Sierra region, not only by resolving many 
resource related conflicts, but also providing badly needed economic 
opportunity and preserving wilderness areas for future generations.
    Mr. Chairman, this legislation is the result of a great deal of 
compromise, cooperation, and support. Both Senator Boxer and I care 
very deeply about the wild heritage of all the pristine lands 
throughout California, and I am pleased that we have been able to come 
together and present this legislation. Energetic support from my 
constituents in the 25th District has made it a distinct pleasure to 
introduce and champion this legislation in the House. I encourage your 
strong support of the Eastern Sierra and Northern San Gabriel Mountains 
Wild Heritage Act.

    Senator Wyden. Senator Barrasso.

         STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR 
                          FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman.
    I also welcome Senator Boxer here.
    Mr. Chairman, I want to thank you and the staff for adding 
S. 2448 to this hearing. Senators Enzi, Baucus, Tester, and I 
have introduced this bill to provide a legislative fix for 
western States, specifically Wyoming, Montana, and States that 
have been certified by the Department of the Interior as having 
addressed their reclamation priorities in terms of the 
abandoned mine land money.
    In Wyoming's case, the executive branch is operating under 
a twisted interpretation of the same law which is giving other 
western States fits. In Wyoming's case, the Administration is 
interpreting the phrase ``seven equal annual installments'' as 
an unlimited number of unequal payments, actually grants. So S. 
2448 is needed to correct the erroneous interpretation.
    In closing, Mr. Chairman, I want to add my welcome to our 
witnesses from the Department of the Interior and the U.S. 
Forest Service.
    With that, I appreciate your willingness to hold this 
hearing. Thank you, Mr. Chairman.
    Senator Wyden. Senator Salazar.
    Senator Salazar. Thank you very much, Mr. Chairman.
    With your indulgence, what I would like to do is save my 
opening statement to precede the testimony on S. 3065 on the 
Dominguez-Escalante National Conservation Area, and that way 
Senator Boxer can have her say and get on her way.
    Senator Wyden. Very good.
    Senator Tester.
    Senator Tester. I want to thank you, Mr. Chairman, for 
holding this hearing.
    I will save my comments relating to S. 3085 for my 
questions.
    But I do want to submit Senator Crapo's statement for the 
record. Senator Crapo has worked very hard on this bill also, 
and I want to make sure his comments get into the record.
    Senator Wyden. Without objection, Senator Crapo's comments 
will be recognized.
    [The prepared statement of Senator Crapo follows:]
     Prepared Statement of Hon. Mike Crapo, U.S. Senator From Idaho
    I would like to thank Chairman Wyden and Ranking Member Barrasso 
for holding this important hearing today where you will hear testimony 
on the Cooperative Watershed Management Act, legislation that offers a 
local, collaborative approach to managing and improving watersheds. I 
would also like to commend Senator Tester for his foresight in crafting 
this legislation. I am honored to have had the opportunity to partner 
with him throughout much of this process.
    Local water quality issues are best solved at the local level 
through the collaboration of interested stakeholders. All too often, 
however, the absence of an adequate, reliable funding source is an 
impediment to both individuals who would like to participate in 
watershed improvement and watershed management groups who struggle to 
carry out existing watershed projects or would like to implement 
additional ones. The Cooperative Watershed Management Act would provide 
an infusion of Federal funding to assist in the formation of watershed 
management groups, the continuation of successful projects, and would 
serve as an incentive to bring diverse stakeholders together.
    Decisions regarding water management affect us all, and the 
Cooperative Watershed Management Act encourages local participation in 
local water management decisions. I support this legislation, and would 
like to thank Tom Hinz, the Chair of the Greater Gallatin Watershed 
Council, for testifying on this bill. I look forward to his testimony.
    The committee is also considering a piece of Idaho legislation, S. 
2354, which would provide for a land conveyance to the city of Twin 
Falls of about 165 acres of public lands currently managed by BLM, to 
facilitate effective management of and investment in the city's 
proposed Auger Falls Project to improve water quality, restore wetland 
habitat for wildlife, and allow for recreation access to the public.
    The land exchange, which is supported by both the BLM and the State 
of Idaho, will allow the city to consolidate and better manage their 
current Auger Falls project, and relieve the BLM of the burden of 
managing small fragmented parcels of Federal land interspersed with 
those owned by the city. Under this legislation, the city of Twin Falls 
will also be required pay all survey and other administrative costs 
necessary for the preparation and completion of any patents of and 
transfer of title to property.
    Thank You Mr. Chairman.

    Senator Wyden. Senator Boxer, Chair Boxer. You have many 
colleagues who want to hear you, including me. So pleased to 
see you.

         STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR 
                        FROM CALIFORNIA

    Senator Boxer. I am so happy to be here, Mr. Chairman. 
Thank you and Senator Barrasso so much. Thank you, Senator 
Salazar, Senator Tester, for joining this afternoon.
    I am so excited about what I am going to talk to you about, 
and most of my testimony is going to be showing you pictures of 
these priceless areas because I do believe that when you see 
that, you will understand why we are so happy about this bill.
    When I say ``we,'' the Eastern Sierra and Northern San 
Gabriel Mountain Heritage Act was written by myself and 
Congressman Buck McKeon from the other side of the aisle who 
represents the areas included in this bill. We have crafted a 
bipartisan compromise bill. Believe me, we worked a very long 
time on it. It will preserve the magnificent mountains, rivers, 
and open spaces of California's Eastern Sierra and Northern San 
Gabriel Mountains.
    I am also very proud to say that Senator Feinstein wanted 
me to announce at this hearing that she has signed on as a 
cosponsor. We have been working with her office on a number of 
tweaks to the bill.
    Specifically, our bill will permanently protect 
approximately 470,000 acres of wilderness and nearly 52 miles 
of wild and scenic rivers, including a vital section of the 
only free-flowing river in the Mojave Desert. Colleagues, these 
wild places are truly spectacular. From the 14,000-foot peak in 
Mono County's White Mountains to the Amargosa River near Death 
Valley, to Magic Mountain in the San Gabriels near Los Angeles, 
the proposal includes some of the region's most treasured 
wonders, including the specially designated ancient bristlecone 
pine forest which contains the world's oldest living trees. 
Imagine. The world's oldest living trees.
    So now I am going to go to the part I have been waiting 
for, showing you the pictures of what we are trying to save 
here.
    So we are going to go to the Hoover Wilderness chart, and 
that is named, by the way, after President Herbert Hoover 
because this started in 1931 with the Hoover Primitive Area. So 
this is what we want to permanently protect. This area is 
adjacent to Yosemite National Park and represents a classic 
high sierra landscape of deeply carved glacial valleys, 
tranquil alpine lakes, and big pine forests that people around 
the world associate with California.
    I am going to show you the Ansel Adams additions. Zack, you 
can hold those up. Our addition to the Ansel Adams Wilderness 
includes the San Joaquin Ridge, Glass Creek Meadow, and the 
region's largest old growth red fir forest, and would protect 
the pristine headwaters of the Owens River, the Eastern 
Sierra's most important River system.
    We will look at the upper Owens River next. The bill 
designates 19 miles of the upper Owens River as wild and 
scenic. I mean, it looks like it comes from an artist's pen.
    Senator Salazar. I thought it looked like Colorado.
    [Laughter.]
    Senator Wyden. Oregon.
    Senator Boxer. That is a big compliment to me, let me say.
    Senator Wyden. Senator Tester, do you want to get in the 
act?
    [Laughter.]
    Senator Boxer. These headwaters are truly spectacular and 
support one of America's finest and most popular trout 
fisheries. This designation would help enhance the area's 
fishing economy, and that is so important.
    We are going to show you the White Mountains. The largest 
and highest desert mountain range, the White Mountains, is the 
second largest unprotected roadless area in the Lower 48, and 
it contains one of the greatest expanses of alpine tundra in 
America, as well as the Great Basin's highest peak.
    Now Zack is showing you the John Muir Wilderness. The John 
Muir Wilderness additions protect the dramatic eastern 
escarpment of the sierra and trout-bearing streams which flow 
down into the Owens Valley, while maintaining access to popular 
car camping, hunting, and fishing sites.
    The Amargosa River. Our legislation designates about 25 
miles of the river as wild and scenic. As the only river 
flowing into Death Valley, this river is an ecologically 
important river in a dry desert area.
    In addition to Eastern Sierra, the bill also protects 
40,000 acres in the Magic Mountain and Pleasant View Ridge 
areas and 7 miles--7 miles--here of Piru Creek, one of the few 
year-round trout fishing streams in southern California, all 
within Los Angeles County. This is amazing. Within Los Angeles 
County, one of the most urban and densely populated areas, so 
our people could get to see these wonders.
    I hope that these photographs have demonstrated just how 
truly special these places are, and why Representative McKeon 
and I have worked so hard over the years to conserve them.
    Our population in California is estimated to hit 50 million 
people in the year 2050. We need to find these places that are 
secluded where people can find solitude from an ever-increasing 
hectic lifestyle and, moreover, these sensitive areas safeguard 
water and air for our expanding populations.
    So Senator Wyden, Senator Barrasso, and my colleagues all, 
it has taken us literally years to get to this point. I cannot 
tell you how hard this was to sit all the stakeholders around 
the table. I want to praise my staff for the work that they 
have done. Congressman McKeon and I, working together--I think 
we really did it. I think we found the sweet spot, and we hope 
that you will agree.
    So thank you so much for the opportunity to testify on this 
bill. I look forward to working with you and certainly with 
Chairman Bingaman and Ranking Member Domenici.
    I want to say just an added piece here, which is I know how 
hard you are all working in a bipartisan way to move forward 
these noncontroversial pieces of legislation. I think it is a 
measure of your dedication to the task because we are torn 
asunder on so many things, but on this--our heritage--we should 
be able to come together. Buck McKeon and I have done it and I 
hope you can do it. I look forward to answering any questions 
you may have now or in writing or in any way that you would 
want me to.
    Thank you, Senators.
    Senator Wyden. Senator Boxer, I do not have any questions, 
but you have clearly toiled long and effectively on this and to 
have reached an agreement with your Republican colleague shows 
your commitment to this. We are going to put the staff on 
working with you immediately. The Majority Leader also is very 
interested in this matter and very complimentary of you and 
wants to work on issues on the Furnace Creek Road in the White 
Mountains. But we are not going to dawdle on this.
    Senator Boxer. We will definitely dawdle with you on that 
later. But we are ready. If there is a tweak here or there or 
something we need to do, we are ready to do it. But we are 
excited, and I think you can see why.
    Senator Wyden. Colleagues, does anyone wish to ask Senator 
Boxer anything? Or we will excuse her at this time.
    Senator Boxer. Thank you very much, all.
    Senator Wyden. OK. Thank you, Chair Boxer.
    Our next witness will be the Honorable Brent Wahlquist, 
Director of the Office of Surface Mining Reclamation; Henri 
Bisson of the Bureau of Land Management; Joel Holtrop of the 
Forest Service. If all of you will come forward.
    Gentlemen, we will make your prepared remarks a part of the 
record. Mr. Holtrop has heard me say extra credit for 
summarizing your views will be great because I know colleagues 
want to ask questions. Why do we not begin with you, Mr. 
Wahlquist?

   STATEMENT OF BRENT WAHLQUIST, DIRECTOR, OFFICE OF SURFACE 
 MINING RECLAMATION AND ENFORCEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Wahlquist. Mr. Chairman and distinguished members of 
the committee, I appreciate the opportunity to be here to 
submit testimony on S. 2448. I have submitted a short statement 
for the record and will be happy to address any questions.
    [The prepared statement of Mr. Wahlquist follows:]
  Prepared Statement of Brent Wahlquist, Director, Office of Surface 
 Mining Reclamation and Enforcement, Department of the Interior, on S. 
                                  2448
    Mr. Chairman and Distinguished Members of the Committee, thank you 
for the opportunity to submit testimony on S. 2448, a bill to make 
certain changes to the 2006 Amendments to the Surface Mining Control 
and Reclamation Act of 1977 (SMCRA). This bill would require that funds 
distributed to certified States and Indian Tribes under Section 411(h) 
be made as direct payments to those States and Indian Tribes as opposed 
to using simplified grants for this distribution.
    Mr. Chairman, as we explain below, this bill will result in a 
significant loss to the US Treasury. Further, the bill would create a 
disparate funding advantage to those states and tribes that have no 
remaining coal AML problems. Yet addressing those problems was the 
basic reason for creating and extending the AML fund. Additionally, if 
these funds are distributed as direct payments, then the Treasury would 
have to borrow money in advance before States are ready to expend it, 
thereby allowing states to earn interest on those funds at the expense 
of the Federal taxpayer. That is not prudent fiscal policy. The bill 
could also have PAYGO costs. For all of these reasons, the 
Administration cannot support the bill.
                               background
    The Office of Surface Mining Reclamation and Enforcement (OSM) has 
always used grants to distribute Abandoned Mine Land (AML) funds. When 
grants are used to make disbursements, the funds remain in the US 
Treasury until they are actually needed to pay obligations by the 
States and Indian Tribes. Grants also provide controls to ensure that 
funds are spent for authorized purposes, which is particularly 
important for grants to uncertified States.
    The 2006 Amendments created two new types of Treasury payments to 
States and Indian tribes: (1) distribution of Treasury funds in lieu of 
the prior unappropriated state/tribal share balance to all states and 
tribes over 7 years, starting in fiscal year 2008 (Section 
411(h)(1))(prior balance replacement funds), and (2) payments in lieu 
of future state/tribal share to certified states and tribes, starting 
in fiscal year 2009 (Section 411(h)(2))(certified in lieu payments.) 
States and tribes receive funds from Treasury equal to their 
unappropriated balances so that those unappropriated funds actually 
remain in the AML fund and continue to earn interest that is paid 
annually to the United Mine Workers of America (UMWA) health care 
plans.
    As the law is currently written, OSM must continue to use grants to 
distribute both Treasury and AML funds. Therefore, for fiscal year 
2008, OSM used grants to distribute both Treasury and AML funds under 
the 2006 amendments.
    For certified States and Tribes, however, we provided a much 
simpler process since we do not have a responsibility for approving or 
disapproving individual expenditures.
    In this first year of distribution, certified states reported that 
this simpler process worked well for them. Wyoming, for example, has 
already obligated fiscal year 2008 payments for the University of 
Wyoming School of Energy Resources operating budget, a School of Energy 
Research gasification facility, and other construction projects. Our 
proposed rule, published on June 20, 2008 and currently out for public 
comment (Federal Register/Volume 73, No. 120 / June 20, 2008), is 
consistent with this simpler process.
                                s. 2448
    S. 2448 would require that the Treasury funds described above be 
distributed as direct payments to the certified States and Indian 
tribes. The effect of this requirement is a significant loss to the 
Treasury. The primary effect of this change is that certified states 
and tribes would be able to immediately deposit these funds in interest 
bearing accounts until spent rather than establishing a line of credit 
through a grant against which certified states and tribes can withdraw 
funds as needed to meet expenses charged to the grant. The bill does 
not alter distribution for uncertified States.
    The Department has serious concerns with the consequences of the 
direct payment scheme. The effect of this requirement is a loss to the 
Treasury. Currently, the unappropriated State and Tribal share balance 
in the AML fund earns interest and, pursuant to SMCRA, the interest is 
used to help defray the costs of health care for certain retired coal 
miners through UMWA heath care plans. In 2006, Congress mandated that 
replacement funds come from the Treasury rather than from the AML fund 
in order to ensure that the AML fund would not be depleted and would 
continue to produce interest for UMWA health care payments. By 
requiring that these replacement payments be paid upfront, we will have 
to borrow those funds and pay interest on them earlier and in a larger 
amount which will be in addition to the interest the AML fund is paying 
for UMWA health care.
    We are also concerned that the benefit of earning interest on 
direct payments would only be available to certified states and tribes 
that no longer have any coal AML problems to address, while those 
uncertified states with extensive remaining coal AML problems would not 
receive this benefit.
    Finally, the bill could have PAYGO costs by requiring an immediate 
outlay of funds for direct payments. In contrast, simplified grants 
provide funds as needed, so the outlays would take place over time.
    For these reasons, the Department cannot support S. 2448.

    Senator Wyden. Very good. That is a land speed record for 
testimony.
    Mr. Bisson, why do you not go next?

  STATEMENT OF HENRI BISSON, DEPUTY DIRECTOR, BUREAU OF LAND 
  MANAGEMENT, DEPARTMENT OF THE INTERIOR; ACCOMPANIED BY AVRA 
                 MORGAN, BUREAU OF RECLAMATION

    Mr. Bisson. Thank you, Senator, Mr. Chairman.
    Mr. Chairman and members of the committee, thanks for 
inviting me to testify. Because there are so many bills, I am 
going to be very briefly summarizing the Administration's 
position on each of these.
    The Department supports S. 2354, which directs the 
conveyance of 165 acres of BLM-administered public lands to the 
city of Twin Falls, Idaho to be used to improve water quality 
in the Snake River and enhance wildlife habitat. We would like 
the opportunity to work on some minor technical clarifying 
amendments.
    H.R. 3490 directs that 66 acres of land currently 
administered by the BLM be taken into trust for the benefit of 
the Tuolumne Band of Me-Wuk Indians in central California. The 
Department supports the legislation and would like to work with 
the committee on clarifying language.
    The Department supports H.R. 3651, which directs the 
conveyance of 431 acres of withdrawn public lands to the State 
of Utah for the use of the Utah Army National Guard. Again, we 
would like to work with you on some language regarding the 
reversionary clause.
    Three of the bills before the committee today designate BLM 
administered lands as wilderness. In general, the Department of 
the Interior supports the efforts of congressional delegations 
to resolve wilderness issues in their States. Congress has the 
sole authority to designate lands to be managed as wilderness, 
and we have repeatedly urged that these issues be addressed 
legislatively.
    The Department is concerned about ensuring that 
consideration is given to energy potential when any legislative 
proposal for special designation is considered. The BLM has 
reviewed the traditional and renewable energy values of these 
areas and has determined that there is low or no potential for 
energy development within the proposed wilderness areas.
    S. 3065 designates approximately 211,000 acres of public 
land in the Colorado Counties of Delta, Mesa, and Montrose as 
the Dominguez-Escalante National Conservation Area and 
designates a little over 66,000 acres as wilderness within the 
NCA. We support S. 3065 and would like the opportunity to work 
on a few modifications to the bill.
    The Eastern Sierra and Northern San Gabriel Wild Heritage 
Act, S. 3069, designates nearly half a million acres as 
wilderness, as well as 52 miles of wild and scenic river in the 
Eastern Sierra region of California. The designations in S. 
3069 are largely on National Forest System lands and we defer 
to the Department of Agriculture on those designations.
    We support the proposed Amargosa Wild and Scenic River 
designation, and with modifications, the proposed Granite 
Mountain Wilderness Area to be managed by the BLM.
    We support H.R. 2632, which designates nearly 16,000 acres 
of BLM-administered lands in northwestern New Mexico as the 
Sabinoso Wilderness Area.
    Finally, I am submitting testimony on behalf of the 
Department of the Interior on S. 3085, the Cooperative 
Watershed Management Act. Because of the concerns outlined in 
the full testimony, the Administration cannot support the bill.
    I am accompanied by Avra Morgan who is from the Bureau of 
Reclamation who would be happy to answer any questions 
regarding S. 3085.
    Thank you for the opportunity to present the 
Administration's position on these bills, and I would be glad 
to answer any questions.
    [The prepared statements of Mr. Bisson follow:]
 Prepared Statements of Henri Bisson, Deputy Director, Bureau of Land 
                 Management, Department of the Interior
                               h.r. 2632
    Thank you for inviting me to testify on H.R. 2632, the Sabinoso 
Wilderness Act The Department of the Interior supports H.R. 2632, a 
bill designating 15,995 acres of BLM-managed land in northwestern New 
Mexico as the Sabinoso Wilderness area.
    The Department strongly supports Congressional efforts to resolve 
wilderness designations throughout the West, and we welcome this 
opportunity to further those efforts. Only Congress can determine 
whether to designate Wilderness Study Areas (WSAs) as wilderness or 
release them for other multiple uses. We support the resolution of WSA 
issues and stand ready to work with Members of Congress toward this 
goal.
    The Sabinoso area provides a rugged and dramatic landscape. Deep 
sinuous canyons are interspersed with flat-topped mesas in an area that 
has changed little over the last several hundred years. While there is 
both archaeological and historical evidence of sporadic human 
visitation, the rough nature of the terrain has discouraged all but the 
hardiest. Today, the canyons and mesas are home to mule deer, elk, 
mountain lion, and wild turkey. Golden eagles and turkey vultures soar 
off the thermals rising from sandstone canyon walls.
    The Department is concerned about ensuring that consideration is 
given to energy potential when any legislative proposal for special 
designation is considered. The BLM has reviewed the traditional and 
renewable energy values of the proposed Sabinoso Wilderness, and has 
determined that there is low or no potential for energy development 
within the area.
    The BLM is currently working with the state on a land exchange 
which would result in the acquisition of state land inholdings within 
the proposed wilderness. This process should be completed within a 
year. We also are in discussions with private landowners in the area 
about acquiring either conservation easements or fee title of some of 
the private inholdings. The BLM only explores such options from willing 
landowners.
    The local community has worked in the spirit of cooperative 
conservation to reach consensus on the proposed designation. The New 
Mexico House of Representatives and San Miguel County, New Mexico have 
passed resolutions in support of wilderness designation of Sabinoso.
    Thank you for the opportunity to testify. I will be happy to answer 
any questions.
                               h.r. 3651
    Thank you for inviting me to testify on H.R. 3651, the Utah 
National Guard Readiness Act. The Department supports the conveyance of 
the lands identified in H.R. 3651 to the State of Utah for homeland 
security or national defense purposes. However, we would like the 
opportunity to work with the Committee on some modifications to the 
reversionary clause.
                               background
    Camp W. G. Williams is located approximately 25 miles south of Salt 
Lake City, Utah, in an area of expanding residential development. The 
24,000 acre base is a National Guard training site administered by the 
Utah Army National Guard and includes training facilities for a variety 
of military purposes. Approximately 18,000 acres of the base are 
comprised of public land that has been withdrawn to the United States 
Army as a training facility for the Utah Army National Guard under the 
provisions of Executive Order 1922 and Title IX of Public Law 101-628, 
the Arizona Desert Wilderness Act of 1990.
    H.R. 3651 directs the Secretary of the Interior to convey to the 
State of Utah at no cost approximately 431 acres of the 18,000 acres 
currently withdrawn for the purpose of permitting the Utah Army 
National Guard to use the conveyed land. The legislation includes a 
reversionary clause to return the land to the ownership of the United 
States if attempt is made by the State of Utah to sell the land or use 
the land for non-National Guard or non-national defense purposes.
    Because the public lands proposed for conveyance are currently 
withdrawn for the benefit of the United States Army, a portion of the 
overall withdrawal to the Army is revoked by this legislation in order 
that the lands may be appropriately conveyed. We defer to the 
Department of Defense on their position on the partial revocation of 
the underlying withdrawal.
    As we have expressed in prior statements, the Department generally 
supports a conveyance at no cost if the conveyed land is used for 
important national security and defense purposes. We would note that 
these lands are already withdrawn for military uses to the U.S. Army 
for use by the Utah National Guard. We would like clarification why it 
is necessary to convey land directly to the State of Utah for use by 
the National Guard.
    We would like to work with the sponsor of the legislation on some 
technical considerations regarding the reversionary clause. 
Specifically, the reversionary clause language is broad and would be 
difficult for the Department of the Interior to oversee. Additionally, 
the Department would like any reversionary clause to be exercised at 
the discretion of the Secretary.
    Thank you for the opportunity to provide testimony.
                               h.r. 3490
    Thank you for inviting me to testify on H.R. 3490, the Tuolumne Me-
Wuk Land Transfer Act. The legislation directs that approximately 66 
acres of land currently administered by the Bureau of Land Management 
(BLM) be taken into trust for the Tuolumne Band of Me-Wuk Indians of 
the Tuolumne Rancheria (Tribe). The House of Representatives passed 
this legislation on April 29, 2008, with an amendment in the nature of 
a substitute. The Department supports the bill; however we would like 
to work with this Committee to clarify language in the House-passed 
bill.
    H.R. 3490 represents years of cooperative effort between the Tribe 
and the BLM. The Tribe seeks trust status for three parcels of BLM-
managed lands: the first tract, an approximately 50.2 acre parcel, to 
establish a cultural center. The second tract, of approximately 15.35 
acres, would help meet the Tribe's agricultural, housing, and open 
space needs. The third tract, of approximately 0.4 acres, contains a 
cemetery where tribal members and other Indians are buried. These 
scattered tracts of public lands are adjacent to the current Tuolumne 
Indian Rancheria, located just north of the small community of 
Tuolumne, in rural northwest Tuolumne County, California.
    The land in question has been managed by the BLM pursuant to a 1983 
Management Framework Plan (MFP) for the Tuolumne River Management Area. 
The MFP was replaced by the Sierra Resource Management Plan (SRMP) 
through a Record of Decision on February 15, 2008. The SRMP clearly 
identifies these scattered tract parcels as potentially available for 
disposal based on current land uses. Transfer of the administrative 
jurisdiction of the three parcels from the BLM to the Bureau of Indian 
Affairs (BIA) would therefore conform to the SRMP.
    The Department is pleased that H.R. 3490 addresses valid and 
existing rights and gaming. Our testimony on H.R. 3490 before the House 
Committee on Natural Resources (April 9, 2008) raised a concern about 
the timeframe the bill allowed for completing necessary surveys. At 
markup, the Natural Resources Committee amended section 3(d) of the 
bill as we had recommended. The Department appreciates the positive 
action to address our concerns.
    We are concerned that language pertaining to the National 
Environmental Policy Act (NEPA) in the House-passed bill may lead to 
confusion. We would appreciate the opportunity to work with this 
Committee on clarifying language.
    The Department has had a cooperative working relationship with the 
Tuolumne Band of Me-Wuk Indians on this requested land transfer and 
supports H.R. 3490 with clarification.
    This concludes my prepared testimony. I am happy to answer any 
questions the Committee may have.
                                s. 3065
    Thank you for inviting me to testify on S. 3065 the Dominguez-
Escalante National Conservation Area and Dominguez Canyon Wilderness 
Area Act. The Department of the Interior supports S. 3065 and would 
like the opportunity to work with the sponsor and the Committee on some 
modifications.
                               background
    The nearly 211,000 acres of public lands comprising both the 
proposed Dominguez-Escalante National Conservation Area (NCA) and 
within it the Dominguez Canyon Wilderness Area span three western 
Colorado counties: Mesa, Delta and Montrose. Special designation for 
this area recently came to fruition through a collaborative process 
driven by the Colorado Congressional delegation, the Mesa, Montrose and 
Delta County Commissions, the National Resources and Policy Institute 
at Mesa State College and the Public Lands Partnership.
    This effort, undertaken in the spirit of cooperative conservation, 
seeks to protect astounding landscapes. Red-rock canyon walls and 
sandstone bluffs covered in pinyon-juniper tower thousands of feet 
above a treasure trove of cultural and historic sites. These canyons 
are interlaced with the West's most valuable resource--water. Escalante 
Creek and the Little and Big Dominguez Creeks drain the eastern 
Uncompahgre Plateau, cascading through sandstone canyon walls 
displaying 600 million years of history. A variety of wildlife call 
Dominguez-Escalante home, including desert bighorn sheep, golden eagle, 
mountain lion, black bear, mule deer and the collared lizard. The area 
offers some of the best mule deer hunting to be found anywhere in the 
Rocky Mountain West.
    Rock art, created by those who came before, tells the story of 
shelter and sustenance sought in these canyons and valleys for 
thousands of years. Today, the Ute Tribes view these lands as an 
important connection to their ancestral past.
    S. 3065 proposes to designate 210,677 acres of BLM-managed land as 
the Dominguez-Escalante NCA and within it the 66,280 acre Dominguez 
Canyon Wilderness Area. Each of the NCAs designated by Congress and 
managed by the Bureau of Land Management (BLM) is unique. For the most 
part, however, they have certain critical elements, which include 
withdrawal from the public land, mining and mineral leasing laws; OHV-
use limitations; and language that charges the Secretary to allow only 
those uses that further the purposes for which the NCA is established. 
Furthermore, NCA designations should not diminish the protections that 
currently apply to the lands. Section 4 of S. 3065 designating the 
Dominguez-Escalante NCA is consistent with these principles and we 
support its designation.
    Section 5 of the bill designates over 66,000 acres of the NCA as 
wilderness. These lands are currently part of the Dominguez Wilderness 
Study Area (WSA). The Department strongly supports Congressional 
efforts to resolve wilderness designations throughout the West, and we 
welcome this opportunity to further those efforts. Only Congress can 
determine whether to designate WSAs as wilderness or release them for 
other multiple uses and we have repeatedly urged that these issues be 
addressed legislatively. We support the designation proposed by the 
legislation and would like the opportunity to work with the sponsor and 
the Committee on possible minor boundary adjustments to ensure 
efficient manageability.
    The current WSA covers approximately 68,505 acres of BLM-managed 
public lands. Approximately 3,000 acres currently managed as WSA are 
not proposed for wilderness designation. We recommend the release of 
those acres from WSA status. Those acres remain within the NCA but 
their release from WSA status will improve efficiency and clarify 
management.
    There are three unusual provisions in the S. 3065 which are unique 
to this area and we would like to briefly describe them. First, section 
7(d) (3) allows for the exchange of certain lands within the NCA. 
Typically we do not exchange lands within NCAs, however in this case 
the exchange of private land within the NCA for public land within the 
NCA would further the protective purposes for which the NCA is 
established and resolve an inadvertent trespass situation. We support 
this provision. Second, section 7(h)(5)(B) allows for construction of 
new livestock watering facilities described in existing planning 
documents, provided they result in no impairment of the wilderness and 
provide for the protection and improved management of the wilderness. 
This is consistent with Congressional guidance on grazing in wilderness 
and is in accordance with BLM's wilderness management regulations. 
Last, section 7(j) makes clear that the legislation does not affect the 
preexisting life estate agreement for a single individual within the 
wilderness. This agreement has been in place for nearly 20 years and we 
support the provision clarifying that there is no intent to modify or 
alter that agreement.
    The Department is concerned about ensuring that consideration is 
given to energy potential when any legislative proposal for special 
designation is considered. The BLM has reviewed the traditional and 
renewable energy values of this area proposed for designation, and has 
determined that there is low or no potential for energy development 
within the proposed Dominguez-Escalante NCA and wilderness area. 
However, we would note that the BLM has undertaken a planning process 
for energy right-of-way corridors as required by section 368 of the 
Energy Policy Act of 2005 (P.L. 109-58). A portion of one of those 
proposed corridors (#132-136) crosses the eastern edge of the proposed 
Dominguez-Escalante NCA. This proposed corridor on Federal land 
provides for an important north-south route connection for critical 
energy transmission, crossing the Gunnison River on the eastern side of 
the NCA and connecting to an existing designated corridor on Federal 
land north of Highway 50. The Draft Environmental Impact Statement 
(EIS) for the corridor planning process under Section 368 was released 
in November 2007; a Final EIS is expected to be released in November of 
this year. While rights-of-way are not prohibited within NCAs, the 
sponsor may want to consider a minor boundary modification to exclude 
the proposed corridor from the NCA.
    Thank you for the opportunity to testify in support of S. 3065, I 
will be happy to answer any questions.
                                s. 3069
    Thank you for inviting me to testify on S. 3069, the Eastern Sierra 
and Northern San Gabriel Wild Heritage Act. The designations included 
in S. 3069 are largely on National Forest System lands and we defer to 
the Department of Agriculture on designations on lands predominantly 
under their jurisdiction. The Department of the Interior supports the 
proposed Wild & Scenic River designation on lands administered by the 
Bureau of Land Management (BLM) and, with modifications, the proposed 
Granite Mountain Wilderness area to be managed by the BLM.
    S. 3069 is a wide-ranging bill which designates nearly half a 
million acres of wilderness, 52 miles of Wild & Scenic River, and a 
number of special management areas in the Eastern Sierra region of 
California. We will limit ourselves to a discussion of those 
designations directly affecting BLM-managed lands, specifically the 
proposed Amargosa Wild & Scenic River and the proposed Granite Mountain 
Wilderness, as well as the release of several BLM-managed Wilderness 
Study Areas (WSAs). Additionally, we will address those portions of the 
proposed White Mountain Wilderness and John Muir Wilderness Additions 
that are managed by the BLM.
    The BLM supports that portion of section 6 of S. 3069 that 
designates approximately 26 miles of the BLM-managed Armargosa River 
under the Wild & Scenic Rivers Act. This designation is consistent with 
BLM planning and has strong local backing. Five separate segments of 
the Amargosa are designated including one wild segment, two scenic 
segments, and two recreational segments. The Amargosa, known locally as 
the ``Crown Jewel of the Mojave Desert,'' is the only free-flowing 
river in the Death Valley area and as such provides a rare and lush 
riparian space in the desert. This proposed Wild & Scenic River 
designation is the result of a grassroots community-based effort 
through cooperative conservation.
    Section 3 of S. 3069 designates a number of areas as wilderness, 
including one that is primarily on BLM-managed lands, and section 5 
releases all or part of four BLM WSAs to a wider range of multiple 
uses. The Department strongly supports Congressional efforts to resolve 
wilderness designations throughout the West, and we welcome this 
opportunity to further those efforts. Only Congress can determine 
whether to designate WSAs as wilderness or release them for other uses. 
We would like the opportunity to work with the sponsor and the 
Committee on some technical modifications to the wilderness management 
language to assure consistency.
    The proposed 35,564 acre Granite Mountain Wilderness lies primarily 
on BLM-managed lands (approximately 2,700 acres are within the Inyo 
National Forest). This is an area of stunning vistas: to the northwest 
is Mono Lake with a spectacular backdrop of the Great Basin, and the 
Sierra Nevada range soars to the skyline with snowcapped peaks and 
granite spires. Wildlife values are high and the area abounds with 
raptor nesting sites and provides an intact natural corridor for deer 
during critical seasonal migrations.
    We support the designation and would like the opportunity to work 
with the sponsor and the Committee on possible minor boundary 
adjustments to ensure efficient manageability. In addition, we would 
like the opportunity to prepare the map of the Granite Mountain 
Wilderness to be referenced in the legislation.
    The Department is concerned about ensuring that consideration is 
given to energy potential when any legislative proposal for special 
designation is considered. The BLM has reviewed the traditional and 
renewable energy values of the DOI portions of the Granite Mountain 
Wilderness proposed for designation and has determined that there is 
low or no potential for energy development within the area.
    The legislation also releases several WSAs and returns them to a 
wider range of multiple public uses as prescribed in BLM's Bishop 
Resource Management Plan. Specifically, the bill releases the 6,493 
acre Masonic Mountain WSA, the 7,721 acre Mormon Meadow WSA, the 12,840 
acre Walford Springs WSA, and those portions of the Granite Mountain 
WSA not designated by this bill, approximately 22,481 acres. We support 
these Congressional efforts to resolve WSA status. In addition, we 
recommend the release of the 760 acres of the White Mountains WSA that 
are not designated as wilderness by this bill.
    Finally, S. 3069 designates as wilderness several areas of BLM-
managed land that are contiguous to much larger areas of National 
Forest System lands designated as wilderness in this bill. The proposed 
80,000-acre John Muir Wilderness Additions include five small BLM 
parcels totaling 780 acres. The proposed 223,500-acre White Mountains 
Wilderness includes five small BLM parcels totaling 1,200 acres on the 
western edge of the proposed wilderness and one large 22,300 acre area 
on the eastern edge. We defer to the Forest Service on the larger issue 
of designation of the John Muir Wilderness Additions and the White 
Mountains Wilderness.
    Thank you for the opportunity to testify on S. 3069 as it affects 
BLM-managed lands. I'll be glad to answer any questions.
                                s. 2354
    Thank you for inviting me to testify on S. 2354. This legislation 
directs the Secretary to convey without consideration approximately 165 
acres of BLM public lands to the city of Twin Falls, Idaho, to be used 
to improve water quality in the Snake River and enhance wildlife 
habitat. We understand that the proposed conveyance is part of a 
broader project that would accomplish important public purposes, and 
the Department recognizes the vision and leadership of the city of Twin 
Falls in developing this innovative and cooperative conservation 
effort. The Department supports S. 2354. We would like the opportunity 
to work with the sponsors on certain clarifying technical amendments.
                               background
    In 2002, the city of Twin Falls purchased about 520 acres of 
private land within the Snake River Canyon in order to create a public 
park and wildlife habitat with unique environmental and public 
benefits. The land, known as Auger Falls, is located about two miles 
downstream of the City's wastewater treatment plant, which daily 
discharges nearly 7 million gallons of treated wastewater into the 
Snake River. The treated wastewater meets or exceeds Federal permit 
standards, but still contains nutrients, such as nitrogen and 
phosphorus, which tend to promote the growth of mosses and other 
potentially harmful aquatic species within the river. The proposed 
project would improve water quality in the Snake River by constructing 
53 acres of wetlands at Auger Falls. The treated wastewater would be 
piped from the treatment plant to the wetlands, where it will be 
filtered further by soils, aquatic plants, and organisms, allowing 
cleaner water to return to the Snake River. The City's project master 
plan envisions acquiring and incorporating 165 acres of adjacent BLM 
lands into the Auger Falls Project. The treated wastewater would be 
used to establish riparian vegetation in the series of wetlands and to 
create wildlife habitat throughout the combined 685 acre site. Public 
access would be provided to the entire area, and hiking, wildlife 
viewing, environmental education and other dispersed recreation 
activities would be made available and encouraged.
    S. 2354 would convey to the city of Twin Falls, without 
consideration, four parcels of BLM-managed land totaling approximately 
165 acres. Under the bill, the conveyed lands would be used to support 
public purposes and could not be used for residential or commercial 
purposes, except for a limited agricultural exemption to allow for 
water quality and wildlife habitat improvements. The conveyed lands 
would revert to the United States, at the discretion of the Secretary, 
if the lands identified were no longer used in accordance with the 
purposes of the bill. The bill also provides that the city of Twin 
Falls would pay all survey and administrative costs necessary for the 
transfer, and that the conveyance would be subject to valid existing 
rights.
    The BLM lands identified for conveyance in S. 2354 are isolated 
parcels surrounded by private or City-owned lands. Two of the parcels 
have no legal public access. We note that among the valid existing 
rights on the parcels are a Federal Energy Regulatory Commission (FERC) 
Water Power Site Reservation (Project No. 565, IDI-5630), a FERC Power 
Project Withdrawal (Project No. 6015, IDI-26589), and a United States 
Geological Survey (USGS) Water Power Site Classification (Project No. 
390, IDI-15798). In accordance with Section 24 of the Federal Power 
Act, patents issued for the conveyed lands must include a reservation 
to the United States for potential future power site development. We 
understand that FERC representatives have indicated the proposed 
transfer would have minimal affect on the withdrawals, but we defer to 
FERC for its views on this issue.
    The Department supports the conveyance identified in S. 2354 
because it will help achieve important public purposes and is 
consistent with the intent of the Recreation and Pubic Purposes Act. 
The bill would maintain and potentially enhance the resource values on 
these lands, and we understand it would also contribute to a broader 
effort that would provide important public and environmental benefits. 
To confirm and strengthen this understanding, we would like to work 
with the sponsors to more fully describe the purpose of the conveyance 
in terms of the specific goals of the Auger Falls Project. We would 
also like to work with sponsors on certain technical amendments to 
clarify and facilitate the conveyance process, including providing a 
map instead of legal descriptions of the lands to be conveyed.
    We appreciate the effort of the city of Twin Falls and the sponsors 
to craft an innovative and cooperative conservation effort that will 
provide wide-ranging benefits to public lands and the region's 
environment.
    Thank you for the opportunity to testify. I will be glad to answer 
questions.
                                s. 3085
    Mr. Chairman and members of the Subcommittee, I am pleased to 
provide the Department of the Interior's views on S. 3085, the 
Cooperative Watershed Management Act of 2008. The Administration 
believes current programs address some of the purposes of this bill and 
would like to review its various programs with the sponsors; however, 
because of the concerns outlined below, the Administration cannot 
support the bill.
    This legislation would authorize $199 million to provide grants to 
create a new Cooperative Watershed Management Program (Program) that 
would facilitate cooperative watershed management groups (Groups). 
Participation in the Program would be subject to eligibility criteria, 
and these Groups would be made up of a broad cross section of 
stakeholders within a given watershed and include tribes and any 
Federal agencies with authority in the watershed, including the United 
States Department of Agriculture, the Department of the Interior, and 
the Department of Commerce (through the National Oceanic and 
Atmospheric Administration).
    The legislation would require DOI, within 1 year of the 
legislation's enactment, to establish an application process for which 
an eligible entity would apply for a grant. S. 3085 also would require 
DOI to establish criteria that would determine if a management entity 
was eligible for a grant. S. 3085 also proposes implementing this 
program in three separate phases. The first phase seeks to provide 
funding as a way of increasing or establishing membership in the 
various management groups, develop a mission statement for the group, 
and develop project concepts. The second phase is designed to provide 
grants to eligible management groups to conduct watershed management 
projects. Finally, the legislation envisions a third phase that would 
enable management groups that have completed the requirements of the 
second phase and demonstrated demonstrable improvements in the 
functioning condition of at least one river or stream in the watershed 
to receive multi-year funding.
    There are a multitude of groups of various forms with watershed 
management interests. The groups are generally grass roots in nature 
and structured to meet local needs. Interior agencies participate in 
and support watershed groups as appropriate to their local 
jurisdiction.
    The Department has several concerns with S. 3085. While grant 
funding as in S. 3085 would benefit certain of these groups, 
implementation of this bill would have to compete for funds with other 
ongoing Federal projects. Also, the Federal cost share commitment--
which can range from 50 percent to 100 percent--could leave the Federal 
Government as the primary source of funding for these watershed 
projects.
    Furthermore, the Department's Water for America initiative 
contemplates an increased role for Interior agencies working at the 
watershed level with urban, rural, and agricultural water users to 
stretch existing water supplies and carry out measures to protect 
endangered species at high-risk watersheds, thereby averting water 
crises. The President's fiscal year 2009 Budget included $21.3 million 
for the Water for America initiative.
    In addition, the Department's Cooperative Conservation Enhancement 
Act (S. 2231), introduced by Senator Bingaman on behalf of the 
Administration, would among other things, authorizes grants and 
cooperative agreements for funding up to 50 percent of the costs of 
planning, designing, or constructing improvements for water 
conservation and use purposes. The Department, through the U.S. Fish 
and Wildlife Service, also provides financial support to implement the 
National Fish Habitat Action Plan, a state-led investment strategy that 
fosters local and regional partnerships, which mirror the watershed 
management groups envisioned by S. 3085. S. 2231 also would clarify 
existing partnership and cooperative agreement authorities while 
reducing administrative barriers.
    The Department is well aware of the challenges western water users 
are facing as a result of drought and increased demand for limited 
water resources. Further, we agree that many of the best solutions to 
the challenges faced by individual watersheds come from the local 
level. Toward resolving these problems, Interior agencies have subject 
matter experts on the ground in these watersheds, and, Reclamation in 
particular, are working with local entities to address short-and long-
term water challenges. We remain concerned, however, that the new 
program would compete with existing funding for ongoing projects, and 
could be duplicative of those efforts.
    The Department understands the importance of continuing its 
coordination and participation with local watershed groups and is 
continuing to explore options that will provide significant benefits to 
the water users and public. Thank you for the opportunity to present 
the Department of the Interior's views on this legislation.

    Senator Wyden. Mr. Bisson, thank you.
    We have been joined by the chairman of the full committee, 
Senator Bingaman, also Senator Craig.
    I think what we will do now is we will have you go, Mr. 
Holtrop, and then we will go to Chairman Bingaman. We will go 
to Senator Craig for any opening statements they would like to 
make. Then we will have questions.
    Mr. Holtrop.

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
       SYSTEM, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Mr. Chairman and members of the committee, 
thank you for inviting me to provide the Department of 
Agriculture's views on S. 3069 and H.R. 3473. You have my full 
statement for the record. So this afternoon I will provide you 
with a brief summary.
    The Eastern Sierra and Northern San Gabriel Wild Heritage 
Act is a large and complex bill. It would designate more than 
470,000 acres of new wilderness and about 52 miles of wild and 
scenic river. It creates a number of special management areas 
affecting both National Forest System and Bureau of Land 
Management lands.
    The Department supports many of the provisions of this 
bill, including many of the wilderness and wild and scenic 
river designations. We also appreciate the attention placed on 
motorized winter recreation. We are, however, unable to support 
all of the proposed designations.
    The Forest Service engages citizens in its land management 
planning process, and in this process, we work cooperatively 
with them to develop wilderness recommendations. These forest 
plans inform our views on this legislation.
    In general, the Department supports designation for 
wilderness areas that were recommended for wilderness in our 
forest land management plans. We would not oppose wilderness 
designation by Congress for most of the other proposed areas if 
certain boundary adjustments and technical corrections are 
made.
    In addition, we would not oppose if issues that we 
identified today are addressed. We would like to discuss 
specific boundaries with the subcommittee and bill sponsors.
    In summary, the Department supports the many aspects of S. 
3069 which would add outstanding landscapes in the Eastern 
Sierra and Northern San Gabriel areas of California to the 
wilderness preservation system. As I have testified before, the 
Forest Service has always championed wilderness. We care about 
maintaining the integrity of wilderness areas as places that 
are dominated by forces of nature and that offer outstanding 
opportunities for solitude or primitive and unconfined 
recreation. For those reasons, we would like to work with the 
subcommittee and the bill's sponsors to address our concerns.
    Turning to H.R. 3473, the Bountiful City Land Consolidation 
Act, the Department support its concepts. The current bill does 
not reflect a number of provisions that are needed before we 
can support this legislation. The bill proposes to exchange an 
urban parcel of National Forest System land adjoining the city 
of Bountiful for watershed lands and funds to purchase 
additional lands on the Wasatch-Cache and Uinta National 
Forests in Utah. The national forest urban parcel includes a 
shooting range operated under permit to the local Lions Club. 
The club desires to invest in shooting range improvements, and 
the city of Bountiful would like to assist the club.
    For the Department to support the legislation, we request a 
few important changes and clarifications such as providing for 
a cash equalization payment in excess of 25 percent, providing 
for the city to assume liability for the hazardous waste 
associated with the shooting range, requesting flexibility to 
conduct environmental analysis at an appropriate level. The 
bill should clearly state that the agency has authority for 
direct or competitive sale of the urban parcel, and the bill 
should provide for a 2-year timeframe for the city to acquire 
the property.
    Let me be clear. The Forest Service does not oppose target 
shooting on national forests. Nevertheless, local partners are 
often better equipped to manage these facilities. In this case, 
it would be a better fit for the city to own the land and the 
Forest Service to manage the lands within the surrounding 
watershed.
    That concludes my statement, and I will be happy to answer 
any of your questions.
    [The prepared statement of Mr. Holtrop follows:]
   Prepared Statement of Joel Holtrop, Deputy Chief, National Forest 
System, Forest Service, Department of Agriculture, on S. 3069 and H.R. 
                                  3473
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide the Department of Agriculture's views on the 
Forest Service bills before you today: S. 3069: The Eastern Sierra and 
Northern San Gabriel Wild Heritage Act and H.R. 3473: the Bountiful 
City Land Consolidation Act.
 s. 3069: the eastern sierra and northern san gabriel wild heritage act
    S. 3069 is a large and complex bill that would designate more than 
470 thousand acres of new wilderness and about 52 miles of wild and 
scenic river. It would create a number of special management areas, and 
would establish specific management direction for wilderness areas 
designated under this Act. These designations would affect both 
National Forest System (NFS) and Bureau of Land Management (BLM) lands. 
Our discussion is focused on proposals involving NFS lands.
    The Department supports many of the provisions of this bill, 
including much of the wilderness and wild and scenic river 
designations, as well as the attention focused on motorized winter 
recreation. However, we are unable to support all of the proposed 
designations because of various conflicting uses or because the areas 
do not meet the criteria established by the Wilderness Act of 1964 and 
Forest Service policy. Questions and concerns remain on some of the 
bill's provisions. One area of special concern relates to the clarity 
and technical adequacy of the maps that accompany this bill and has 
posed a challenge to our ability to understand the extent of the bill 
and assess implications regarding on-the-ground management of areas 
within, and adjacent to, proposed boundaries. We would like to work 
with the subcommittee and bill sponsors to address these and other 
outstanding issues.
    Consistent with the Wilderness Act and National Forest Management 
Act, the Department supports wilderness designation for areas that are 
dominated by the forces of nature, and that offer outstanding 
opportunities for solitude or primitive and unconfined recreation. The 
Forest Service engages the public in its land management planning 
process as a means of collaboratively developing wilderness 
recommendations. The Forest Plans for the three National Forests on 
which these designations would occur have informed our views on this 
legislation.
                       proposed wilderness areas
Magic Mountain and Pleasant View Ridge
    S. 3069 would designate 13,709 acres as the Magic Mountain 
Wilderness and 28,424 acres as the Pleasant View Ridge Wilderness in 
the Angeles National Forest, for a total of 42,133 acres of new 
wilderness. Because these areas were not recommended for wilderness in 
the Angeles National Forest Land and Resource Management Plan's 2005 
Record of Decision, the Department cannot support their designation 
unless certain boundary adjustments and corrections consistent with the 
Forest Plan are made to address the issues listed below.
    The Forest Plan allocated the majority of these acres (36,871) to 
Backcountry Non-motorized use. Backcountry nonmotorized areas are 
managed to meet the physical, managerial, and social settings 
consistent with the Recreation Opportunity Spectrum descriptions for 
semi-primitive non-motorized (SPNM) recreation. They provide a wide 
variety of dispersed recreation opportunities and settings. Natural 
processes are the primary agents for vegetative change, with vegetation 
management used only to protect the resource or complement the 
recreational value. To minimize potential conflicts, the continued use 
of the current Forest Plan designation remains appropriate, but the 
Department would not object to the designation by Congress of these 
lands as wilderness. The remaining acres are allocated to Backcountry 
Motorized Use Restricted (2,349 acres), Developed Area Intermix use 
(1,158 acres), and Critical Biological use (774 acres).
    These Forest Plan land management designations accommodate several 
different uses within these areas that wilderness designation could 
potentially impact. There are four mining operations located in the 
proposed Magic Mountain Wilderness. In the proposed Pleasant View Ridge 
Wilderness, there are several linear special use permits, including 
water and electric lines that would require mechanical equipment to 
access and maintain, a developed trail camp that serves hikers on the 
Pacific Crest Trail, and active fuel reduction projects that provide 
defensible space in the wildland urban interface. To minimize these 
potential impacts, we suggest the continued used of the current Forest 
Plan designation remains appropriate.
    If wilderness areas are designated on the Angeles National Forest 
beyond those recommended in the Forest Plan, we suggest the areas 
allocated as backcountry non-motorized use would be more suitable than 
the other areas. We would like to work with the subcommittee and the 
bill's sponsors to adjust boundaries to allow most current uses to 
continue.
Hoover East and Hoover West Additions on the Humboldt-Toyaibe National 
        Forest
    S. 3069 would designate a total of 76,982 acres of new wilderness 
on the Humboldt-Toyaibe National Forest in the following areas: 39,815 
acres as the Hoover East Wilderness and 37,666 acres as the Hoover West 
Wilderness. A majority of these acres were recommended for wilderness 
designation in the Humboldt-Toiyabe National Forest Land Management 
Plan. Therefore we support their designation as wilderness, although we 
would like to discuss specific boundaries with the subcommittee that 
are consistent with Forest Plan recommendations. For example, the 
Hoover East Addition includes two large ``cherry stem'' wilderness 
exclusions, which are narrowly drawn corridors to exclude designated 
roads, travelways, or other areas from wilderness designation, and 
other boundary lines that do not coincide with the Forest Plan 
wilderness recommendations. We support the Forest Plan recommendations 
in their entirety.
Emigrant Wilderness Addition
    S. 3069 would add approximately 251 acres of the Humboldt-Toiyabe 
National Forest to the adjacent Emigrant Wilderness, which is currently 
managed by the Stanislaus National Forest. This area is allocated as 
semi-primitive non-motorized recreation in the current Forest Plan. We 
oppose designation of this area as wilderness due to additional 
difficulties that we would anticipate in managing oversnow vehicle use, 
which is already difficult here because of the nature of the terrain 
and conflicts with motorized crossing of the Pacific Crest National 
Scenic Trail. We would like to discuss the management situation in this 
area with the subcommittee and the bill's sponsors.
White Mountains Wilderness, Granite Mountain Wilderness, and Additions 
        to the Ansel Adams, Hoover, and John Muir Wildernesses
    Most of the lands that would be designated as wilderness by S. 
3069, approximately 313,400 acres, are located within the Inyo National 
Forest. This includes16,450 acres of an addition to the existing Hoover 
Wilderness (Hoover-Bighorn), 15,247 acres of the Owens River Headwaters 
to be added to the Ansel Adams Wilderness, and 79,850 acres to be added 
to the John Muir Wilderness. There are also two new wilderness areas 
designated by S. 3069: White Mountains Wilderness (199,000 acres on NFS 
lands) and the Granite Mountain Wilderness (2,900 acres on NFS lands). 
The other portions of these proposed wilderness areas are located on 
lands administered by the BLM.
    Several of these proposed designations were not recommended as 
wilderness in the Inyo National Forest Land and Resource Management 
Plan (Forest Plan), which was completed in 1988. The Inyo National 
Forest Plan recommended that approximately 172,600 acres be designated 
as wilderness, but not all of those acres coincide with the bill's 
proposals. However, since the Plan's approval in 1988, many of the 
issues, concerns, and conditions that informed the Plan decisions have 
changed, and merit reanalysis.
    In this regard, the Department supports designation of those acres 
recommended for wilderness designation in the Plan. The Department 
prefers to address other areas in light of changes mentioned above 
within the context of a forthcoming revision of the Forest Plan, but 
would not oppose wilderness designation by Congress for most of the 
other proposed areas, if certain boundary adjustments and technical 
corrections are made and if issues that we identify today are 
addressed.
    Within the White Mountains, the Forest Plan recommended 120,008 
acres as wilderness. Subsequent to the Forest Plan decision, Congress 
designated approximately 10,000 acres of the White Mountains as the 
Boundary Peak Wilderness Area within the State of Nevada. S. 3069 would 
add an additional 89,000 acres within the White Mountains beyond the 
Plan recommendation. A majority of these additional acres in the White 
Mountains were identified in the Forest Plan for semi-primitive 
recreation which includes opportunities for motorized use on designated 
routes. The Inyo National Forest is currently in the planning process 
for designating routes through a travel management planning process 
which, depending on the final decision of the planning process, may or 
may not concur with the routes designated as ``cherry stems'' in S. 
3069. We would like to work with the subcommittee and the bill's 
sponsors to address concerns.
               motorized corridors in proposed wilderness
    Overall, we are concerned with the extensive use of ``cherry 
stems.'' The areas that would be designated in this bill include over 
100 miles of ``cherry stems'' on NFS lands. In our view, it is 
important to maintain the integrity of wilderness by designating only 
those areas which are, as stated in the Wilderness Act of 1964 and in 
Forest Service policy, ``dominated by the forces of nature''. Allowing 
for continued motorized use miles into a designated wilderness, even 
along designated corridors, can lead to motorized incursions from the 
roadways, noise, and other intrusions, complicating wilderness 
management. Consistent with relevant Forest Plans, we recommend that 
areas where motorized use is necessary for uses such as range 
management, hunting, undeveloped recreation, and forest administration 
be omitted from wilderness designation. Such adjustments would result 
in more manageable boundaries for any proposed wilderness.
    Should this legislation move forward with the ``cherry stems'' as 
mapped and that are inconsistent with relevant Forest Plans, we would 
like to work with the subcommittee on establishing corridors wide 
enough to allow for proper maintenance. Many of these routes are within 
drainages that are prone to washouts necessitating rerouting or 
reconstruction. In addition, some of the boundaries are very close to 
paved high speed roads which incur a high level of use, as they provide 
access to popular recreation opportunities such as dispersed camping, 
hang gliding and technical rock climbing.
    Within the Inyo National Forest, an additional 11 miles of ``cherry 
stemmed'' roads are within inventoried roadless areas and are not 
designated as National Forest System roads. We would like to discuss 
this situation and inconsistencies with the Forest Plan with the 
subcommittee and bill's sponsors.
    In addition, on the Inyo National Forest, approximately 32.3 miles 
of non-system routes as well as 1.1 miles of system road are not 
``cherry stemmed'' but are within the boundaries of the proposed 
wilderness areas. These routes would require conversion to trails or 
decommissioning to protect resource values.
                  wild and scenic rivers designations
    S. 3069 would designate approximately 26.35 miles of streams on NFS 
lands as part of the Wild and Scenic Rivers System; 19.1 miles of Owens 
River Headwaters on the Inyo National Forest and 7.25 miles of Piru 
Creek on the Angeles and Los Padres National Forests.
    The Forest Service has not conducted a wild and scenic river 
suitability study for either of these rivers. The Forest Service did 
make a determination of eligibility. Of the Owens River Headwaters 
proposal, all of Glass Creek, the lower portion of Deadman Creek and 
the 1.0-mile segment of the upper Owens River were found eligible for 
the National Wild and Scenic Rivers System. Segments A, B and the 
majority of segment C of Deadman Creek, however, do not possess 
outstandingly remarkable values and were found ineligible. Consistent 
with these determinations, the Forest Service supports designation of 
the eligible river segments. While the Department prefers to address 
other areas in a manner consistent with relevant determinations, we 
would not oppose designation of the ineligible segments of Deadman 
Creek because of their contribution to protecting the Owens River 
Headwater's outstandingly remarkable values while avoiding the creation 
of new management conflicts. We also wish to work with the subcommittee 
and the bill's sponsors to clarify river classifications in this 
proposal.
    Section 6 of the bill incorrectly references the Secretary of the 
Interior as the administrator for the Owens River Headwaters (#172). 
The bill should be revised to indicate the Secretary of Agriculture as 
the administrator.
    The two segments of Piru Creek proposed in this bill are both 
eligible with an outstandingly remarkable value of geology. The Forest 
Service does not oppose this designation because it would have little 
effect on current and future resource management.
              ancient bristlecone pine forest designation
    S. 3069 would designate approximately 28,991 acres of the Inyo 
National Forest as the ``Ancient Bristlecone Pine Forest'' to conserve 
and protect Ancient Bristlecone Pines.
    This area contains groves of the oldest living trees in the world. 
We would like to work with the subcommittee on making minor boundary 
adjustments to add additional acreage to this proposal to ensure that 
all significant groves of ancient Bristlecone Pine are protected under 
this designation. The Department would support this designation if the 
bill is amended to remove the requirement in section 9(c) 4 for 
development of a new management plan for this area. As recognized in 
the bill, the 1988 Forest Plan provides sufficient direction for 
protection of this area, and the requirement to conduct additional 
planning would require the redirection of funds currently directed at 
the management of these outstanding resources.
                   bridgeport winter recreation area
    Section 7 of S. 3069 would create a new designation for 
approximately 7,680 acres of land on the Humboldt-Toiyabe National 
Forest called the Bridgeport Winter Recreation Area. The Department 
supports this designation based on an Environmental Assessment signed 
in 2005, which includes many of the same management prescriptions 
included in S. 3069. Accordingly, our support is contingent on 
amendment of the bill to remove section 7(d), which would require the 
Secretary to develop a winter use management plan. In addition, we are 
concerned about section 7(f), which would require the Secretary to 
establish a snowmobile crossing point along the Pacific Crest National 
Scenic Trail, and would like to discuss our concerns with the 
subcommittee and the bill's sponsors.
       management of ``area x'', humboldt-toiyabe national forest
    Section 8 of S. 3069 would designate approximately 3,200 acres 
referred to as ``Area X'' as a snowmobile use area. The Department 
would not oppose this designation if the language is amended to clarify 
that summer motorized travel will be restricted in ``Area X'', a 
management prescription that currently applies to only a portion of the 
surrounding area.
                    other management considerations
Outfitting and Guiding and Pack Station Considerations
    We are concerned about the potential impact that the proposed 
designations may have on existing outfitting and guiding and pack 
station operations on the Inyo National Forest and wish to advise 
Congress of these potential impacts prior to its enactment of 
designations. Without specific language to clarify the intended 
purposes of the proposed additions to the John Muir, Ansel Adams, and 
Hoover Wilderness areas, the proposal could directly affect the amount 
and location of existing commercial uses in these additions.
    Each of these wilderness areas has specific quotas on recreational 
use and, in some cases, court-ordered restrictions that could apply to 
the additions in the absence of explicit language to the contrary. For 
instance, the Inyo and Sierra National Forests are currently required 
by a court order to limit commercial pack stock operations in the John 
Muir and Ansel Adams Wilderness Areas. Many of the commercial services 
in these wilderness areas that were intentionally directed to non-
wilderness areas to reduce impacts on the wilderness areas would now be 
included in these proposed wilderness designations. Unless the bill 
would allow continuation of authorized outfitting and guiding that are 
currently conducted on lands that would be added to these wilderness 
areas, the number of service days allocated for outfitting and guiding 
on those lands would have to be reduced, per the court order.
    Section 4(j) of the bill may have been intended to address the 
foregoing concern. However, we believe additional clarification is 
needed. We would like to work with the subcommittee and the bill's 
sponsors to address these issues.
Management of Research Natural Areas
    There are three Research Natural Areas (RNAs) within the boundaries 
of wilderness areas proposed by this bill: Harvey Monroe Hall RNA 
(Hoover-Bighorn Additions), McAffe Meadows RNA (White Mountains), and 
White Mountains RNA (White Mountains).
    RNAs are administratively designated areas within national forests 
to be permanently protected and maintained in natural condition for the 
purposes of maintaining biological diversity, conducting non-
manipulative research and monitoring, and fostering education. RNAs 
help preserve our Nation's natural heritage for future generations. The 
protection afforded to RNAs is a critical step in maintaining a range 
of biological diversity of native ecosystems and species. Because they 
are protected in a natural state, RNAs also provide valuable 
opportunities for monitoring of long-term ecological change, and 
comparison of the effects of resource management activities against 
unmanaged controls.
    RNAs that are representative of common ecosystems in natural 
condition serve as baseline or reference areas for those ecosystems. 
Each RNA can have its own public use restrictions in order to protect 
its unique condition. These may be more restrictive than what is 
normally allowed in designated wilderness, such as prohibiting 
overnight camping. We will continue to address RNA management needs 
through our Forest Land Management Planning process.
Administrative Jurisdiction of Wilderness Areas
    S. 3069 would designate as wilderness several areas of BLM lands 
that are contiguous to much larger areas of NFS lands with existing 
wilderness. The proposed John Muir Wilderness additions include five 
small BLM parcels totaling approximately 780 acres. The proposed White 
Mountains Wilderness includes five small BLM parcels totaling 1,200 
acres on the western edge of the proposed wilderness. To ensure 
efficiency and consistency in wilderness management, it may make sense 
to transfer the administrative jurisdiction of these small parcels from 
the Secretary of the Interior to the Secretary of Agriculture and 
exclude the proposed 22,300 acre area on the eastern edge. We would 
also propose transferring administrative jurisdiction over the 2,700 
acres of NFS lands in the proposed Granite Mountain Wilderness to the 
Secretary of the Interior to improve management over these small 
parcels. We would like to further discuss this idea with the 
subcommittee.
Map Concerns
    The Department has many concerns regarding the maps that are 
referenced in the legislation. In general, the maps are difficult to 
understand and are technically inadequate due to gaps in the Geographic 
Information System data and improper labeling. Because they are vitally 
important to our on-the-ground management and implementation of 
Congress's direction, we would like to work with the subcommittee and 
bill sponsors to ensure the maps are adequate.
Summary
    In summary, the Department supports the many aspects of S. 3069 
that are consistent with relevant Forest Plans and which would add 
outstanding landscapes in the eastern Sierra of California to the 
Wilderness Preservation System. As I have testified before, the Forest 
Service has always been a champion of wilderness. We care about 
maintaining the integrity of wilderness areas as places that are 
dominated by the forces of nature, and that offer outstanding 
opportunities for solitude or primitive and unconfined recreation. For 
those reasons, we would like to work with the subcommittee and the 
bill's sponsors on our many specific concerns.
          h.r. 3473--the bountiful city land consolidation act
    When the Bountiful City Land Consolidation Act was considered 
before the Subcommittee on National Parks, Forests and Public Lands of 
the House Natural Resource Committee, the Department testified in 
support of enactment of H.R. 3473. The Department offered a number of 
amendments regarding mostly minor technical issues. The Department 
continues to support the concept of a bill as embodied by an amended 
H.R. 3473 that would authorize an exchange of urban interface lands 
which may be more appropriately managed by Bountiful City for lands in 
the watershed above the City, and would authorize the Secretary to 
retain and expend funds received by the Secretary for the conveyance in 
order to acquire additional land or interests in land to be included in 
the Wasatch-Cache National Forest.
    However, the bill that passed the House, and that is under 
consideration by the subcommittee today, is different from the bill we 
previously testified upon in a number of significant ways. As written, 
the current bill does not reflect a number of provisions that are 
needed for the Department's support. I will address the most important 
of these with you today.
    The bill that was introduced in the House and the bill under 
consideration today, H.R. 3473 would provide for the conveyance of up 
to 220 acres of an ``urban'' parcel of National Forest System lands 
adjacent to Bountiful City, Utah in exchange for 1,680 acres of 
environmentally significant headwater lands, interior to the National 
Forest, to be included within the Wasatch-Cache National Forest. This 
exchange of land could benefit both Bountiful City and the National 
Forest System by consolidating land ownership if exchanges by the 
parties reflect equitable values.
    The bill as introduced in the House would have provided for the 
following: 1) an equal value exchange of land between the Forest 
Service and Bountiful City and the authority for the Secretary to 
accept, if necessary, a cash equalization payment in excess of amounts 
authorized under current law; 2) a requirement that the portion of the 
parcel containing the shooting range be conveyed first; 3) the 
authority for the Secretary 2 years after the date of enactment, to 
dispose of any remaining portion of the National Forest System parcel 
by competitive means; and, 4) the authority for the Secretary to 
collect funds resulting from the conveyances under the bill, to be used 
for National Forest purposes, including acquisition of lands on the 
Uinta and Wasatch-Cache National Forests.
    Technical amendments suggested by the Forest Service to Committee 
staff included: 1) a provision to require the City to assume all 
liability for the shooting range located on the parcel to be conveyed 
and the past, present, and future condition of the land upon which the 
shooting range is sited; and 2) a provision to provide for an easement 
for the Bonneville Shoreline Trail and to provide for other outstanding 
rights.
    Both the bill as passed in the House and before you today would 
provide for an equal value exchange of land between the Forest Service 
and the city of Bountiful, and subsequent conveyance of the remaining 
Federal land, should certain conditions be met. These provisions would 
benefit the National Forest System by providing the agency with the 
authority to convey whatever portion of the isolated parcel of National 
Forest System land that may remain and to collect the funds for 
acquisition of lands to be included in the Wasatch-Cache and Uinta 
National Forests.
    However, under this bill, the Secretary would not be authorized to 
accept a cash equalization payment in excess of the 25 percent limit 
authorized by section 206(b) of the Federal Land Policy and Management 
Act (FLPMA). A consultation conducted recently indicates that the value 
of the Federal parcel will exceed the value of the Bountiful City lands 
and the 25 percent threshold. Thus a cash equalization payment is 
likely to be necessary in order to reflect exchanges by the parties 
that are of equitable value. It is unlikely that the Forest Service and 
Bountiful City would meet their respective land adjustment and 
consolidation goals without a provision for a cash equalization payment 
in excess of the 25 percent limit and thereby protect Federal taxpayer 
interests, so the Department is unable to support the removal of this 
provision from the bill.
    Further, the Department requests that the bill language clarify 
that the conveyance of the remaining Federal land may be achieved 
through competitive sale or direct sale. Without the sale provision, 
the Forest Service would have limited authority to convey a remaining 
parcel of National Forest System land. This provision would aid in 
managing the National Forest as it would eliminate the need for the 
Forest Service to manage an isolated and fragmented parcel of land and 
would more effectively marshal sale proceeds for the acquisition of 
lands or interests in land on the Wasatch-Cache National Forest.
    The bill would require an amendment to the Forest Plan and a public 
process consistent with the National Environmental Policy Act of 1969 
if the Secretary disposes of land identified for possible conveyance 
and not exchanged under section 2(a) of the bill. While the Forest 
Service is committed to undertake an environmental analysis, the agency 
would prefer to retain the flexibility to perform the analysis at the 
most appropriate level.
    This bill currently includes a provision to provide for an easement 
for the Bonneville Shoreline Trail and to provide for other outstanding 
rights. However, it does not include a provision requiring the City to 
assume the liability for the shooting range and the past, present, and 
future condition of the land upon which the shooting range is located. 
This is a critical concern for the Department.
    In summary, the concept embodied in this exchange is one the 
Department supports. Exchanging a heavily used urban parcel containing 
a shooting range to the City for 1,680 acres on the mountainside above 
the City plus the ability to purchase additional lands has great merit. 
Our concerns are in the details of liability as related to the 
disposition of the shooting range, cash equalization, and streamlining 
the administrative and analysis process for both parties.
    This concludes my prepared statement and I would be pleased to 
answer any questions you may have.

    Senator Wyden. Thank you very much.
    Let us go to the chairman of the full committee, Senator 
Bingaman.

 STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW MEXICO

    The Chairman. Thank you very much, Mr. Chairman, and thank 
you for letting me sort of parachute into your hearing here for 
just a minute.
    I wanted to speak just about one of the bills that is on 
your list today. That is H.R. 2632, the Sabinoso Wilderness 
Act. I know Mr. Bisson just indicated that the BLM supports 
this legislation. I am very pleased to see that.
    This is a bill that Representative Tom Udall from my home 
State introduced. It is a bill I strongly support. It would 
designate 16,000 acres of public land that are currently 
managed by the Bureau of Land Management in San Miguel County 
in my State. It does have the strong support of the county 
commission, the San Miguel County Commission, and strong 
support of the New Mexico legislature. Both have passed 
resolutions in support of this legislation. Clearly, I think 
anyone who has seen this area of our State recognizes the 
wildlife habitat and the important wilderness characteristics 
of the area that need to be preserved.
    Earlier this summer, the House passed H.R. 2632 on a voice 
vote. I am very glad to see the committee considering it today, 
and I hope we are able to move it through the committee as soon 
as possible and to the Senate floor and then on to the 
President for signature.
    Thank you very much.
    Senator Wyden. Thank you, Chairman Bingaman, and I am 
anxious to work with you on it to address exactly the issues 
you have raised.
    Senator Craig.

          STATEMENT OF HON. LARRY CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Mr. Chairman, thank you for the courtesy. I 
am here not only for the full agenda, but for two bills 
specifically, S. 2354 and S. 3085.
    S. 3085 is a bill offered by Senator Tester and Senator 
Crapo. Senator Tester, did you enter Senator Crapo's statement 
for the record?
    Senator Tester. I did, and thanks for asking.
    Senator Craig. Great. Thank you for doing it.
    It is a cooperative watershed management act. We think it 
is a very good piece of legislation. I am a sponsor of it, and 
I thank them and thank Senator Tester for his leadership.
    I would ask unanimous consent that my statement on that 
become a part of the record, Mr. Chairman.
    Senator Wyden. Without objection, that will be so ordered, 
and we will be working closely with you, Senator.
    Senator Craig. Secondarily, and certainly as important is 
S. 2354, which is a pretty typical western kind of problem as 
we grow in an urban sense and that is the interface of private 
land with public land and the need to grow and public land is 
there either in the way or in this instance needing to be 
brought to change. We are talking about 165 acres in Twin 
Falls, Idaho between the city itself and its waste treatment 
plant. The desire of the city to acquire that property and use 
it for open space, access, all of those kinds of things, all in 
the appropriate fashion and a critical important piece of 
legislation that Senator Crapo and I have worked on, 
Congressman Mike Simpson of the 2nd district, in which the city 
of Twin Falls resides--and so we thank the committee for the 
consideration of that.
    For the sake of time, I will ask unanimous consent that my 
full statement on that be a part of the record also.
    Senator Wyden. Without objection, that will be so ordered.
    [The prepared statements of Senator Craig follow:]
  Prepared Statements of Hon. Larry E. Craig, U.S. Senator From Idaho
                                s. 3085
Background
    LEC is a cosponsor of S. 3085 the Cooperative Watershed Management 
Act of 2008 sponsored by Senator Crapo and Jon Tester.
    This legislation would create a granting program under the 
Department of the Interior to encourage the formation of watershed-wide 
management groups.
Opening Statement
    I would like to thank Senators Crapo and Tester for their 
leadership on this bill.
    I would like to remind our audience how important watershed 
management is to maintaining an environmentally and economically 
healthy watershed.
    Research shows that most of our water quality and management issues 
are best resolved at the local levels through a consensus of different 
groups with different interests.
    The question becomes, how can we pull these various groups together 
and use our resources to encourage watershed management in the most 
efficient and productive manner.
    S. 3085 will aide in this effort by creating a grant program that 
would encourage the formation of watershed-wide management groups.
    These groups would be able to handle our most pressing local 
watershed problems.
    Especially those that relate to water availability and quality.
    The new grant will also give greater funding to pilot projects
    And will give local groups and grass roots organizations more 
public participation in the management process.
    Many of our dollars have been thrown to the wind because we do not 
have the management to utilize our resources in the most effective 
manner.
    It is hoped that this bill will remedy the situation.
    Water in the West is of the outmost importance and this bill seeks 
to improve both the quality and quantity of our water supply by placing 
management in local hands.
                                s. 2354
Background
    This legislation will convey land from the BLM to the city of Twin 
Falls for the purpose of a wastewater reuse project that would improve 
aquatic ecosystems and help develop wildlife habitat in Auger Falls.
    LEC is a cosponsor of S. 2354 sponsored by Senator Crapo.
    Testimony will be given by Henri Bisson, Deputy Director of the 
BLM.
    The four parcels (roughly 165 acres) of BLM-owned lands are needed 
to develop the park's habitat, because the pipe that will be used for 
the wastewater reuse project cuts across the BLM lands within the 
canyon floor.
Opening Statement
    I would like thank the witnesses for joining us this afternoon.
    I would also like to commend Senator Crapo and Congressman Mike 
Simpson for their work on the Auger Falls Project.
    For several years now, we have been working on this project in an 
effort to build a community park and recreation center there.
    We have worked to secure an estimated 1.7 million dollars for its 
development.
    The project is well underway and significant progress has been 
made.

  <bullet> There have been improvements in the creation of upland and 
        wildlife habitat in the area.
  <bullet> Investigations have been done regarding recreational 
        opportunities for visitors.
  <bullet> And now, construction of the park has begun.

    It is important to maintain funding for Auger Falls and to acquire 
the land that is currently managed by the BLM.
    The 165 acres impede current access that is required to maintain 
the facilities.
    Further construction of the wastewater reuse pipe cannot proceed 
without the acquisition of these public lands.
    The wastewater reuse plan will have multiple benefits for the 
citizens of Twin Falls.

  <bullet> The treated water from the pipe system will help habitat 
        restoration.
  <bullet> It will provide new wetlands and improved ecosystems.
  <bullet> It will sustain the density and diversity of wildlife in one 
        of Idaho's scenic areas.
  <bullet> Finally, it will ultimately improve the quality of water in 
        the Snake River.

    While this legislation will primarily benefit the citizens of Twin 
Falls, there will also be a value-added to the general public.
    It will provide recreational activities for many of Idaho's 
visitors and it will demonstrate that wastewater can have many
    Senator Crapo and I, as well as the people of Twin Falls, support 
the acquisition of these public lands that are currently managed by the 
BLM.
    All of the appropriate environmental tests have indicated that the 
construction of the pipe will pose no biological threats to surrounding 
habitat and will have no significant ecological ramifications.
    Furthermore, all activities relating to these lands fall under the 
gamut of public purpose.
    Establishing the reuse of reclaimed water will be paramount to our 
success in preserving and enhancing the cultural and scenic heritage in 
Auger Falls.
    I look forward to working together with my fellow Senator from 
Idaho to get this legislation enacted.

    Senator Craig. Thank you.
    I would also say I think the Department of the Interior in 
this instance with you, Mr. Bisson, needed a map?
    Mr. Bisson. Senator, I think we have a map already.
    Senator Craig. OK, because if not, here is one.
    Mr. Bisson. I have one in my briefing book.
    Senator Craig. Very good. Thank you.
    Thank you, Mr. Chairman.
    Senator Wyden. Thank you, Senator Craig.
    Mr. Holtrop, a couple of questions for you, one in 
particular. In your testimony on S. 3069, Senator Boxer's bill, 
you raised an issue about a potential adverse impact of 
wilderness designation on the commercial outfitters. Now, the 
Wilderness Act gives you very significant discretion so as to 
let commercial services go forward inside a wilderness area to 
the extent necessary for activities which are proper for 
realizing recreational or other wilderness purposes of the 
area.
    I think it would be helpful to have you clarify how adding 
new lands to an existing wilderness area, even one that has 
been the subject of litigation, is going to require the Forest 
Service to limit or restrict additional outfitter activities in 
a new area.
    Mr. Holtrop. I appreciate the question and the opportunity 
to clarify that.
    We have a wilderness plan which has been established to 
limit the number of outfitters and guides. It is not an issue 
of whether outfitting and guiding is allowed in wilderness, but 
we have a wilderness plan that limits the numbers. We also have 
a recent court order that limits the number of outfitters in 
the John Muir Wilderness.
    What we wanted to bring to the committee's attention was 
the potential--if this bill passes in its current state, we may 
have that same number apply to a much larger acreage, and if we 
can work with the committee for some language that would allow 
us to continue to look at the areas that would be added to the 
wilderness that already have outfitters and guides in them and 
not have them subjected to the same numbers restricted in the 
other part of the wilderness that already exists.
    Senator Wyden. We will work with you on it. I think we are 
going to need to have you amplify your views on that because it 
seems clear that Senator Boxer and the sponsors want to be 
sensitive to these concerns.
    One question for you, Mr. Bisson, on again S. 3069. The 
Forest Service has suggested transferring administrative 
jurisdiction over several of the small parcels, the small BLM 
parcels which are adjacent to the large Forest Service 
wilderness areas from BLM to the Forest Service. Do you all 
have any objections to that?
    Mr. Bisson. We would not object to that, Senator.
    Senator Wyden. OK.
    One other question for you on the Utah bill, S. 3651, the 
conveyance of lands for use by the Utah National Guard. You 
testified in support of the bill but then noted that the lands 
are already withdrawn from military use, and then you said, 
well, why is it necessary to convey all this directly to the 
State of Utah? As a general question, if you do not know why 
the bill is necessary, tell us, first, why the Administration 
is supporting it?
    Mr. Bisson. I believe the Administration is supporting it 
because we try to support the Defense Department in meeting its 
needs for training and for military purposes. In this case, 
that is the position we have taken. We think if the military 
says they need it and they are going to use it for defense 
purposes, then we are fine with it, sir.
    Senator Wyden. OK.
    Senator Barrasso, questions for this panel?
    Senator Barrasso. Yes, thank you very much, Mr. Chairman.
    I would like to start, if I can, with Mr. Wahlquist and 
maybe Mr. Bisson may want to jump in as well. I am focused on 
S. 2448, the Surface Mining Control and Reclamation. We visited 
in Senator Enzi's office. Senator Enzi now has some technical 
corrections, which we thought would never be necessary because 
we thought the bill itself was very clearly written. It called 
for a direct payment.
    In the testimony on the bill--I read the testimony, and I 
think you used the word a direct payment ``scheme.'' I am 
absolutely offended by the use of the word ``scheme.'' It 
called for direct payment, and to call that a scheme against 
the people of our great States, I think is an insult by the 
Federal Government.
    Several questions. One is I understand that there is a good 
deal of internal disagreement among the Department of the 
Interior, the Office of Management and Budget, the Solicitor's 
Office regarding the interpretation of how these payments would 
be made. Is that correct? It dealt with the word ``payment.''
    Mr. Wahlquist. I think it is fair to say that there has 
been some discussion of what the word ``payment'' would mean, 
and that is the reason that I raised the question to the 
Solicitor's Office about a year ago or a little more than a 
year ago in terms of wanting clarification as to what the 
amendments meant in this regard. We got an opinion from the 
Solicitor's Office last December on this issue.
    Senator Barrasso. Mr. Bisson, when you take a look at a 
program you are familiar with, payment in lieu of taxes. 
``Payment'' in lieu of taxes. The Secretary of the Interior 
shall make a payment for each fiscal year to each unit of 
general local government. Are these payments not direct 
distributions made in the form of reimbursement grants, direct 
payments each year? I am just trying to figure why we are so 
tied up with the word ``payment'' because it seems that in 
other areas, the Government kind of understands the word and 
does what one would think you should do with that word.
    Mr. Bisson. As it regards the PILT payments, I think you 
are accurate, Senator.
    Senator Barrasso. So I do not know why this would be any 
different. I do not know if you want to comment on that.
    Mr. Bisson. I would rather not. I have not looked at the 
bill.
    Senator Barrasso. I am looking at Senator Tester. He is 
getting ready.
    [Laughter.]
    Mr. Bisson. I am not the witness on that bill.
    Senator Wyden. This will surely produce a spirited 
discussion.
    Mr. Wahlquist. Would you like me to respond on that?
    Senator Barrasso. Yes, sir.
    Mr. Wahlquist. Certainly in the context of the word 
``payment''--and there is a footnote in the Solicitor's opinion 
on this issue that notes that in those areas where it is 
basically revenue sharing, that there is a distinction there as 
to how those were done, that under the Surface Mining Act, 
these are quite distinct from that, and that the word 
``payment'' as used can take many forms and that one of those 
forms is grants.
    Senator Barrasso. Actually I think what they came out with 
is they did not say may be grant, but must be, which was also 
surprise I think to people involved in this. It did not even 
give you that opportunity to say may.
    Mr. Wahlquist. I asked if we might do it that way. I was 
told I had to do it that way.
    Senator Barrasso. When I read the testimony that you give, 
it almost sounds like that the main reason for the not wanting 
to make the payments to the State is you want to hold onto the 
money and make the interest.
    Mr. Wahlquist. I think it is fair to say that the 
Administration is very concerned about protecting the Treasury, 
yes.
    Senator Barrasso. In spite of what the law says, in spite 
of what is clear to people involved and the fact that every 
decision by the Federal Government to hold onto the money and 
not give it to the States where it belongs, that denies the 
States the ability to earn the interest from that money.
    Mr. Wahlquist. I think it is fair to say that we also view 
this as being very consistent with the law as it is currently 
written, that this is the best interpretation of the law as it 
is currently written.
    Senator Barrasso. I would just take exception to that as 
being the best interpretation of the law which seems very clear 
to Members of the Senate. They wrote it intentionally that way, 
and that is why this bill has been introduced.
    Thank you, Mr. Chairman. I could go on and on, but I do not 
want to waste the panel's time. Thank you.
    Senator Wyden. I thank my colleague.
    Senator Salazar.
    Senator Salazar. Just a quick comment and that is to thank 
you, Mr. Bisson, for the support of the Administration on S. 
3065, which we will be talking about more in the succeeding 
panel, but I appreciate the work of the Administration in 
helping us move forward with the protection, preservation and 
the right balancing with respect to over 200,000 acres of 
public lands in a very, very beautiful part of the State of 
Colorado. So thank you very much.
    Senator Wyden. Senator Tester, questions for this panel?
    Senator Tester. Oh, I sure do. I also want to thank the 
witnesses for their support of S. 2448 and S. 3085. Thank you 
very much.
    Any comment on that?
    Mr. Wahlquist. I do not recall that I supported S. 2448.
    Senator Tester. All right. Mr. Wahlquist, we have been here 
before.
    How much is owed to Montana from this account? Is it about 
$52 million or $58 million, somewhere in that ball park?
    Mr. Wahlquist. We are looking at the 8.1 times 7, which is 
about $56 million.
    Senator Tester. $56 million. It is fair to say that this is 
money that is owed to Montana. Correct?
    Mr. Wahlquist. It is obvious in the statute that they 
concluded that this money was owed to Montana, yes.
    Senator Tester. OK. Have you ever sold a pickup to somebody 
and they have never paid you for it?
    [Laughter.]
    Mr. Wahlquist. Yes, I have sold things I have not been paid 
for.
    Senator Tester. How does that make you feel? I mean, does 
it make you feel you got shafted or?
    [Laughter.]
    Mr. Wahlquist. In fact, I guess I would recognize, though, 
that in this statute you are still not getting that money back. 
That money is staying there in the AML fund, and instead, 
Congress has decided to provide that money from the Treasury 
rather than from the AML fund.
    Senator Tester. You know, I mean, I cut up a pig for a guy 
one time, and he told me that he was not going to pay me 
because he had to use that money to buy shoes for his kids. So, 
I mean, there is justification for it all over the place.
    What I am saying is that it really does seem somewhat 
ironic to me that the Administration would oppose this bill. I 
have seen it happen when I was in State government with 
counties too. It was not right then and it is not right now. 
For us to have to dot every I and cross every T to make sure 
the States get their money I think is as ridiculous as the guy 
who did not pay you for the pickup. It really is. I would hope 
that the Administration would take a look at this and see it 
for what it is.
    You hold onto the money because it collects interest that 
goes into the general fund, and it helps the general balance. 
But it is really not your money to do that with. It is the 
States' money because the States need to do the same thing with 
it. They need to utilize it.
    I would just ask you to go back. You have opposed this from 
the get-go, but I mean, I think it would be good if you went 
back and re-evaluated your position and worked with us to get 
these payments out sooner rather than later. Why the Solicitor 
thinks it has to be done in grants and tells you it has to be 
done in grants when I think the law was pretty explicitly clear 
and both sides of the aisle see it the same way, but we have 
been here before.
    I need to ask some questions on, I believe it is, S. 3085, 
the watershed bill.
    Mr. Bisson. Senator, we have a Bureau of Reclamation 
technical witness here who could answer questions that you may 
have. If it is OK, I would like to ask her to sit up here.
    Senator Tester. That would be marvelous.
    Mr. Bisson. Her name is Avra Morgan.
    Senator Tester. Avra, it is good to have you here.
    I assume all the questions should be directed at her. 
Right, Henri?
    Mr. Bisson. Yes, Senator.
    Senator Tester. How long have you worked for the 
Department?
    Ms. Morgan. I work for the Bureau of Reclamation and I have 
worked there for 5 years.
    Senator Tester. For 5 years, and you are still employed 
currently?
    Ms. Morgan. Yes.
    Senator Tester. You plan on being employed for a while 
longer. Right?
    Ms. Morgan. Yes.
    Senator Tester. OK, I just want to make sure because the 
last one we had, the guy was a short-timer. He is a great guy, 
but I mean, he was a short-timer. So that is good.
    A couple things. The Administration supports the ideas laid 
out in S. 3085. Would that be fair to say?
    Ms. Morgan. The Administration supports the goals of S. 
3085, but cannot support the bill primarily because of their 
concerns that it would compete for funding with other efforts 
ongoing by the Administration by Reclamation for similar types 
of programs.
    Senator Tester. Is there a similar type program to this 
already on the books?
    Ms. Morgan. The programs that we have that are similar to 
this, I would say, are those included in the Water for America 
initiative. The Water 2025 program, which you may be familiar 
with, includes a challenge grant program for projects to 
increase water use and efficiency, also system optimization 
reviews under that same program.
    Senator Tester. Mr. Chairman, my next line of questions, 
since she brought up the Water for America initiative, is going 
to take longer than 35 seconds. I am willing to come back or I 
can just keep going.
    Senator Wyden. What kind of time does the Senator need?
    Senator Tester. Another 5 minutes.
    Senator Craig. Please because these are the questions I 
would be asking.
    Senator Wyden. Why do we not take another 5 minutes?
    Senator Tester. Sure, OK.
    Do you know how much the budget request was for the Water 
for America Initiative for 2009?
    Ms. Morgan. For 2009, the request is $21.3 million for the 
Water for America line item. For Bureau of Reclamation, just to 
refine that a little bit, the total request for Water for 
America activities $31.9 million.
    Senator Tester. A $31.9 million total. How much of that 
money is dedicated to programs that might overlap with this 
bill?
    Ms. Morgan. The Challenge Grant Program would be about $11 
million.
    Senator Tester. At $11 million. How much of that $11 
million would be dedicated to local watershed groups to be able 
to hire full-time coordinators?
    Ms. Morgan. It is difficult to say. In general, the Water 
2025 Challenge Grant Program provides grants to irrigation 
districts, water districts, municipalities, and States. 
However, we do encourage cooperation with stakeholders and some 
of them have formed groups to administer the grants and to 
implement the projects. But it is difficult to say whether they 
will or not. We encourage it, but it does not always happen.
    Senator Tester. So you really do not know.
    Ms. Morgan. No.
    Senator Tester. OK.
    How much is dedicated for them to undertake projects?
    Ms. Morgan. Most of the $11 million would be dedicated 
toward that. There are certain----
    Senator Tester. To local watershed groups.
    Ms. Morgan. Oh, for local watershed groups. It is dedicated 
for projects by irrigation and water districts, municipalities 
who may be part of watershed groups or may form watershed 
groups, but it is impossible to say whether they would be 
applying.
    Senator Tester. So how much was given to local watershed 
groups for any reason? Do we know that?
    Ms. Morgan. As I said, to be eligible to receive the funds, 
you have to be a water management entity created under State 
law, but that includes districts, irrigation districts, 
conservancy districts, municipalities, and States.
    Senator Tester. We are going to have a person come up and 
testify that works with watershed groups in the next panel of 
witnesses. I am going to ask him how available money is. He has 
worked all over the State of Montana. I am going to ask him how 
available this Government money is.
    We had a wolf hearing last week, and I was told that the 
Department of Agriculture had plenty of money for taking care 
of ranchers that lost cattle or sheep to wolves when, in fact, 
that was not the case at all.
    I am here to tell you that--and you are a great lady--but 
you do not know how much was allocated to hire full-time 
coordinators. You do not know how much was dedicated to 
undertake watershed projects. You do not know how much is 
allocated for groups for any reason.
    The fact is I think the Administration shot from the hip on 
this one. They did not know what they were going to hit when 
they shot, but they just wanted to oppose this because they 
think they have got something that works that does not.
    Would you like to comment on that?
    Ms. Morgan. Yes. I did not mean to imply that the Challenge 
Grant Program is directed at exactly the same purposes as your 
bill. I do not believe that it is. I think what is different 
from your bill is that it is aimed at forming watershed groups, 
and that is not the purpose of the Challenge Grant Program. 
Watershed groups sometimes participate in the Challenge Grant 
Program, but it is not the primary purpose and I did not mean 
to imply that it was.
    Senator Tester. Thank you for that answer because why is 
there a conflict then?
    Ms. Morgan. The conflict is in terms of a concern about 
competition for funding for our programs that have similar 
goals. While they may not be exactly the same in terms of 
implementation, there are similar goals directed at water 
conservation and improving water quality.
    Senator Tester. But totally different groups, totally 
different designs. You have got collaborative efforts with 
these watershed groups, totally collaborative. By the way, I 
think collaboration is the key when it comes to water. You have 
got to have everybody sitting at the table or you are going to 
end up in court anyway.
    Ms. Morgan. We agree with you and I would agree, as you 
said, that your program is geared toward the formation of these 
watershed groups, and we do not have a program that provides 
funds to watershed groups to form coalitions.
    Where the similarity lies is that in our program for 
Challenge Grants, we do give extra points in the scoring 
process when we are considering projects if they are put 
forward by a group of stakeholders from a watershed. We also 
have the Basins Studies Program as part of Water for America 
that does rely on stakeholders in an entire watershed.
    Senator Tester. I understand. Water is the most important 
thing we have on this earth. If you do not have good water, you 
are done. I mean, literally life cannot exist if you do not 
have good water. I think by your own answers to these 
questions, it tells me that we are not taking care of this 
resource in a way we could, in a way that is most cost 
effective, I might add, because you are bringing in local 
governments with local cost share and local people on the 
ground which tends to be much more cost effective than us 
coming from the top-down. This is going to be more bottom-up 
once we get this thing going.
    I have got more questions, but I will wait until the 
Senator from Idaho gets done.
    Senator Wyden. Thank you.
    The Senator from Idaho.
    Senator Craig. I simply want to echo what Senator Tester 
has been speaking to. While you talk about groups coming to 
make application for, this approach is to bring those 
stakeholders together to form the group to make the application 
and to resolve and bring forth a united effort on a given 
watershed or a given watershed problem.
    So I agree with Senator Tester. I do not see the conflict. 
In fact, I see the opportunity of facilitating collaboratively 
in advance of, which brings down the conflict and oftentimes 
brings the unity that makes the application that resolves the 
problem. That is how I believe this is intended in the broad 
sense.
    We in the West are populating at unprecedented rates, and 
watershed management and water quality management cooperatively 
with the finite resources that all the publics have to deal 
with this issue and especially here at the Federal level. It is 
awfully important that we stay out of the conflict and use the 
resource to amplify the quality of the water or improve the 
watershed itself.
    So no additional questions. I guess I can understand what 
appears to be an expression of duplication when in our opinion 
it is not or we do not believe it to be. We believe it to be 
that which forms the group to make the application to utilize 
the resource.
    Do you wish to make a comment on that?
    Ms. Morgan. My only comment would be that our programs tend 
to focus on the implementation part, and while we encourage 
stakeholders to collaborate to make the application, we have 
focused our limited resources toward the actual projects in the 
watershed. In our experience, we have seen that that sometimes 
does result in them coming together and collaborating and 
forming a group. So I think the distinction with the program 
proposed here is that it is really focused on forming the 
groups in the beginning as you have said.
    Senator Craig. Thank you, Mr. Chairman.
    Senator Wyden. I thank my colleague.
    We are going to excuse all of you, but I also want to 
express--I hardly ever do it in this business--a thank you 
because we have given you a lot of bills.
    Does Senator Tester want another round?
    Senator Tester. I will try not to take the whole 5 minutes.
    Senator Wyden. All right. Before we excuse them, we will 
let you have another 5.
    Senator Tester. Thank you.
    We will stay on S. 3085. Is the BOR willing to work with my 
staff to iron out the administrative concerns of this bill 
except for the money issues?
    Ms. Morgan. Certainly we are.
    Senator Tester. Is that something we could expect in the 
next week, the next few weeks? When could we----
    Ms. Morgan. We are happy to talk with your staff as soon as 
they are available to talk about any technical issues.
    Senator Tester. All right, good.
    Now, you've said you cannot support this program. We have 
got a number of watershed groups, I will ask Tom Hinz when he 
comes up here next how many there are in the State because I am 
sure he will know, and one of them is a group called the 
Greater Gallatin Watershed Coalition, in a high growth area in 
the State, that deals with water issues. They are having a heck 
of a time because they cannot get grants under the Water for 
America initiative. They are not eligible. This group consists 
of, well, farmers, recreationalists, government officials, 
business folks.
    What can the BOR do to help these groups if a bill like 
this is not passed?
    Ms. Morgan. They could partner with an eligible entity 
under the Challenge Grant Program. They could also participate 
in our new Basins Studies Program which is kind of a broader 
scope, but it is focused on studies. It is not focused on water 
implementation projects like the Challenge Grant Program is.
    Senator Tester. Right.
    Ms. Morgan. We also have our Field Services Program which 
has technical staff in our regional and area offices that are 
focused on helping individual irrigators and local entities 
with technical----
    Senator Tester. You know what I would like to have you do, 
if it would not be too much of a problem? If you could get me a 
list of programs out there that would help this group 
specifically, and then we might just see if any of that money 
is available.
    Ms. Morgan. OK.
    Senator Tester. All right? Thank you very much. I want to 
thank all the panelists. Thank you guys for being here.
    Senator Wyden. I thank all of you.
    I am going to turn this next panel over to Senator Salazar 
to chair.
    But before the Administration witnesses take off, I want to 
express my thanks to all of you. I know we have given you 
something like 17 bills just in the last week, but I think it 
is a reflection of how much interest there is here in the 
Senate. So we have appreciated the cooperation.
    So the next panel will be chaired very ably by Senator 
Salazar, and I will turn it over to him at this time.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar [presiding]. Thank you, Mr. Chairman.
    If we could have the next panel come up: Commissioner Jan 
McCracken from Delta County and Tom Hinz, the Chairman of the 
Greater Gallatin Watershed Council.
    Let me, first of all, welcome this panel, and as I welcome 
this panel, I also want to say thank you and state my 
appreciation to David Brooks and all of our staff on this 
committee, both Democratic and Republican, who make all of this 
work possible.
    I thank the witnesses, Commissioner Jan McCracken and Tom 
Hinz, for being a part of this panel.
    I am going to start out with my opening statement with 
respect to the Dominguez-Escalante Canyon because I had 
foregone my opportunity to do that at the very beginning of the 
hearing. So I will do that at this point.
    First, let me say that I know that Commissioner McCracken 
has traveled a long way from Delta, Colorado to be here with us 
in Washington, DC, and I appreciate her work on the Dominguez-
Escalante Canyon bill for the last several years. Her tenacity, 
her willingness to find a way forward when things seemed to get 
stuck, and also her work not only with her fellow commissioners 
in Delta County, but also Montrose County and Mesa County as 
well.
    I also, to today's hearing, welcome her family who is 
traveling with her from Colorado, Carrie Phiester and Lisa 
Hawkins. Thank you both for being here.
    We have been working on the Dominguez-Escalante Canyon 
National Conservation Area and Wilderness for almost 2 years. 
As Commissioner McCracken will tell the members of the 
committee, these are some of the most spectacular desert 
landscapes in the West, and they have a very rich history. You 
get a sense of that history from the rock art on the canyon 
walls, from the journals of the Dominguez-Escalante expedition 
that came to the area in 1776, and from the ranching heritage 
that is still alive and well now and will continue to be that 
way.
    The more than 210,000 acres that we are proposing to 
designate as a national conservation area lie in Mesa, 
Montrose, and Delta Counties on Colorado's western slope. They 
are a favorite spot for hunters, anglers, hikers, off-road 
vehicle users, cyclists, and all sorts of recreation.
    At the center of the proposed national conservation area is 
an area that is as rugged and primitive as you will find 
anywhere in the West. We are proposing to designate these 
65,000 acres which are currently managed to protect their back-
country characteristics as wilderness.
    The bill I have introduced and which Congressman John 
Salazar from the 3rd congressional district has introduced in 
the House protects these signature Colorado landscapes but does 
so in a way that protects water rights, private property 
rights, and the traditional uses of the land.
    Thanks to the leadership of people like Jan, the Delta, 
Mesa, and Montrose County commissioners, the Mesa State 
College, and Natural Resources and Land Policy Institute, the 
Public Lands Partnership, the BLM, Senator Allard and Senator 
Allard's staff, a wide range of stakeholders, and all the local 
citizens who care so much about these lands, we have held a set 
of public meetings over the last 2 years to discuss whether to 
do this legislation, and if we are to do it, how to do it 
right. We concluded that we can and will do it right.
    The consensus findings of this public process is reflected 
in this bill and incorporated in the substance of this bill.
    The national conservation area and wilderness area we are 
proposing to create continues to allow grazing, as it should, 
protects private property rights, as it should, withdraws land 
from mineral leasing, as it should, and allows for continued 
invasive species control and fire prevention activities.
    In addition, the bill incorporates water language 
specifically crafted with our hand and the hand of the Colorado 
River District, the State of Colorado, wilderness advocates, 
and other stakeholders who have all had a hand in drafting this 
bill. They all agree that the language in our bill protects 
existing water rights and traditional water uses while 
protecting the wilderness qualities of the land.
    I am proud of all the work we have put into this bill over 
the past 2 years. I am proud that this bill will protect some 
of the most stunning desert landscapes on Colorado's western 
slope for recreationists, hunters, and anglers to enjoy for 
generations to come, while protecting the traditional uses of 
these lands.
    The bill has widespread support in the local communities 
among stakeholders, and I ask that a set of letters* of support 
be included in the hearing record. I will, therefore, order 
that they be included in the record.
---------------------------------------------------------------------------
    * See Appendix II.
---------------------------------------------------------------------------
    I look forward to continuing to work with this committee to 
get this legislation completed as soon as possible.
    I have a few pictures that I just want to share with 
Senator Barrasso and with the members of this committee about 
this area.
    The first is a picture of rock art. It is rock art that is 
found in the Dominguez Wilderness Area. You can see the very 
beautiful depictions in that very old rock art.
    The second picture is a picture of rafters on the Gunnison 
River. The Gunnison River is one of the largest, most beautiful 
rivers that we have in the State of Colorado.
    The third is a picture of a waterfall on the Little 
Dominguez Creek. As you can see, that waterfall in that very 
pristine area is a very beautiful place of our Nation.
    The final depiction that we have here is a map of the 
national conservation area that also shows the 65,000 acres of 
wilderness within the NCA.
    I am very much looking forward to working with my 
colleagues to getting this legislation done.
    With that, what I would like to do is to call on the 
Honorable Jan McCracken for her testimony. Commissioner 
McCracken.

STATEMENT OF JAN MCCRACKEN, DELTA COUNTY, COMMISSIONER, DELTA, 
                               CO

    Ms. McCracken. Thank you, Mr. Chairman and members of the 
committee, for the honor of speaking with you about the 
Dominguez and Escalante canyons area near my home in Delta, 
Colorado.
    My name is Jan McCracken. I am member of the Board of 
County Commissioners and have been for approximately 6 years. I 
am also a third generation resident in this area of which we 
speak today.
    I had an oral presentation ready, and basically Senator 
Salazar took the words right out of my mouth, so I am not going 
to reiterate all of those just for the sake of time.
    But some of the things I do want to let you know is that 
this was an effort that brought a diverse group of people 
together, and we worked on it, very heated issues--I am sure 
some of you are very familiar with that--because of the private 
lands in there, because of some of the wilderness issues and 
the water rights. We have worked with every entity, the BLM, 
the Colorado River District, to ensure that those water rights 
are so that they will not be jeopardized and to let the 
property owners know that they can still carry on their 
livestock business, their orchards, and not have to fight over 
the water and how it is used.
    So the only thing I guess that I can add to what Senator 
Salazar said, we have worked hard on this for 2 years. It sat 
on the table for well over 10 years, and I just felt like with 
Senator Salazar and Senator Allard, we had a chance because of 
their background in agriculture, that they understood the 
importance of keeping the ag community intact down there, as 
well as affording that beautiful area for many to enjoy with 
many different varieties of interests.
    We have worked hard with the motorists, the four-wheeling 
clubs, to see what their interests are. The BLM has helped with 
signing out trails.
    What we did was we divided that whole area into five 
different areas, stating what was to be primary use for each 
area, whether it be the rafting down the river or whether it be 
the four-wheeler club, or whether it would be the hikers or the 
bicyclists or the horseback riders or the gold panners. We 
tried to make sure that each group that we knew used that area 
was brought to the table and hammered out our concerns. We 
really feel like this is the best package. What you have before 
you today is what, after 2 years of hard work, was created.
    So I just basically want to thank you again for the 
opportunity to discuss before you this beautiful place, an 
important place, and a place that Delta County--the Delta 
County commissioners support this legislation, as well as you 
all do, and hope it will go forward as quickly as it possibly 
can through this process. I just want you to know what I am 
presenting today is something that I support and the Delta 
County commissioners support and we support it with honor.
    So thank you for your time.
    [The prepared statement of Ms. McCracken follows:]
    Prepared Statement of Jan Mccracken, Delta County Commissioner, 
                               Delta, CO
                              introduction
    Thank you, Mr. Chairman and members of the committee, for the honor 
of speaking with you about the Dominguez and Escalante canyons area 
near my home in Delta, Colorado.
    My name is Jan McCracken and I am a member of the Board of County 
Commissioners for Delta County, and have been for 6 years. I am also a 
third generation resident of the lands that surround the Dominguez-
Escalante area.
    Delta County is one of three western Colorado counties with land 
proposed for protection under S. 3065, which will establish the 
Dominguez-Escalante National Conservation Area and, within that NCA, 
the Dominguez Canyon Wilderness, all to be maintained and directed by 
the Bureau of Land Management.
    It is my honor to speak with you, not just because of the nature of 
this bill, but because of what it is built upon. It is built upon a 
truly remarkable landscape--a landscape first journaled by the 
Dominguez Escalante Expedition of 1776--a landscape that has been 
maintained by an equally remarkable group of ranchers and fruit growers 
for approximately 125 years. If not for their continued stewardship and 
care for this landscape--which is surrounded by private working ranches 
and orchards--it is possible that the Escalante Dominguez would not be 
the jewel it is today and I would not be sitting before you today, 
testifying for this bill to establish the Dominguez-Escalante National 
Conservation Area.
    The NCA and wilderness, based on original recommendations from the 
BLM, will recognize and maintain the area's striking red canyon walls, 
key wildlife habitats, perennial streams and waterfalls, ancient 
artifacts and rock art, scenic cliffs along the Gunnison River, and 
portions of the Old Spanish National Historic Trail. It will also 
recognize the needs of agriculturalists who have helped preserve the 
area and contributed to the surrounding economies for over a century.
    The Delta County Commissioners endorse this legislation, and we 
urge the committee to recommend approval to the Senate so that it can 
be promptly passed by Congress. We have come to this position based on 
our familiarity with the lands proposed for protection and the needs of 
the agricultural community that has inhabited the area for a century. 
Most Escalante/Dominguez residents are fellow members of the community 
of Delta. Delta is where Escalante/Dominguez produce is sorted, packed 
and transported. Delta Sale Barn is where local livestock business is 
conducted and it is in the Delta schools that Escalante/Dominguez 
children are educated. The whole Delta community benefits from the long 
term commitment and sense of place exhibited by those who work on and 
live in the Escalante/Dominquez area.
    We also bring with this endorsement knowledge gained from 
initiating and helping conduct a very extensive public review which 
included discussion of the uses, values, and attitudes on these lands 
and surrounding communities. Together with the commissioners from 
neighboring Montrose and Mesa counties, the Mesa College Public Lands 
Partnership (a diverse local citizen's group), and Colorado State 
University Extension, we facilitated a series of public meetings. 
Throughout this entire process, we collaborated with and worked closely 
with the BLM. Final comments and input regarding wilderness, 
agriculture, recreation, water rights, and local economics were all 
based on this extensive effort and collaboration.
    The national conservation area will recognize and ensure the 
continued variety of recreation activities now found in the area, 
including motorized recreation in Cactus Park and on the east side of 
the Gunnison River, bicycling in several rugged and challenging 
portions, horseback riding and packing throughout the area, river 
rafting, unique opportunities for solitude in the wilderness portion, 
and even gold panning along the river.
    We have insisted, and the legislation ensures, that agricultural 
uses continue in a thriving manner which not only benefits the 
landscape and wildlife but also the ranchers and orchardists who have 
lived and contributed to the Escalante-Dominguez area for generations. 
In particular, livestock grazing and crop irrigation will continue so 
as to maintain livelihoods of generations as well as the surrounding 
communities of Delta, Montrose and Mesa Counties. Hunting and fishing 
will continue throughout the area, managed under the existing authority 
of Colorado's Division of Wildlife.
    The legislation directs that a detailed management plan be prepared 
within 3 years after the NCA and wilderness are designated. This will 
provide another valuable opportunity for local citizens to help craft 
the future of these unique and socially important lands.
    The wilderness designation includes several custom features that 
recognize some unique circumstances particular to this area. The 
boundaries have been revised and refined carefully to keep all private 
land outside the wilderness, thus avoiding conflicts with activities on 
those private lands. The boundary is designed to follow a variety of 
readily identifiable natural and human-made features, and to be 
effectively manageable by the BLM.
    The water protection provisions associated with the wilderness 
designation have been painstakingly negotiated and crafted, with 
endorsements from all three county commissions, the local and regional 
water districts, and from the State of Colorado, which is responsible 
for administering water rights in our state. The language creates a 
unique state-Federal partnership for the protection of water flows 
through the wilderness, while ensuring complete protection for existing 
water rights and uses in and near the wilderness. The Gunnison River 
itself is kept outside the wilderness because of the extensive water 
diversion rights and uses it provides.
    Overall, this legislation represents an effective western Colorado 
solution, providing resource protection for the distinctive and 
delicate beauty of the area, while maintaining diverse recreation 
opportunities, protecting existing rights and uses, and ensuring that 
local agriculture continues to thrive and utilize the land. It also 
represents several years of collaborative education, citizen 
involvement and the emergence of unlikely alliances. This collaboration 
has taken a significant amount of work on the part of not only county 
commissioners and Federal land management agency personnel, but local 
residents working together to retain our social and economic western 
culture while preserving the landscape of the Escalante/Dominguez. As 
such, it is a package I am honored to support.
    Thank you again for this time to discuss such a beautiful and 
important place and this measure that will sustain it as such.

    Senator Salazar. Thank you very much, Commissioner 
McCracken.
    Tom Hinz, the Chairman of the Greater Gallatin Watershed 
Council from Bozeman, Montana.

   STATEMENT OF TOM HINZ, CHAIRMAN, GREAT GALLATIN WATERSHED 
                      COUNCIL, BOZEMAN, MT

    Mr. Hinz. Thank you, Mr. Chairman, members of the 
committee. My name is Tom Hinz. I am Chairman of the Greater 
Gallatin Watershed Council located in Bozeman, Montana. I am 
here today representing GGWC in regard to S. 3085, the 
Cooperative Watershed Management Act of 2008.
    The Greater Gallatin Watershed where I live encompasses 
1,000 square miles. Within that area, the Greater Gallatin 
Watershed Council works to promote the conservation enhancement 
of our area's water resources while supporting the traditions 
of community, agriculture, and recreation. As part of this 
broad mission, GGWC is responsible for developing and 
implementing strategies to reduce total maximum daily loads, 
TMDL's, for non-point source pollution in our streams.
    GGWC and Montana's other watershed groups lack adequate 
financial resources to ensure their long-term viability without 
assistance from outside sources. All rely to varying degrees on 
the Montana Department of Environmental Quality's grant 
programs, grants from philanthropic organizations, funding from 
some of Montana's 58 conservation districts, and private 
donations from Montana citizens and others concerned about 
water and watershed health.
    Although the State's population is small, much of the 
estimated 10 percent growth in population during the present 
decade is occurring on critical watershed lands, especially 
near our streams and rivers. GGWC and other Montana watershed 
groups have consistently found that engaging the burgeoning 
number of Montana residents in meaningful conservation dialog 
is costly. Informing our citizens and engaging them in 
safeguarding the environment that brought them to Montana 
requires both money and a lot of time. Our time investment 
includes not only project planing and design, but also the 
sometimes slow business of involving affected stakeholders, 
landowners, and the public at large.
    Our watershed groups work with a voluntary, nonregulatory 
framework. All have boards comprised of unpaid volunteers. Some 
have coordinators that are conservation district employees. 
Some raise funds to pay at least a part-time coordinator, and 
some lack coordinators altogether. Montana's watershed groups 
are a diverse mix of farmers and ranchers, mining interests, 
recreationists, environmental organizations, tourism, timber 
interests, government and others.
    Although critics of a collaborative process claim that 
involving diverse stakeholders is inefficient and ineffective, 
Montana's conservation success stories of the past decade 
clearly show that without inviting stakeholder participation, 
long-term sustainable conservation simply does not happen. 
Montana's watershed groups, given ample resources to organize 
and to plan, are the most appropriate level of organization to 
deliver water conservation on a landscape scale in our State.
    Specifically we would like to add that we support the 
voluntary versus regulatory direction of this bill.
    Also, while using watershed groups to deliver this program, 
we recommend that the focus of the legislation be water 
conservation both in terms of water quality and water quantity.
    We acknowledge and fully support the program's provision 
for funding the creation, enlargement, and project development 
aspects of the watershed group activity.
    We realize that some see the CWMA as having significant 
overlap with the Water for America initiative. To the contrary, 
we see a very complementary fit between the two programs.
    We have heard the Administration's concern about budget 
constraints relative to the CWMA program. However, given the 
status of water supplies in western States like Montana, we 
believe that watershed conservation is appropriately among the 
highest environmental priorities. We would urge Congress to 
ensure that funding for the program does not come at the 
expense of existing Department of the Interior programs which 
could result in a net loss of conservation benefits in Montana.
    Finally, fine-scale definition of watersheds eligible for 
funding is necessary to ensure that CWMA funds can flow to the 
local level at which all Montana watershed groups operate. 
Funding projects at a scale such as the Missouri River 
watershed in Montana is likely to cause ineffective 
distribution of program funding across the State.
    Thank you for the opportunity to speak today, and I would 
be happy to answer any questions that I can.
    [The prepared statement of Mr. Hinz follows:]
  Prepared Statement of Tom Hinz, Chairman, Great Gallatin Watershed 
                    Council, Bozeman, MT, on S. 3085
    Chairman Wyden, Distinguished Subcommittee members, my name is Tom 
Hinz. I'm chairman of the Greater Gallatin Watershed Council (GGWC) 
located in Bozeman, Montana. I'm here today representing GGWC in regard 
to S. 3085 titled the Cooperative Watershed Management Act of 2008. I 
also wish to convey that there are a number of other watershed groups 
in Montana that have or are in the process of sending letters that 
support the intent of this legislation.
    Since I received a call last Tuesday inquiring about GGWC's ability 
to send someone on short notice to testify here today, I met with our 
Board to discuss this possibility and to request their financial 
support for my travel to Washington. I also talked with representatives 
of our parent organization, the Montana Watershed Coordination Council, 
other Montana watershed groups, the Montana Association of Conservation 
Districts, and interested individuals in regard to the future of this 
legislation. GGWC, in addition to its own pledge to send me here today, 
has received a number of other commitments, some for as little as $50. 
These modest pledges not only demonstrate the limited financial 
resources of many of our watershed groups that can be put to this 
purpose, but more importantly, clearly show the hope that many of our 
groups have expressed for the future of this legislation as it evolves 
and moves forward.
    Montana is the fourth largest state in the nation, covering over 
145,000 square miles. Our state's population is less a million people, 
or roughly six people per square mile. Ours is not a wealthy state in 
terms of personal income, ranking 41st in the nation. What makes 
Montana rich though is that like our neighboring states, it has an 
abundance of land, open space, clean air, and an adequate supply of 
clean water. It's in regard to the latter that we hold some of our 
greatest concerns for our state's future.
    The Greater Gallatin Watershed where I live encompasses 1000 square 
miles, an area roughly the size of the state of Rhode Island. Within 
that area, the Greater Gallatin Watershed Council (GGWC) works to 
promote the conservation and enhancement of our area's water resources 
while supporting the traditions of community, agriculture, and 
recreation. As part of this broad mission, GGWC is responsible for 
developing and implementing a watershed restoration plan that includes 
strategies to reduce Total Maximum Daily Loads (TMDLs) for nonpoint 
source pollutants in our streams.
    The Greater Gallatin Watershed Council, like all watershed groups 
in Montana, struggles to gather the necessary funds not only to staff 
our organization but also to implement conservation projects beneficial 
to our surface waters and groundwater supplies. Our parent 
organization, the Montana Watershed Coordination Council (MWCC), is not 
a lobbying organization but does provide a valuable forum for 
information sharing, interaction, and support for Montana's watershed 
conservation efforts.
    GGWC and Montana's other watershed groups don't possess adequate 
financial resources to ensure their long-term viability without 
assistance from outside sources. All rely to varying degrees on: 1.) 
the Montana Department of Environmental Quality's TMDL and Watershed 
Assistance Grant programs; 2.) grants from philanthropic organizations; 
3.) grants from some of Montana's 58 Conservation Districts; and 4.) 
private donations from Montana citizens and others concerned about 
water and watershed health.
    GGWC and many of Montana's watershed groups were formed relatively 
recently, typically in response to our rapidly developing landscape. 
Although the state's population is small, much of the estimated 10 
percent growth in population during the present decade is occurring on 
critical watershed lands, especially near our watercourses. Montana's 
Governor Brian Schweitzer issued a statement in March 2006 warning that 
development along the state's rivers and streams that destroys 
protective riparian areas is possibly the single most urgent ecosystem 
threat facing Montana today.
    GGWC and other Montana watershed groups have consistently found 
that engaging the burgeoning number of new Montana residents in a 
meaningful conservation dialog is costly. Informing our citizens and 
engaging them in safeguarding the environment that brought them to 
Montana in the first place requires both money and a lot of time. Our 
time investment includes not only project planning and design, but also 
the sometimes-slow business of involving affected stakeholders, 
landowners, and the public-at-large in effective watershed conservation 
projects.
    Our collective watershed efforts, which are voluntary and 
nonregulatory, are carried out with very limited financial resources. 
Our watershed groups all have boards of dedicated, unpaid volunteers. 
Some have coordinators that are Conservation District employees, some 
raise funds on a continuing basis to pay at least a part-time 
coordinator, and some lack coordinators altogether. Montana's watershed 
groups are a diverse mix of livestock producers, farmers, mining 
interests, recreationists, environmental organizations, tourism 
interests, the real estate community, timber interests, and 
representatives of Federal, tribal, state, and local governments. 
Although critics of collaborative process claim that involving 
stakeholders viewed as extractive may embolden such interests with even 
greater opportunity to wreak havoc on the environment, our TMDL process 
requires inviting all these stakeholders to the table. More 
importantly, Montana's conservation success stories written in the past 
decade by the Blackfoot Challenge, the O'Dell Creek Headwaters 
Restoration partners, and many other collaborative conservation 
partnerships clearly show that without all stakeholders at the table, 
true long-term conservation simply doesn't happen. Yes, a few limited-
membership groups, agencies, or organizations may win some skirmishes, 
but the progress of long-term, landscape-scale conservation is best 
served when all those interested are welcome to participate.
    I've solicited the views of many people prior to addressing you 
today in regard to the current version of the Cooperative Watershed 
Management Act of 2008 and how it would potentially affect the 
functioning of Montana's watershed groups. Although primarily 
representing the Greater Gallatin Watershed Council here today, I also 
know that many if not most of our watershed partners around Montana 
would echo many of the following viewpoints.
    GGWC resoundingly supports establishing a Cooperative Watershed 
Management program to complement local efforts to conserve water 
resources across Montana. Collectively, our watershed groups, given 
ample resources to organize and to plan, are without question the most 
appropriate foundation for delivery of watershed conservation on a 
landscape scale in Montana.
    Specific to the language in the current version of the CWMA, GGWC 
would like to make the following points:

          1.) We support the voluntary versus regulatory direction of 
        the bill.
          2.) While using watershed groups to deliver this program, we 
        recommend that the focus of the legislation be water 
        conservation, both in terms of water quality and quantity.
          3.) We acknowledge and fully support the program's provision 
        for funding the creation, enlargement, and project development 
        aspects of watershed group activity. With CWMA funding 
        available to deliver the First Phase of the program, project 
        benefits resulting from the Second and Third Phases of the 
        program in our state will be significant. In Montana, project 
        funds are easier for our groups to raise than funding for 
        coordination and administration.
          4.) We understand that some see the CWMA as having 
        significant overlap with The Water for America Initiative. We 
        fundamentally disagree and are encouraged by the very 
        complementary fit between the CWMA and the Water for America 
        Initiative.
          5.) We have heard the Administration's concern about budget 
        constraints relative to the CWMA program. However, given the 
        status of water supplies in western states like Montana, we 
        believe that watershed conservation is appropriately among the 
        highest environmental priorities with funding decisions made 
        with this in mind. As the CWMA legislation moves forward, we 
        would urge Congress to ensure that funding for the program does 
        not come at the expense of existing Department of Interior 
        programs which could result in a net loss of conservation 
        program benefits in Montana.
          6.) Eleven of the sixteen major watersheds of Montana are 
        part of the Missouri River watershed, or more accurately, the 
        Mississippi River Watershed, the largest watershed in North 
        America. Fine-scale definition of watersheds eligible for 
        funding is necessary to ensure that CWMA funds can flow to the 
        local level at which all Montana watershed groups operate. 
        Funding projects at a scale such as ``the Missouri River 
        watershed'' in Montana has the potential for inefficient and 
        ineffective distribution of program funding across the state.

    In closing, I'd like to again express my appreciation for this 
opportunity as well as to acknowledge the other conservation 
organizations and conservation-minded individuals who have already 
written in support of this forward-looking legislation. The Greater 
Gallatin Watershed Council, the Montana Watershed Coordination Council, 
and our 50-plus watershed organizations across Montana will continue to 
engage others in gathering written comments over the coming weeks to 
provide you with a collective view of this legislation from our state. 
Thank you.

    Senator Salazar. Thank you very much, Mr. Hinz.
    I think for purposes of how we proceed, we will take S. 
3065 and ask whatever questions we want to Commissioner 
McCracken, and then we will move to S. 3085. There may be some 
questions. I am sure Senator Tester has some questions on that.
    Beginning on S. 3065, Commissioner McCracken, the 
Dominguez-Escalante National Conservation Area is an area that 
is 210,000-plus acres and encompasses parts of Delta and 
Montrose and Mesa Counties. So there are three counties 
involved. Are all three counties supportive of the legislation 
and moving forward with this initiative?
    Ms. McCracken. Yes, all three counties are. Originally Mesa 
County, Montrose County, and Delta County commissioners got 
together and decided how are we going to go forward with this. 
Delta and Montrose Counties took the first initiative to go 
forward with it, had several public meetings. Mesa County 
jumped on board and did. I think in your package you have three 
letters of recommendations and a resolution of support. If this 
goes forward, these were the conditions we would like to see 
addressed, and as far as I can tell, in the act, as I read it, 
those all have been addressed.
    Senator Salazar. Second, the Colorado River Water 
Conservation District was very involved in crafting this water 
language to make sure that water rights are, in fact, protected 
both for their existing uses, as well as any conditional uses, 
and making sure we were not interfering with the State's water 
rights system of allocation. Are you comfortable with the water 
language that is included in the legislation?
    Ms. McCracken. Yes, I am because I felt like the experts 
put it together. You know, it would not have been something 
that I feel like a county commissioner would have been 
qualified to ask be put in the language, but when that came up 
as a concern, we asked the Colorado River District to look into 
it and to protect those water rights. You know, what would 
their language be? That language was adopted and is what I 
read.
    I understand that the wilderness boundary will never 
include the Gunnison River. Whether the river floods or whether 
it shrinks, the boundary will always be outside of the river 
corridor.
    Senator Salazar. Finally, you are a leader and a very 
effective member of the Board of County Commissioners for Delta 
County and a person whose roots go down into the soils of that 
county for a long time. What does this mean to you?
    Ms. McCracken. You know, as I grew up, this is an area that 
we went and played. We had picnics. We saw the art that was 
shown in your pictures, the cabins that are down there. My 
father would tell stories of the old-timers there that would 
jump from cliff to cliff basically on their horses or some of 
the rustlers or the cattlemen that would get angry with each 
other over water and shoot each other. So this was a way of 
life for us.
    It is a beautiful area that we can share with whomever 
wishes to come and see a part of it. I do feel like what made 
that valley, that canyon, so beautiful were the orchards down 
there, as well as the agricultural production. Again, you have 
written into the legislation to protect that, to make it an 
area that we have always enjoyed. It is a beautiful area that 
we could share with those who want to see it.
    Again, I cannot express to you the work that went into this 
and the collaborative effort through all of the stakeholders 
through all of those meetings and time.
    Senator Salazar. Thank you, Commissioner McCracken. If you 
are in agreement, I will include your entire statement that you 
had prepared for this hearing into the record because you did 
not go over it all, and I thought it was a very eloquent 
statement. So I will incorporate that into the record here for 
this hearing.
    Ms. McCracken. Thank you for that. I just felt like you had 
hit so many points that I was going to hit, and I know these 
can be long days.
    Senator Salazar. I think you said them better than I would 
have said them. Thank you very much for being here.
    Senator Barrasso or Senator Tester, do you have any 
questions of Commissioner McCracken?
    Senator Barrasso. Thank you, Mr. Chairman. While I have no 
questions of the panel, I have a few letters* I would like to 
have included in the record: two on 2448, one from Senator Enzi 
and one from John Carra, the Wyoming Department of 
Environmental Quality; and then two dealing with Senate 3069, 
one from the city of Los Angeles and one from the International 
Mountain Bicycling Association, with your permission, Mr. 
Chairman.
---------------------------------------------------------------------------
    * See Appendix II.
---------------------------------------------------------------------------
    Senator Salazar. They will be included in the record 
without objection.
    Senator Salazar. Thank you, Commissioner McCracken, and you 
are excused from the hearing.
    Senator Tester. If I might, Mr. Chairman, I just want to 
say to Jan McCracken I appreciate the work that you have done 
to make this thing happen. I do not know if it is good or bad. 
But to listen to you talk about it and bringing the groups 
together is no small feat. Leadership at the local level is 
critically important if we are going to get things like this to 
go and getting people all on the same page. So I want to thank 
you for that.
    I also want to tell you that Senator Salazar oftentimes 
beats people to the punch. So do not feel alone.
    [Laughter.]
    Ms. McCracken. I would not have stressed as much if I would 
have known he was to say my speech earlier. So thank you all.
    Senator Salazar. We are going to ask Mr. Hinz about pickup 
trucks in just a few minutes.
    [Laughter.]
    Senator Salazar. Thank you very much, Commissioner 
McCracken, and you are excused.
    How will we move over to testimony regarding S. 3085 and I 
would ask if members of the committee have any questions?
    Senator Tester. Yes, thank you, Mr. Chairman.
    Tom, I want to thank you for being here today. My staff 
tells me that your trip started out in Bozeman, Montana, then 
went to Salt Lake, then went to Atlanta, and then up here, and 
all the while you had a seat mate that was a 10-month-old 
child. We all know what that is like, so we want to thank you 
for being here. I appreciate your testimony and I want to thank 
all those folks who chipped in to get you here.
    How many watershed groups are there in Montana? Do you know 
that?
    Mr. Hinz. The Montana Watershed Coordination Council, which 
is an information-sharing forum that sort of coordinates the 
work of the watershed groups from Montana, currently estimates 
there are about 53 active watershed groups in Montana.
    Senator Tester. Basically north, south, east, west, they 
fairly well cover the State.
    Mr. Hinz. They are all over the State, yes.
    Senator Tester. Would it be fair to say that they are all 
on shoestring budgets and, for the most part, underfunded? I 
mean, everybody can claim they are underfunded, but truthfully, 
do they have enough money to be effective and as effective as 
they could be?
    Mr. Hinz. Without question, they do not have enough money 
to be as effective as they could be. There are more well-known 
watershed groups like the Blackfoot Challenge, which I am sure 
has been discussed in these proceedings earlier, who received 
funding for a variety of management programs, but for the types 
of work that we are talking about in S. 3085, I would say 
without question all of our watershed groups do not have the 
funding necessary to do the work described therein.
    Senator Tester. Could you sum up for me fairly concisely 
what the two or three biggest problems are for startup groups 
like the Gallatin watershed group?
    Mr. Hinz. The Greater Gallatin Watershed Council that I 
chair and the other watershed groups in Montana I think have 
three primary challenges. No. 1, providing sort of a continual 
source of funding so that you can secure a coordinator and 
someone to essentially staff the work of the volunteer board.
    Pulling the stakeholders together from very diverse 
interest groups, including sort of impacts associated with 
development and other sectors of the watershed is a challenge 
as well. But that is something that I think our watershed 
groups do pretty well.
    I think the other big challenge for these groups is getting 
the funding to do projects. We need to come up with funding 
from, as I mentioned earlier in my comments, private 
foundations. In some cases I think pursuing projects because 
there is funding available to do certain things that draws our 
watershed groups in one direction or the other because that is 
where the funding is available.
    But for the work that is described in S. 3085, most of our 
watershed groups have essentially no funding. Our group at our 
annual meeting in January 2008 for general operating funds had 
76 cents on account.
    Senator Tester. These groups are basically focused on what 
you talked about in your testimony, and that is water 
conservation and quality?
    Mr. Hinz. They are. I think that is based, I believe, on 
the acknowledgement that whether you are in the business of 
livestock production, irrigated agriculture, trout fishing, 
duck hunting, or you are someone who just likes to recreate, 
swim, enjoy the water, take your family to the river to have a 
picnic, all those people depend on one thing and that is clean 
water, as you mentioned earlier in your comments, Senator. So 
that is where we focus because we know that if we can meet that 
one need, the needs of all these groups will ultimately be 
realized.
    Senator Tester. Recently this bill was called a recipe for 
disaster because it brought to the table folks who raise crops 
and livestock. Could you talk a little bit about how important 
it is to have these folks and all the folks at the table?
    Mr. Hinz. The user groups, stakeholders that you just 
mentioned, are without a doubt the primary conservationists in 
Montana. If it was not for our farmers and ranchers, our 
programs would be dead in the water because literally it is 
farms and ranches that give us the foundation for doing stream 
restoration work, wetland restoration work, riparian 
conservation because they still hold land in large enough 
pieces that they need to create a living for themselves there. 
It is those large pieces that if we put them under conservation 
easement or in some other conservation status--we have a 
landowner or a family with whom we can work to do watershed 
restoration projects to enhance water quality and to secure 
surface water and groundwater supplies.
    Senator Tester. In their testimony--and Avra Morgan pointed 
this out in the questions--the Administration implied there was 
overlap with the Water for America initiative, and that is one 
of the reasons they oppose this bill.
    Mr. Hinz. Yes.
    Senator Tester. Do you see any overlap?
    Mr. Hinz. For the Greater Gallatin Watershed Council, there 
is none.
    Senator Tester. No overlap?
    Mr. Hinz. Zero. We do not qualify for those funds.
    The one aspect of the Administration's testimony where I 
have some experience is in the Challenge Grant Program through 
Department of the Interior agencies, including the Fish and 
Wildlife Service, BLM, and BOR, but specific to the BOR 
funding, we have worked with BOR in funding some projects on 
the mainstem Madison and Missouri River through a cooperative 
program with PPL Montana. But for local watershed groups like 
the Greater Gallatin Watershed Council, it is a nonissue. We do 
not have access to any of those funds. None.
    Senator Tester. When water issues, local water issues in 
particular, get out of hand, it usually results in litigation. 
It ends up in the courts. As the lady before talked about, 
there were water fights a long time ago, and there continue to 
be.
    Do you see the role of these watershed groups minimizing 
the kind of actions that could take place in court and kind of 
settling this stuff before it gets to a boiling point?
    Senator Salazar. Mr. Hinz, can you hold on just for 1 
second?
    Mr. Hinz. Yes.
    Senator Tester. This is the last question.
    Senator Salazar. I was going to say this is a very 
important stream of questions. You obviously can stay doing 
this for a long time. I am going to have to leave, though. So 
you will gavel down. I am going to turn the gavel over to you.
    Senator Tester. I will sit here and we are good to go. 
Thank you, Senator Salazar.
    Senator Salazar. Thank you, Senator Tester.
    Senator Tester [presiding]. Anyway, from a litigation 
standpoint, do you see empowering these groups being able to--
--
    Mr. Hinz. From the perspective of the Administration, the 
comments that were conveyed earlier, I think it would be nice 
to be able to say that through the collaborative work of these 
watershed groups, there were significant savings in the offing 
in terms of reduced court costs, lengthy legal battles, things 
that move up through the court system from the State to the 
Federal level, et cetera.
    But I think the thing that we have to sell essentially that 
is of value that would emanate from S. 3085 is the ability of 
our watershed groups to conserve water. Whether we are going to 
be more effective in saving the Federal Government money as a 
result of preventing some litigation through the work of the 
watershed groups, I guess I cannot respond to that because we 
do not have examples of that, I do not think, in Montana yet 
like in the Klamath Basin of Oregon, for example.
    But one thing I am convinced is that our watershed groups 
can do this work and bring these groups together, diverse 
stakeholder groups together, and deliver these benefits that 
conserve the water that Montanans need. I hope that we can do 
that, and I believe that we can do that and generate 
significant benefits for people who live in Montana, visit 
Montana, or downstream users of Montana water.
    Senator Tester. Very good. I want to thank you, Tom. I 
appreciate your testimony. I appreciate your answers to the 
questions.
    Mr. Hinz. Thank you.
    Senator Tester. I appreciate you coming all the way to 
Washington, DC.
    With that, this committee hearing is adjourned.
    [Whereupon, at 3:56 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

      Responses of Joel Holtrop to Questions From Senator Barrasso
                               h.r. 3473
    H.R. 3473, to provide for a land exchange with the city of 
Bountiful, Utah, involving National Forest System land in the Wasatch-
Cache National Forest and to further land ownership consolidation in 
that national forest, and for other purposes.
    I note that there is a shooting range involved in this land 
exchange and that you want language that indemnifies the Federal 
Government from the hazardous wastes there.
    Question 1. What steps has the Forest Service taken over the years 
to manage this site and the hazardous wastes that you seem to be 
concerned about?
    Answer. This target range has been under special use permit for 
many years and the Ranger District works with the permit holder, the 
Lions Club, to address any management concerns. Lead from the shooting 
activity is contained in the hillside within the target range. The 
Forest Service is concerned, should there be a change in ownership, 
about any potential liability the US government would incur for 
removing lead from the site as this could be quite expensive.
    Question 2. Should we take the agency's repeated attempts to divest 
itself from shooting ranges on Federal land as a statement of 
opposition to shooting guns on Federal land for target practice?
    Answer. The Forest Service has demonstrated its continued support 
for shooting sports on national forests. Attesting to that commitment, 
the Deputy Chief recently signed a Memorandum of Understanding (MOU) 
with the National Shooting Sports Foundation along with forty other 
organizations. This Federal Lands Hunting, Fishing and Shooting Sports 
Roundtable MOU creates a cooperative framework to plan activities and 
projects for mutual benefit.
    National forests across the Nation host both dispersed shooting and 
focused target shooting areas. In some cases, designated target ranges 
are managed by the Forest Service and in other cases they are managed 
under a Special Use Permit as is the case in Bountiful. In this case 
the Lions' Club would like to make improvements at the range and hence 
the City and Club would prefer to own the land.
    The Forest Service does, at times, have a need to address issues 
associated with designated target ranges such as safety, illegal 
dumping and conflicts with other uses. These issues are sometimes more 
acute when the target ranges are closer to urban settings.
    Nevertheless, we actively support many of the goals of the shooting 
and hunting community including access to Federal lands as well as 
enhancing opportunities to hunt and engage in shooting sports. Together 
we work with partners and communities to promote marksmanship and 
hunter education in a safe and environmentally sound manner.
    Question 3. Should we take this opposition to shooting as carrying 
over to hunting on Federal lands?
    Answer. The Forest Service welcomes and supports hunting on 
national forests as demonstrated in our commitment to the 
aforementioned MOU. We are actively implementing the August 2007 
Executive Order, ``Facilitation of Hunting Heritage and Wildlife 
Conservation,'' In addition, individual forest plans address the 
protection and enhancement of habitat for all game species thus 
ensuring a wide range of hunting opportunities. We work closely with 
state agencies responsible for regulating hunting.
                                s. 3069
    Mr. Holtrop, the Committee has received a letter from the County of 
Los Angeles on S. 3069 that indicates because of fire risk S. 3069 
``could jeopardize life and property in urban interface communities . . 
. by precluding the performance of common fire control, suppression, 
and prevention activities.''
    Question 4. Do you concur with the County that designating these 
lands as wilderness will complicate the State of California and the 
Forest Service's efforts to manage in these areas to control and reduce 
the risk of wildland fires?
    Answer. The lands that would be designated as wilderness in Los 
Angeles County (Pleasant View Ridge and Magic Mountain) were not 
recommended for wilderness in the 2005 Angeles National Forest Land 
Management Plan. Wildland fire concerns in the wildland urban interface 
and planned hazardous fuel reduction projects influenced the Forest 
Plan decision. We share the County's concern about reducing the risk of 
wildland fires and managing wildfires in this area. We stated in our 
testimony for S. 3069 that we feel the continued use of the current 
Forest Plan designation of Backcountry Non-motorized use for the 
majority of this area remains appropriate.
    We understand S. 3069 includes language for the control and 
prevention of fire in the proposed wilderness, but we still have 
concerns about the proposed boundaries. We would like to work with the 
subcommittee and the bill's sponsors to adjust the boundaries to 
address concerns about hazardous fuel reduction, wildfire management 
and other competing uses.
    My staff informs me that Senator Boxer and Representative McKeon 
had a bill in the 109th Congress (S. 2567) that covered this same area 
but only covered 39,680 acres.
    Question 5. Can you tell me how the additional acres of wilderness 
designation will impact the Forest Service as compared to that in S. 
2567 from the 109th Congress?
    Answer. S. 2567 introduced in the 109th Congress would have 
designated approximately 39,680 acres called the ``Hoover Wilderness 
Addition'' and 640 acres that would have been added to the Emigrant 
Wilderness. Both of these are on the Humboldt-Toiyabe National Forest.
    The Hoover Wilderness addition proposed in S. 2567 appears to be 
the same as the Hoover West Addition proposed in S. 3069. There was no 
area proposed in S. 2567 that is comparable to the approximately 24,000 
acre Hoover East Wilderness addition proposed in S. 3069. The Emigrant 
Wilderness addition in S. 2567 was 640 acres and is 251 acres on S. 
3069. It appears now that the 640 acres was in error concerning its 
size and that the area proposed under both bills is essentially the 
same.
    Our July 16, 2008 testimony for S. 3069 stated that we support 
wilderness designation for the Hoover West and East Wilderness 
Additions named in the Bill, but not for the Emigrant addition, because 
of the complexity of managing snowmobile use and the Pacific Crest 
Trail in that area.
    Since our 2006 testimony, the Humboldt-Toiyabe National Forest has 
completed a forest plan amendment that allocates the area in the 
proposed Emigrant addition for semi-primitive non-motorized recreation. 
We oppose designation of this area as wilderness. We feel designating 
these acres as wilderness would complicate management of the Emigrant 
Wilderness, the Pacific Crest Trail and the Bridgeport Winter 
Recreation Area in this vicinity. We prefer keeping the boundary of the 
Emigrant Wilderness as it currently is on the clearly definable ridge, 
rather than adding 251 acres. We understand this is a complex situation 
and we remain willing to discuss this further with the Committee staff.
    S. 3069 also designates additional acres of wilderness as follows:
----------------------------------------------------------------------------------------------------------------
                                                              Acres of
                                      Name of Area in S.      proposed      Acres recommended    USDA position
          National Forest                    3069         wilderness in S.  for wilderness in    (July 16, 2008
                                                                3069           Forest Plans        testimony)
----------------------------------------------------------------------------------------------------------------
Humboldt-Toyiabe                     Hoover West          76,982 See Sec 3  41,460 including   Support
                                      Wilderness           (1)(A) of S.      Area X; based on
                                      Addition             3069. These       current FS GIS
                                                           acres may         maps of Forest
                                                           change slightly   Plan
                                                           to reflect
                                                           mapping by
                                                           Forest Service
                                                           at request of
                                                           committee
---------------------------------------------------------                  -------------------------------------
Humboldt-Toiyabe and Inyo            Hoover East                            23,840 based on    Support with
                                      Wilderness                             current FS GIS     boundary
                                      Addition                               maps of Forest     adjustments
                                                                             Plan
---------------------------------------------------------                  -------------------------------------
Inyo                                 Bighorn Wilderness                     0                  Support some
                                      Addition                                                  portions with
                                                                                                boundary
                                                                                                adjustments
----------------------------------------------------------------------------------------------------------------
Humboldt-Toiyabe                     Emigrant Wilderness  251               0                  Do not support
                                      Addition
----------------------------------------------------------------------------------------------------------------
Inyo                                 Owens River          15,247 acres      0                  Support some
                                      Headwaters/Ansel                                          portions with
                                      Adams Wilderness                                          boundary
                                      Addition                                                  adjustments
----------------------------------------------------------------------------------------------------------------
Inyo and BLM                         John Muir Addition   80,112            93                 Support with
                                                                                                boundary and
                                                                                                jurisdiction
                                                                                                adjustments
----------------------------------------------------------------------------------------------------------------
Inyo and BLM                         White Mountains      223,517           120,008            Do not oppose
                                      Wilderness                                                with boundary
                                                                                                modifications to
                                                                                                address ``cherry
                                                                                                stem''
                                                                                                configurations
----------------------------------------------------------------------------------------------------------------
Inyo and BLM                         Granite Mountain     35,564            0                  Support with
                                      Wilderness                                                boundary and
                                                                                                jurisdiction
                                                                                                adjustments
----------------------------------------------------------------------------------------------------------------
Angeles                              Magic Mountain       13,709            0                  Cannot support
                                      Wilderness                                                without boundary
                                                                                                adjustments and
                                                                                                corrections
----------------------------------------------------------------------------------------------------------------
Angeles                              Pleasant View Ridge  28,424            0                  Cannot support
                                      Wilderness                                                without boundary
                                                                                                adjustments and
                                                                                                corrections
----------------------------------------------------------------------------------------------------------------

    Question 6. Of the forest acres designated as wilderness in this 
bill how many were recommended for wilderness in the most recent forest 
plan for this area?
    Answer. Please see table above.
                                 ______
                                 
      Responses of Henri Bisson to Questions From Senator Barrasso
                                s. 3069
    Mr. Bisson, the Committee has received a letter from the County of 
Los Angeles on S. 3069 that indicates because of fire risk S. 3069 
``could jeopardize life and property in urban interface communities . . 
. by precluding the performance of common fire control, suppression, 
and prevention activities.''
    Question 1. Do you concur with the County that designating these 
lands as wilderness will complicate the State of California and the 
BLM's efforts to manage in these areas to control and reduce the risk 
of wildland fires?
    Answer. While none of the proposed Wilderness areas to be managed 
by the BLM are within Los Angeles County, we certainly understand the 
concerns raised by the County. The Wilderness Act of 1964 provides 
agencies the authority to allow necessary equipment to be used to 
control fire in Wilderness Areas (Sec. 4(d)(1)). That authority is 
specifically cited in section 4(e) of S. 3069.
    The BLM's policy of fire management in designated wilderness is 
very clear. The BLM has the authority, and uses that authority when 
appropriate to use necessary motorized equipment in wilderness during 
fires. The authority has been delegated to our State Directors to 
ensure timely decisions are made by those BLM officials with direct 
knowledge of the situation.
    For example, the BLM generally allows the construction of bulldozer 
lines in wilderness in cases where this is needed. Earlier this summer 
the BLM pre-approved the use of bulldozers to build fire lines within 
wilderness on the Piute Fire in Kern County, the Basin and Indian 
Complex Fire (Big Sur) in Monterey County, and the Red Mountain Fire in 
Mendocino County.
    Question 2. My staff informs me that Senator Boxer and 
Representative McKeon had a bill in the 109th Congress (S. 2567) that 
covered this same area but only covered 39,680 acres.
    Can you tell me how the additional acres of wilderness designation 
will impact the BLM as compared to that in S. 2567 from the 109th 
Congress?
    Answer. S. 2567 did not include the designation of any BLM-managed 
lands as Wilderness. However, approximately 24 miles of the Amargosa 
River, which is managed by BLM, was proposed as an addition to the 
National Wild and Scenic River System in that legislation, and we 
supported its designation in testimony during the 109th Congress.
    S. 3069 would designate approximately 57,000 acres of BLM-managed 
land as wilderness. As we noted in our testimony we support, with minor 
modifications, the designation of the Granite Mountain Wilderness to be 
managed by BLM, and we defer to the Forest Service on the issue of 
designation of the White Mountains and John Muir Additions. The BLM 
believes these areas can be managed as wilderness with negligible 
effect on current uses.
    Question 3. Of the BLM acres designated as wilderness in this bill 
how many were recommended for wilderness in the most recent forest plan 
for this area?
    Answer. The BLM reviewed Wilderness Study Areas (WSAs) for 
suitability for wilderness as part of the 1991 Wilderness Study Report 
(unlike the Forest Service we do not re-review WSAs in subsequent land 
use plans.) Both the Granite Mountain WSA and the White Mountains WSA 
were recommended nonsuitable for wilderness. Since that report, there 
have been a number of changes on the ground, including the acquisition 
of private lands, and the reduced possibility of geothermal potential 
in the area.
                                s. 3065
    I know that there are roads within the recommended National 
Conservation area and grazing infrastructure in both the National 
Conservation area and the proposed Wilderness Area.
    Question 4. If Congress were to add language to protect access to 
these areas, would the BLM object to such protections for the ranchers 
and the private property owner who is involved?
    Answer. We would be happy to review any proposed language. We 
believe that the language in the bill on grazing in section 7(b) (which 
is consistent with other wilderness bills enacted over the last several 
years) provides assurances on existing grazing improvements. Section 
4(b)(2)(B) provides for motorized vehicles within the proposed NCA on 
designated roads and trails.
    Question 5. Of the BLM acres designated as wilderness in this bill, 
how many were recommended for wilderness in the most recent forest plan 
for this area?
    Answer. In the January 7, 1993, Wilderness Study Report the BLM 
recommended the vast majority of the entire Dominguez Canyon WSA as 
suitable for designation, including all of the areas designated as 
wilderness by S. 3065.
    Question 6. Of the BLM acres designated as National Conservation 
Area in this bill, how many were recommended for National Conservation 
areas status in the most recent forest plan for this area?
    Answer. The BLM does not have the authority to consider 
Congressional designations of potential NCAs during its land use 
planning process.
                               h.r. 3651
    Some have suggested that the need for the transfer remains unclear, 
and that the land is already withdrawn and used for the purposes that 
would be permitted under the terms of the bill.
    Question 7. From your experience and what you know about the 
requirements and processes of the BLM, would the transfer of this land 
help expedite the Utah National Guard's ability to utilize these lands 
as part of Camp Williams?
    Answer. As you note, these lands are already withdrawn for the use 
of the Army, therefore the BLM is no longer involved in the management 
of these lands. We are not familiar with the specific needs of the Utah 
National Guard.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                The Colorado Mountain Club,
                                         Golden, CO, July 14, 2008.
Hon. Ken Salazar,
U.S. Senate, Washington, DC.
    Dear Senator Salazar, On behalf of our more than 9,000 members 
across the state, Colorado Mountain Club (CMC) would like to express 
our sincere appreciation for your efforts to create the Dominguez-
Escalante National Conservation Area and Dominguez Canyon Wilderness. 
Thank you for introducing legislation to protect this unique and 
remarkable place.
    The Dominguez Canyons area provides critical undisturbed, arid, 
lower elevation wildlife habitat and quiet recreation opportunities. 
With protection, this area will serve to enhance and sustain 
biodiversity and recreation within the state of Colorado. CMC members, 
volunteers and staff have explored, hiked, and inventoried the proposed 
lands.
    Our members appreciate the rugged, colorful, quiet landscape of the 
Dominguez Canyons area, and look forward to enjoying the permanent 
protection that wilderness designation will offer this special 
landscape. We join with the many endorsers of your legislation to urge 
you to continue working diligently to pass it through Congress this 
year.
    Again, thank you for your work in protecting Dominguez Canyons.
            With warm regards,
                                              Bryan Martin,
                                Assistant Director of Conservation.
                                 ______
                                 
                          Colorado Environmental Coalition,
                                         Denver, CO, July 14, 2008.
Hon. Ken Salazar,
U.S. Senate, Washington, DC.
    Dear Senator Salazar, On behalf of our more than 100 coalition 
partners and the 150,000 Coloradans they collectively represent across 
the state, Colorado Environmental Coalition (CEC) would like to express 
our sincere appreciation for your efforts to create the Dominguez-
Escalante National Conservation Area and Wilderness. Thank you for 
introducing legislation to protect these beautiful lands.
    Colorado Environmental Coalition has been actively supporting the 
designation of Dominguez Canyons Wilderness from the very beginning of 
the Bureau of Land Management's wilderness process starting in 1976. 
CEC staff, members and volunteers have explored, hiked, and inventoried 
the proposed lands. We have met with interested parties, from ranchers 
to county commissioners to land management agencies to local citizens.
    Our members look forward to enjoying the permanent protection that 
wilderness designation will offer these special landscapes. We join 
with the many endorsers of your legislation to urge you to continue 
working diligently to pass it through Congress this year.
    Again, thank you for your leadership in protecting Dominguez 
Canyons.
            With warm regards,
                                               Elise Jones,
                                                Executive Director.
                                 ______
                                 
                                 Western Colorado Congress,
                                 Grand Junction, CO, July 14, 2008.
    Dear Senator Salazar, On behalf of the 3100 members of Western 
Colorado Congress, we thank you for introducing the Dominguez Escalante 
National Conservation Area and Dominguez Canyon Wilderness Area Act (S. 
3065). We appreciate your support and your leadership on this important 
public lands legislation.
    We strongly endorse this legislation and urge Congress to promptly 
pass it into law this year, as do a diverse variety of conservation 
organizations, businesses, local governments, recreation groups, and 
individual citizens.
    Many of our members have visited the area and cherish its quiet, 
rugged, colorful beauty. It provides undisturbed wildlife habitat rare 
in such an arid landscape, along with wonderful recreation 
opportunities.
    Thank you again for your good work on this important legislation.
            Sincerely,
                                                Bill Grant,
                                        WCC Public Lands Committee.
                                 ______
                                 
                                   Sheep Mountain Alliance,
                                      Telluride, CO, July 14, 2008.
Hon. Ken Salazar,
U.S. Senate, Washington, DC.
    Dear Senator Salazar, I write to you on behalf of the nearly 400 
members of Sheep Mountain Alliance in San Miguel County. As neighbors 
of the Dominguez-Escalante region, we thank you for introducing 
Dominguez-Escalante national conservation area and wilderness 
legislation. We appreciate your support for protecting this unique and 
remarkable place.
    We strongly endorse this legislation and urge Congress to promptly 
pass it into law this year, as do a diverse variety of conservation 
organizations, businesses, local governments, recreation groups, and 
individual citizens.
    Many of our members have visited the area and cherish its quiet, 
rugged, colorful beauty. It provides undisturbed wildlife habitat rare 
in such an arid landscape, along with wonderful recreation 
opportunities.
    Thank you again for your good work on this important legislation as 
well as many other conservation efforts throughout Colorado.
            Sincerely,
                                              Hilary White,
                                                          Director.
                                 ______
                                 
                                Western Resource Advocates,
                                                       Boulder, CO.
Hon. Ken Salazar,
U.S. Senate, Washington, DC.
Re: Dominguez-Escalante National Conservation Area & Wilderness bill

    Dear Senator Salazar, Thank you for your continued leadership on 
Federal public lands issues in Congress. As a former resident of 
Montrose, I've spent more days than I can count kicking around the 
Uncompahgre Plateau, one of the most unique and stunning landscapes in 
Colorado or anywhere else.
    In the early 1990s, I worked with Jim Martin and Senator Wirth to 
achieve Federal protection for Roubideau Canyon the Tabeguache area on 
the Plateau. The far-sighted decisions to protect those two natural 
areas have been good for the local economy, the State and the nation. I 
took my two sons backpacking in Upper Roubideau several years ago, and 
enjoyed an Easter adventure to Tabeguache in 2007.
    Dominguez-Escalante encompasses some of the most outstanding 
country on the Uncompahgre Plateau. Visitors to Escalante Breaks near 
the crest of the Plateau can easily imagine that they are fur trappers 
or Ute warriors in the early 1800s. Dominguez Canyon would take months 
to properly explore. It ranks with Utah's renowned National Parks as 
some of the most stunning redrocks wilderness in the southwest. On the 
first day of my 2007 trip, we observed ancient petroglyphs on rock 
walls and desert bighorn sheep in a side canyon while exploring around 
camp at dusk. On our way back to the trailhead, we saw a large herd of 
desert bighorns highlighted against the sky, on the rim of the canyon 
above the Colorado River. It was a magical moment that I won't forget, 
in the company of a wildlife biologist who had helped reintroduce the 
sheep to Colorado.
    Western Resource Advocates strongly supports the new legislation to 
afford balanced protections for these outstanding landscapes. In 
addition to the broad appreciation and support of current citizens, 
future generations will greatly appreciate your visionary leadership on 
these and other public lands and natural resources issues.
            Very sincerely yours,
                                           Mike Chiropolos,
                                            Lands Program Director.
                                 ______
                                 
                           Great Old Broads for Wilderness,
                                                       Durango, CO.
Hon. Ken Salazar,
U.S. Senate, Washington, DC.
    Dear Senator Salazar, Great Old Broads for Wilderness, with over 
400 Colorado members, thanks you for introducing Dominguez-Escalante 
national conservation area and wilderness legislation. We appreciate 
your support for protecting this unique and remarkable place.
    We strongly endorse this legislation and urge Congress to promptly 
pass it into law this year, as do a diverse variety of conservation 
organizations, businesses, local governments, recreation groups, and 
individual citizens.
    Many of our members have visited the area and cherish its quiet, 
rugged, colorful beauty. It provides undisturbed wildlife habitat rare 
in such an arid landscape, along with wonderful recreation 
opportunities.
    Thank you again for your good work on this important legislation.
            Broadly,
                                             Veronica Egan,
                                                Executive Director.
                                 ______
                                 
               Board of Delta County Commissioners,
                                         State of Colorado,
                                          Delta, CO, April 7, 2008.
    Dear Senator Wayne Allard and Senator Ken Salazar, Public meetings 
have been held throughout Delta, Mesa, and Montrose Counties over the 
past 2 years collecting information regarding the proposed Dominquez 
Escalante National Conservation and Wilderness Study Area.
    The Dominguez Escalante National Conservation and Wilderness Study 
Area and adjacent Federal lands include a variety of unique ecological, 
geological, scenic, historic, economic and wildlife components.
    This area and adjacent Federal lands provide extensive 
opportunities for ranching, economic, educational and recreational 
activities, and are publicly used for hunting, hiking, camping, 
fishing, recreation, motorized use, and for solitude.
    The public land within and surrounding the proposed Dominguez 
Escalante National Conservation Area contributes to the economic 
viability of surrounding landowners, communities and offers unique 
geological, paleontological, scientific, educational, and recreational 
resources.
    On behalf of our agricultural constituents and many other 
interested members of our communities we offer the following conditions 
to be incorporated in the form of actual language into potential 
legislation for the Dominguez Escalante National Conservation Area/ 
Wilderness Area designation.

  <bullet> Express disclaimer of any reserved Federal water rights.
  <bullet> Express disclaimer of any effect on existing water rights.
  <bullet> Express disclaimer of any effect of the Wilderness Area or 
        the National Conservation Area on water quality standards in or 
        upstream of the Federal land designations.
  <bullet> Express exclusion of the Gunnison River from the wilderness 
        irrespective of the river's flow at any time (i.e., no one can 
        claim that because the Gunnison River in a particularly high 
        water year rose into the wilderness, that the river is 
        therefore part of the wilderness).
  <bullet> Gunnison River included in the National Conservation Area.
  <bullet> Express disclaimer of any Federal water right on the 
        Gunnison River for the National Conservation Area.
  <bullet> Reliance on Colorado's instream flow program for any water 
        rights required by the wilderness: the Federal Government will 
        file for an instream flow right at roughly the same time as the 
        State files for its instream flow right, but the Federal 
        Government are expressly prohibited frompursuing adjudication 
        of the Federal right unless the State fails to adjudicate or 
        enforce its right. This allows the Federal Government to 
        maintain a priority date for a potential water right equal that 
        of the State's.
  <bullet> The State and Federal Government will enter into a joint 
        operating agreement for the enforcement of the State's instream 
        flow right.
  <bullet> Access to private properties within or adjacent to the 
        designated lands will be granted to the private property owner 
        where necessary and physically possible.
  <bullet> Livestock grazing practices shall continue as traditionally 
        provided for under law.
  <bullet> Sound range management science protocol shall be used for 
        grazing management practicies, plans and implementation.
  <bullet> Range improvement projects, including but not limited to 
        vegetation modification, fencing, noxious weed control, and 
        water development may occur when conducted under the 
        supervision of the appropriate public conservation agency.
  <bullet> The use of motorized vehicles for livestock grazing and 
        range management purposes can occur as provided for the 
        appropriate management plan.

    Our collective belief through the public scoping meetings with key 
stake holders over the past 2 years the above provisions are in the 
best interest of both the natural resources and the agricultural and 
greater communities associated with a Dominguez Escalante National 
Conservation Area with a wilderness component. It is our resolve to 
include the provisions, in the form of identical or similar language, 
to potential designation legislation on behalf of our agricultural and 
general constituencies.
    Thank you for the opportunity to comment.
            Sincerely,
                                             Wayne E. Wolf,
                                                          Chairman.
                                              R. Olen Lund,
                                                     Vice Chairman.
                                         Lela J. McCracken,
                                                      Commissioner.
                                 ______
                                 
                     Board of County Commissioners,
                                           Montrose County,
                                      Montrose, CO, April 28, 2008.
    Dear Senator Ken Salazar and Senator Wayne Allard: After a great 
deal of public input from the general public and specific meetings with 
interest groups it appears to the Montrose County Commissioners that a 
workable proposal for the Dominguez Escalante National Conservation and 
Wilderness Study Area (NCA/WA) has been achieved. The proposal provides 
a vehicle for improving on the sound multiple use management of the 
area. The land will be managed for both public use and the protection 
of natural values.
    The existing proposed boundaries include the Gunnison River as it 
flows through the NCA. Keeping the river inside the NCA and outside of 
any designated wilderness provides the Bureau of Land Management 
positive assistance in managing the recreation use already occurring on 
the Gunnison River. Water language has been developed which will have 
no impact to existing water rights and allow no federal reserve water 
right as a result of any forthcoming legislation.
    The Montrose County Commissioners are not in favor of extending the 
existing WSA to include additional lands. We are satisfied with the 
wilderness recommendation on Dominguez Canyon wich was made after 
significant study and public input by the Bureau of Land Management and 
is included in their 1989 Resource management plan.
    With respect to grazing operations, an NCA would not hinder current 
operations. Grazing in the current WSA is and will continue to be 
controlled by current law. Off road issues will be studied carefully 
with the public in an NCA management Plan after designation.
    The Montrose County Commissioners support the designation of the 
Dominguez/Escalante National Conservation Area and the Dominguez 
Wilderness Study Area for Wilderness.
            Sincerely,
                                             Gary J. Ellis,
                                                          Chairman.
                                      William N. Patterson,
                                                     Vice Chariman.
                                             Allan J. Belt,
                                                      Commissioner.
                                 ______
                                 
     Statement of Michael Rogers, Policy & Programs Director, Wild 
Connections, Florissant, CO, and John Stansfield, Coordinator, Central 
              Colorado Wilderness Coalition, Monument, CO
    On behalf of both Wild Connections and the Central Colorado 
Wilderness Coalition, we want to express our support and thank you for 
introducing legislation to establish the Dominguez-Escalante National 
Conservation Area and Dominguez Canyon Wilderness. We appreciate your 
support for protecting this unique and remarkable place.
    We strongly endorse this legislation and urge Congress to promptly 
pass it into law this year, as do a diverse variety of conservation 
organizations, businesses, local governments, recreation groups, and 
individual citizens.
    The Dominguez-Escalante area provides cherished quiet recreational 
opportunities amidst a rugged, colorful landscape. More important, it 
provides critical protections to undisturbed, arid, lower elevation 
wildlife habitat. These protections serve to enhance and sustain the 
biodiversity within the region, and within our broader, beautiful state 
of Colorado.
    Thank you again for your good work on this important legislation.

    Wild Connections, a science-based advocacy organization, works to 
identify, protect and restore lands of the Upper Arkansas and South 
Platte watersheds to ensure the survival of native species and 
ecological richness. We focus on designing, implementing and defending 
the Wild Connections Conservation Plan--a vision for the future of this 
region that embodies the results of many years of roadless area 
mapping, citizen input and conservation science.

    The Central Colorado Wilderness Coalition works to protect, defend, 
and preserve for future generations the ecological integrity of wild 
places in the Pikes Peak Region of central Colorado and promote 
permanent protection of these areas through wilderness designation.
                                 ______
                                 
  Statement of Hon. Michael B. Enzi, U.S. Senator From Wyoming, on S. 
                                  2448
    I would like to begin by thanking Chairman Wyden and Ranking Member 
Barrasso for holding this hearing. I would also like to thank Chairman 
Bingaman and Ranking Member Domenici for allowing this hearing to move 
forward and for their efforts to reform the Abandoned Mine Land (AML) 
Trust Fund. I have been intimately involved in this issue during my 
entire service in the Senate. I cosponsored numerous bills on AML, and 
I authored the final version of the Surface Mining Control and 
Reclamation Act Amendments of 2006 signed by President Bush into law on 
December 20, 2006.
    When the bill was signed into law, it was clear to me and my 
colleagues who worked on this measure what the legislation would do. It 
would lead to the cleanup of more abandoned mines. It would fix the 
health benefits for orphan miners so that they would not have to worry 
about healthcare in years to come. Most importantly to my state of 
Wyoming, it would return the money to certified states that had been 
hijacked by the Federal Government for other purposes, and it would fix 
that problem for money that would be owed to certified states in future 
years--without any strings attached.
    When I received word that there may be some ``conflicting'' 
interpretation of Congressional intent, I met with the Office of 
Surface Mining and the Office of Management and Budget to make clear to 
them what Congress meant when we passed that bill. I assumed, that, 
because I had drafted the language that would eventually become law, I 
could explain to those agencies what Congress meant. Unfortunately, I 
was wrong.
    Only in Washington can someone tell you what your words mean and 
think that it makes complete sense. Only in a bureaucracy as large as 
ours can a nameless staffer explain to the Members of Congress who 
drafted the law just what Congress ``really'' meant with their own 
words.
    In this case, the Administration has taken the word ``payment'' 
from our legislation to mean ``complicated grant process.'' Instead of 
receiving funding through the ``no strings attached'' process that was 
anticipated, the States are forced to jump through hoops that were 
never intended by Congress. This should be changed.
    While I am pleased that States are receiving more money than ever 
before, I am disappointed by this process. After the misinterpretation 
was released by the Administration, I asked its own lawyers to provide 
me with language that would do what we initially intended--provide the 
states money with no strings attached. The bill before your Committee 
is that product and I hope you can support this effort.
    I look forward to working with you on this matter and look forward 
to passing this legislation so that the Administration will finally 
follow the intentions of Congress.
                                 ______
                                 
                             County of Los Angeles,
                                        Legislative Office,
                                     Washington, DC, July 11, 2008.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, U.S. Senate, 304 
        Dirksen Senate Office Building, Washington, DC.
Hon. Pete V. Domenici,
Ranking Minority Member.
    Dear Chairman Bingaman and Ranking Minority Member Domenici: On 
behalf of the County of Los Angeles, I am writing regarding the Eastern 
Sierra and San Gabriel Wild Heritage Act (S. 3069/H.R. 6156), which 
would designate 472,804 acres of public land in California as 
wilderness, including 42,000 acres of land in Los Angeles County as 
wilderness.
    The County of Los Angeles is the most populous County in the Nation 
with 10.3 million people and a land area covering over 4,000 square 
miles. The wilderness areas in Los Angeles County designated by S. 
3069/H.R. 6156 are located within the Angeles National Forest, which 
comprises over 655,000 total acres, most of which are within the 
County. The Los Angeles County Fire Department, in conjunction with the 
California Department of Forestry, is responsible for fire control and 
suppression activities in and around the Angeles National Forest, 
consisting of hazardous fuels reduction to minimize wildland fire 
hazards and protecting the region's natural resources from adverse 
impacts.
    The Angeles National Forest is unique compared with most national 
forest, park, recreation and wilderness areas in that it is located in 
the middle of a high-density urban environment. The Angeles National 
Forest also features elevations ranging from 1,200 to 10,000 feet, over 
1,000 miles of roads, almost 700 miles of trails, while having one of 
the highest usage rates in the entire national forest system.
    For all of the attributes of the Angeles National Forest, it is 
also one of the most fire-prone areas in California. The 42,000 acres 
of land that S. 3069/H.R. 6156 would designate as wilderness are 
adjacent to several populated communities such as Newhall, Canyon 
Country, Acton, Ague Dulce, and Juniper Hills. Many of these areas have 
regularly experienced wildfires in recent years, and each of these 
communities (with the exception of Juniper Hills) was impacted to some 
extent by the series of fires which occurred in October 2007.
    The perpetually dry Southern California climate, rugged terrain, 
varying elevations, and unpredictable winds present numerous challenges 
in the control and prevention of wildfires in the Angeles National 
Forest and its surrounding communities. This wildland-urban interface 
area has always been a major focus for fire management in Los Angeles 
County. In addition, the increase in fine fuel volume created by last 
year's high rainfall has resulted in forming continuous fine fuel beds 
throughout the desert, valleys, and foothill areas of the Angeles, 
which promote quick ignition, rapid rates of spread and large fire 
development. Passage of S. 3069/H.R. 6156 as currently drafted could 
impede the ability of local fire departments and other public safety 
personnel in responding to fires and other emergencies in a timely and 
effective manner. In addition, the legislation could jeopardize life 
and property in urban interface communities such as those adjacent to 
the Angeles National Forest by precluding the performance of common 
fire control, suppression, and prevention activities.
    The County of Los Angeles is available to provide technical 
assistance with this legislation as appropriate.
            Sincerely,
                                        P. Michael Freeman,
                                Fire Chief, Forester & Fire Warden.
                                 ______
                                 
              International Mountain Bicycling Association,
                                        Boulder, CO, July 14, 2008.
Hon. Ron Wyden,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        & Natural Resources, U.S. Senate, Washington, DC.
Hon. John Barrasso,
Ranking Member, Subcommittee on Public Lands and Forests, Committee on 
        Energy & Natural Resources.
    Dear Mr. Chairman and Ranking Member: On behalf of the 
International Mountain Bicycling Association (IMBA) and the millions of 
mountain bicyclists in California, I write over our objections to H.R. 
6156 and S. 3069 that seek to establish new Wilderness areas in 
California's eastern Sierra.
    The International Mountain Bicycling Association (IMBA), founded in 
1988, leads state, national and worldwide mountain bicycling 
communities through a network of 80,000 supporters and more than 700 
affiliated clubs, including 60 in California. Nationwide, IMBA members 
and affiliated clubs contribute over 1 million hours of volunteer trail 
and advocacy work annually and are some of the best partners to 
Federal, state, and local land managers. California has more mountain 
bicyclists than any other state. It is estimated that between 3 and 5 
million people ride mountain bikes on dirt surface trails in the state.
    IMBA applauds the movement to preserve wild areas in California. 
However, we are in favor of land management designations that allow for 
a flexible range of sustainable, human powered outdoor recreation, 
while preserving the environment for future generations. Unfortunately, 
Federal Wilderness is an excessively restrictive land use designation 
that significantly limits recreation activity, specifically human 
powered bicycle travel. Although we are in agreement with the majority 
of the proposed Wilderness sections in H.R. 6156 and S. 3069, we 
disagree with two proposed areas, mainly the Owens River Headwaters and 
Pleasant View Ridge land parcels. The proposed Wilderness designation 
will significantly restrict current and potential recreation 
opportunity for thousands of mountain bicyclists in the state. At a 
time when the state's population is approaching 37 million people, and 
mountain bike recreation is on the increase, we think it is 
shortsighted public policy to further limit areas for quality outdoor 
recreation.
    In the case of the Owens River Headwaters, our objection to 
Wilderness is based on the following:

  <bullet> The proposed parcel is directly adjacent to the well-known 
        Mammoth Lakes Resort community that draws millions of visitors 
        from the Los Angeles basin seeking numerous forms of outdoor 
        recreation including mountain biking. Unfortunately, mountain 
        bike trails are limited to the privately run Mammoth Mountain 
        ski area that requires a significant trail use fee. There is a 
        paucity of quality mountain bike trail opportunities on 
        surrounding public lands, thereby eliminating the opportunity 
        for pristine backcountry riding that cyclists cherish. Mountain 
        bikers are now crammed into the over crowded ski slopes of 
        Mammoth Mountain.
  <bullet> Local trail advocates realize that trail systems are a vital 
        part of their recreation offerings and have visions for future 
        trail expansion on adjacent public lands. The Owens Headwaters 
        is a prime area for future development of non-motorized, 
        sustainable trails for bicyclists and hikers. The Wilderness 
        designation will prevent bicycles in this area.
  <bullet> A developed trail system will provide much needed high 
        quality recreation opportunity for thousands of cyclist, and 
        will have the added benefit of becoming an economic driver for 
        Mammoth Lakes and the surrounding mountain communities. It is 
        well documented that when there are high quality, sustainable 
        trail systems, mountain bikers will come from far and near to 
        enjoy them.

    In the case of the Pleasant View proposed Wilderness, our 
objections to Wilderness are based on the following:

  <bullet> The proposed area currently has significant riding 
        opportunities for mountain bikers. Specifically trail 10W02 
        from Devils Punchbowl to Buckhorn is a popular ride for 
        cyclists. The same is the case for trail 9W02 that runs from 
        South Fork Campground to the highway near Little Jimmy.
  <bullet> These two trails provide what we in the mountain biking 
        community call ``epic'' rides, because of the natural beauty, 
        the length of the ride, the opportunity for a loop trail 
        experience (if a short stretch of road is used for a connector) 
        and the unique opportunity to ride from desert like 
        surroundings to beautiful mountain top vistas.
  <bullet> The area is in close proximity to the large population 
        center of Los Angeles Basin, and the communities of Pasadena, 
        Burbank, Mission Hills and San Fernando. There are thousands of 
        cyclists in this region and many of them frequent the area in 
        question. The population of new cyclists is growing; hence 
        preserving a range of cycling opportunities is vitally 
        important.
  <bullet> The US Forest Service conducted a lengthy planning process 
        with extensive public review and input for the three southern 
        California Forests. Pleasant View was a part of this process 
        and it was not designated for Wilderness consideration in the 
        final Forest Plan. Mountain biking is allowed in the Forest 
        Plan; however, that would change if Wilderness were 
        established.

    IMBA has a strong interest in preserving wild areas in California. 
Cyclists enjoy riding on sustainable trails in beautiful pristine 
environments. We are supportive of land designations that preserve 
these special places and at the same time allow for low impact 
recreation. We look forward to continued discussion with Wilderness 
proponents to arrive at mutually supportive solutions.
            Sincerely,
                                                  Tom Ward,
                                        California Policy Director.
                                 ______
                                 
              International Mountain Bicycling Association,
                                        Boulder, CO, July 16, 2008.
Hon. Ron Wyden,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        & Natural Resources, U.S. Senate, Washington, DC.
Hon. John Barrasso,
Ranking Member, Subcommittee on Public Lands and Forests, Committee on 
        Energy & Natural Resources.
    Dear Mr. Chairman and Ranking Member: The International Mountain 
Bicycling Association (IMBA) endorses Senator Salazar's proposal to 
bring lasting protection to Dominguez Canyon, reflected in the 
Dominguez-Escalante National Conservation Area and Dominguez Canyon 
Wilderness Area Act (S. 3065). IMBA strongly supports protection of 
these public lands and urges the committee to pass this bill.
    Mountain bicyclists value public lands for the same reasons as 
other quiet, low-impact users. We cherish the freedom, solitude, clean 
air, clean water and natural landscapes that bring us closer to nature.
    IMBA highly values its partnership with the Bureau of Land 
Management (BLM). In 1990, IMBA participated in the first BLM mountain 
bike seminar in Durango, Colorado. From this meeting and others, the 
1993 National Mountain Bike Strategy was released, and in 2002, with 
IMBA's input, the BLM published the National Mountain Bicycling 
Strategic Action Plan. The volunteer National Mountain Bike Patrol 
works to inform, assist, and educate mountain bikers and other trail 
users on BLM lands across the country.
    Locally, the Colorado Plateau Mountain Bike Trail Association 
(COPMOBA) is a dedicated steward on many trails in the BLM's Grand 
Junction Field Office. This IMBA-affiliated club donates hundreds of 
volunteer hours each year to the construction and maintenance of 
sustainable shared-use BLM trails.
    The Grand Junction area has long been an important resource for the 
mountain bicycling community. Highly valued trails like the Tabeguache 
Trail have been used for many years by bicyclists appreciative of their 
unique scenic vistas and challenging terrain. Mountain bicyclists 
cherish these trails and the experiences they provide.
    Foremost, IMBA appreciates the efforts to protect lands surrounding 
traditional mountain biking trails with a National Conservation Area 
(NCA) designation. It is vitally important to our community that any 
proposal protects the land and allows for continued bicycling. Senator 
Salazar's plan preserves our quiet, low-impact, human-powered activity 
with bicycle-friendly designations like the NCA and through boundary 
adjustments that do not disturb bicycle access to important routes in 
the immediate vicinity.
    IMBA also supports the approximately 65,000-acre Wilderness 
designation nested within the larger NCA. Federal land management 
agencies do not allow bicycling in Wilderness, but this particular area 
does not affect existing bicycle access.
    IMBA looks forward to working with your office to promote this 
model legislation.
            Sincerely,
                                                 Jenn Dice,
                                       Government Affairs Director.
                                 ______
                                 
Statement of the National Wildlife Federation, the New Mexico Wildlife 
    Federation, Albuquerque Wildlife Federation, Theodore Roosevelt 
  Conservation Partnership, the Mule Deer Foundation--New Mexico, New 
 Mexico Council of Trout Unlimited, Sportsmen Concerned For New Mecico 
Mora Sportsmen & Concerned Citizens, Southwest Consolidated Sportsmen, 
     Backcountry Horsemen of New Mexico--Lower Rio Grande Chapter, 
 Republicans for Environmental Protection--New Mexico Chapter, Common 
  Ground United, Audubon New Mexico, New Mexico Wilderness Alliance, 
   Southwest Environmental Center, Oil & Gas Accountability Project, 
Brotherhood Of Locomotive Engineer & Trainmen--Division 446 Of Belen & 
                    Gallup New Mexico, on H.R. 2632
    On behalf of The National Wildlife Federation, The New Mexico 
Wildlife Federation, The Albuquerque Wildlife Federation, The Theodore 
Roosevelt Conservation Partnership, The Mule Deer Foundation--New 
Mexico, New Mexico Council of Trout Unlimited, Sportsmen Concerned for 
New Mexico, Mora Sportsmen & Concerned Sportsmen, Southwest 
Consolidated Sportsmen, Backcountry Horsemen of New Mexico--Lower Rio 
Grande Chapter, Republicans for Environmental Protection--New Mexico 
Chapter, Common Ground United, Audubon New Mexico, New Mexico 
Wilderness Alliance, Southwest Environmental Center, Oil & Gas 
Accountability Project, Brotherhood of Locomotive Engineers & 
Trainmen--Division 446 of Belen & Gallup, New Mexico we are pleased to 
submit this testimony in strong support of the Sabinoso Wilderness Act 
of 2007, H.R. 2632. Our organizations collectively represent thousands 
of individual New Mexicans, state and local governments, businesses, 
organizations, ranchers, hunters, anglers, hikers, horsemen, 
conservationists, and others.
    The designation of Sabinoso Wilderness will continue New Mexico's 
proud wilderness tradition of working to set aside special areas of our 
public lands for present and future generations--a tradition that 
started with Aldo Leopold. His efforts helped establish the Gila 
Wilderness in southwestern New Mexico in the 1920s--and that tradition 
continues with this legislation today.
    We would like to thank Representative Tom Udall for his leadership 
and commitment to wilderness protection and for the hard work that has 
gone into developing this legislation. Representative Udall and his 
staff has worked in partnership with a wide range of stakeholders and 
listened to the concerns and recommendations from all interested 
parties to develop this popular proposal.
    Bureau of Land Management (BLM) State Director Linda Rundell and 
her staff deserve praise for their leadership and willingness to work 
with the conservation community, hunting interests, local elected 
officials, ranchers and others in the region. Much of the area has been 
managed by the Bureau of Land Management as a Wilderness Study Area 
(WSA) for more than two decades.
               broad support for the sabinoso wilderness
    H.R. 2632 is a positive, vital piece of legislation that enjoys 
broad support from adjacent landowners, sportsmen, conservation groups, 
individuals, businesses, local governments, Governor Richardson and 
other state officials. Resolutions supporting the designation of the 
Sabinoso Wilderness were passed by the New Mexico State House of 
Representatives, San Miguel County Commission, Village of Wagon Mound, 
and the Town of Springer. Further, the Las Vegas San Miguel County 
Economic Development Corporation supports the area's protection.
                    wilderness values and qualities
    As Representative Tom Udall said when introducing this bill ``New 
Mexico is filled with extraordinary landscapes, complex and diverse 
ecosystems, and some of the most breathtaking natural environments in 
the country. One of New Mexico's most precious gems is the Sabinoso 
Wilderness Study Area...''
    Because of Sabinoso's unique characteristics and qualities it needs 
to be included in the National Wilderness Preservation System. At 
nearly 20,000 acres in size, Sabinoso rises 1,110 feet from the 
surrounding plains and is dominated by majestic sandstone cliffs and 
rugged canyons packed with dense vegetation and wildlife. The scenery 
within the areas is exceptional and noted for its sharp contrast of 
densely vegetated mesas bisected by colorful canyons and breathtaking 
vistas of the eastern plains. The dominant feature in the wilderness 
study area (WSA) is the 1,000-foot-deep Canon Largo, which connects to 
the Canadian River just outside the area's boundary. Sabinoso mesas are 
dominated by pinyon-juniper trees and scattered patches of Ponderosa 
pines. Cottonwood and willow trees form part of the riparian vegetation 
in the canyon bottoms, and understory plants include wavyleaf and 
shinnery oak, mountain mahogany, netleaf hackberry, skunkbush sumac, 
and Navajo tea. Grasses in the unit include black, sideoats, blue, and 
hairy grama; galleta; little bluestem, wolftail; Indian rice grass; and 
vine mesquite.
    The area's diverse habitats, from forests to cliffs to riparian 
bottomlands, support a wide variety of birds including red-tailed hawk, 
American kestrel, western scrub-jay, pine siskin, juniper titmouse, 
morning dove, lesser goldfinch, savannah sparrow, chipping sparrow, 
mountain chickadee, Bewick's wren, broad-tailed hummingbird, white-
breasted nuthatch, pinion jay, Virginia warbler, hairy woodpecker, 
white-throated swift, gray flycatcher, bushtit, and turkey vulture. 
Wildlife in the area also includes coyote, bobcat, gray fox, ground 
squirrel, racer snake, and a variety of frogs and butterflies in the 
riparian zones. Sportsmen prize the Sabinoso because it contains mule 
deer, quail, and turkey in a wild, remote scenic landscape. In 
addition, Sabinoso offers outstanding recreational opportunities for 
hiking, horseback riding, and landscape photography.
    While cultural resources in the area are unknown due to limited 
surveys, archaeological records of northeastern New Mexico suggests 
that a large number of cultural resources are very likely based on the 
its unique location and habitat.
    Clearly, the Sabinoso Wilderness is eminently qualified for 
designation under the Wilderness Act and will serve as an outstanding, 
diverse addition to the National Wilderness Preservation System. If 
designated, the area will be the first wilderness area in the 
northeastern plains of New Mexico and one of only a handful of 
wilderness areas managed by the BLM in our state. The Sabinoso 
Wilderness also would be only the second new Wilderness Area designated 
in New Mexico in twenty years. Currently, only about 2 percent of New 
Mexico is designated Wilderness which is low compared to other western 
states. For example, 5 percent of Colorado is designated as Wilderness, 
14 percent of California and 6 percent of Arizona.
                          additional benefits
    New Mexico's varied wildlands enhance our quality of life and 
create a powerful incentive for attracting new businesses to our state 
by creating the kind of environment where people want to live, work and 
recreate with their families. Over the last several years numerous 
studies have shown designated Wilderness can be an economic boon to 
local communities. From 1970 to 2000, real per capita income in 
isolated rural counties with designated Wilderness grew more than sixty 
percent faster than in isolated counties without these protected public 
lands. Polls have shown that residents of counties with designated 
Wilderness acknowledge the presence of Wilderness as an important 
reason they moved to that county while long-term residents cite 
Wilderness as one of the reasons they stay. Recent economic data from 
New Mexico and other Rocky Mountain states indicate that many firms 
decided to located or stay in the West because of protected public 
lands and the benefits they offer their employees i.e. scenic 
amenities, wildlife-based recreation, etc. Wilderness and other 
protected public lands can clearly be an economic asset and play a part 
in sustainable local economies.
                               conclusion
    We look forward to working with Members of the Committee and their 
staff, on this important legislation that will enhance New Mexico's 
``Land of Enchantment''.
                                 ______
                                 
Statement of Alan Van Vliet, resident of Bend, OR and Vice President of 
   Development and Construction for JELD-WEN Communities, on S. 3088
    Chairman Wyden and Members of the Subcommittee, thank you for 
receiving my testimony. My name is Alan VanVliet, and I am a longtime 
resident of Central Oregon. I am submitting this testimony on behalf of 
JELD-WEN Communities in strong support of S. 3088, the Oregon Badlands 
Wilderness Act of 2008. I currently serve as the Vice President of 
Construction and Development for JELD-WEN Communities, and have worked 
with JELD-WEN Communities (formerly Eagle Crest, Inc) for over 13 
years.
    JELD-WEN Communities, which develops destination resorts such as 
Eagle Crest and Brasada Ranch in Central Oregon, is one of the largest 
employers in Central Oregon, employing over 300 people in 2008.
    At JELD-WEN Communities, we have long recognized that the beautiful 
and expansive natural setting where our developments are located is a 
substantive factor in our success. The first time people visit Central 
Oregon, they are immediately drawn to the crisp desert air and the wide 
open landscape. As a company that strives to attract new visitors and 
residents to the area, we see a definite economic value in protecting 
wild places like the Badlands. But in addition to this benefit, the 
presence of protected natural areas can help our business attract and 
retain employees and set ourselves apart from our competition.
    Located just 15 miles from the city of Bend, the Oregon Badlands 
represents an invaluable opportunity to protect a piece of the high 
desert landscape that defines our region. It provides key trails for 
the quieter recreational activities such as hiking, horseback riding 
and camping, and is a place where we can find solace and a moment away 
from our busy lives. This is something that I believe the majority of 
Central Oregonians value about the place we live--the ability to escape 
our everyday lives and find solitude in the natural world. It is an 
opportunity that I hope future generations will have, and I thank 
Senator Wyden for taking action to protect this special area.
    I urge Senator Smith and the rest of the Subcommittee on Public 
Lands and Forests to work with Chairman Wyden and move quickly to 
protect the Oregon Badlands as Wilderness. Thank you again for your 
consideration of this important bill.
                                 ______
                                 
         Statement of the Blueribbon Coalition, Pocatello, ID, 
                        on H.R. 6156 and S. 3069
    The BlueRibbon Coalition (BlueRibbon) is an Idaho non-profit 
corporation with over 10,000 individual, business and organizational 
members representing approximately 600,000 individuals nationwide. 
BlueRibbon members use motorized and non-motorized means, including 
Off-Highway Vehicles (OHV), snowmobiles, horses, mountain bikes and 
hiking, to access and enjoy recreating upon state and federally managed 
lands throughout the United States, including lands throughout the 
National Forest System and Bureau of Land Management (BLM) lands. Our 
members will be directly affected by the provisions contained in the 
Eastern Sierra and Northern San Gabriel Wild Heritage Act (HR 6156 and 
S. 3069).
    BlueRibbon has served as a leading advocate for reasonable 
management of recreation in our National Forests and other public 
lands. This role has included partnering with academia, conservation 
groups, and the agencies in cutting edge research and supporting 
education projects to address excessively loud OHV exhaust noise. In 
addition, we promote a strong trail ethic and work with groups such as 
Tread Lightly! and the National Off-Highway Vehicle Conservation 
Council to champion responsible OHV use. We also have an active 
litigation presence, most often in support of the Forest Service and 
other Federal land managers.
    BlueRibbon is a grassroots, user-supported non-profit organization 
that has achieved a surprising prominence in notable lawsuits and 
numerous other National Forest and BLM specific recreation initiatives 
throughout the country.
    We would like to first point out that there is no impending threat 
which warrants legislative action. No vast commercial clear-cut logging 
operations or mining ventures are contemplated for these lands. The 
U.S. Forest Service is currently managing the lands in such a manner 
that protects the wildlife, watershed and other natural resources, 
while allowing an appropriate and sustainable mix of human recreational 
activities.
    The prominent human use of these lands is for recreation. The areas 
proposed for Wilderness contain numerous roads and trails used by 
Americans who choose or are required to use motorized vehicles to view 
and enjoy these lands. Many popular snowmobile areas also exist within 
the proposed Wilderness boundaries. In addition to motorized uses, 
mountain bike enthusiasts also utilize roads and trails within the 
proposed Wilderness boundaries. All of these mechanized forms of 
transport are prohibited in designated Wilderness.
    If Congress wishes to bring greater emphasis to conserving and 
protecting these natural resources, we believe an alternative other 
than Wilderness should at least be discussed. As you know, there are 
numerous changes or alternative proposals currently being considered 
that would accommodate the existing recreational uses. This fact 
indicates that Wilderness designation may not be the best option. It is 
BlueRibbon's contention that the best method to protect the undeveloped 
character of this remarkable area is with an alternative Congressional 
designation, such as the ``Backcountry Recreation Alternative'' 
proposed by our organization (info at http://www.sharetrails.org/
backcountry), a National Recreation Area (NRA) or a National 
Conservation Area (NCA).
    In the event that Congress will further consider the bill as 
written, we suggest the following changes be made:
              ``buffer zone'' language should be included
    The Wilderness boundaries come very close to developed areas and 
even areas with an urban character yet the legislation does not include 
``buffer zone'' language. It seems entirely appropriate that the bill 
include similar language to that included in the 1994 Desert Protection 
Act:

          The Congress does not intend for the designation of 
        wilderness areas of this Act to lead to the creation of 
        protective perimeters or buffer zones around any such 
        wilderness area. The fact that nonwilderness activities or uses 
        can be seen or heard from areas within a wilderness shall not, 
        of itself, preclude such activities or uses up to the boundary 
        of the wilderness area.

     ``cherry-stem'' language should be included in the final bill
    The initial draft of the legislation does not include adequate 
language to ensure continued motorized uses of the designated ``cherry-
stemmed'' routes within the Wilderness boundaries. History has proved 
that simply cherry-stemming a route into a Wilderness area does not 
ensure that preservationist groups and Wilderness activists will not 
successfully close them through other means such as litigation.
                           proposed language
          Continued motorized and mechanized access along these routes 
        shall be deemed a valid use of the affected lands. The 
        Secretary shall exercise applicable authority to maintain and 
        make these routes reasonably available to continuing public 
        access, and any administrative decisions regulating access 
        along these routes shall not have the effect of prohibiting or 
        unduly restricting travel by any presently authorized vehicle 
        type.
      wilderness boundaries along designated routes (cherry-stems)
    The Wilderness boundaries are shown in many cases adjacent to 
routes proposed for designation by the Inyo National Forest Travel 
Plan. There should be language in the bill to ensure an adequate 
Wilderness boundary setback of at least 150 feet on each side of 
existing Inyo National Forest Travel Plan designated routes to ensure 
ample room for repair and maintenance in the event of a major washout 
of a designated route.
            ``willing seller'' provisions should be included
    The bill does not include provisions requiring that private 
property must be acquired from a willing seller. Most Wilderness bills 
include a requirement that the seller must be willing.
                         the furnace creek road
    OHV groups, as well as all other stakeholders, participated in a 
series of ``compromise and consensus'' meetings regarding the 
management of the Inyo National Forest in the latter part of the 
1980's. The ``Wilderness Issues Workgroup'' consisted of stakeholders 
ranging from cattlemen to OHV users to Wilderness activists. The result 
was a management plan that had full ``consensus'' with all the 
stakeholders. OHV users agreed to road and trail closures because the 
final agreement was a ``workable compromise.'' What made the compromise 
workable is that all of the stakeholders, including the Wilderness 
activists, agreed that important recreational roads, such as the 
Furnace Creek Road, were to remain open.
    Fast forward a couple of decades, and we have radical anti-
recreation groups suing to have the Furnace Creek Road closed, and the 
key compromises made years ago are being formally tossed in the trash 
bin. This is a major flaw in this legislation that must be addressed. 
The Furnace Creek Road extending through Tres Plumas Meadow should be 
cherry-stemmed out of the Wilderness.
  specific modifications to wilderness additions contained in the bill
    (Map names below correspond to those available for view at http://
www.Congress.org/congressorg/webreturn/?url=http://mckeon.house.gov URL 
as of July 15, 2008)
White Mountains Wilderness Map
    The road toward Granite Meadow from Eva Belle mine road, Forest 
Service road number UN2666, was discussed in the Collaborative Access 
Team meetings and agreement was reached to keep it open, but it has 
been omitted in H.R. 6156. This road should be cherry-stemmed out of 
the Wilderness
    The existing road between Iron Creek and Wildhorse Creek was 
eliminated on the White Mountains Wilderness Map. This road is used 
during deer season to allow dispersed hunting. This is the only access 
to the mouth of the canyon on Wildhorse Creek. This road was not 
discussed during the Collaborative Access Team meetings because it is 
administered by the Bureau of Land Management, but it should be cherry-
stemmed to allow motorized access.
    The road extending east from Highway 266 to Indian Garden Creek 
should be extended on the north fork to at least through section 14 to 
the eastern boundary of Section 15 and the south fork of the road 
should extend to the old ruins in Section 23. The south fork of the 
road to the Buck Mine should be cherry-stemmed out of the Wilderness 
area through Sections 30 and 36 for access to hunting and rockhounding. 
This road was not discussed during the Collaborative Access Team 
meetings because it is entirely administered by the Bureau of Land 
Management.
Ancient Bristlecone Forest Map
    Section 33 at the northern end of Mollie Gibson Mine Road should be 
excluded from within the boundaries of the Ancient Bristlecone Forest. 
This section has a large number of roads, old mines, and other non-
natural features. This area is important for hunting and sightseeing, 
and is used by many local and southern California jeep clubs for 
backcountry touring. This area also has many opportunities for gem and 
mineral collecting. This area was reviewed by the Collaborative Access 
Team, who concluded that all the routes in Section 33 are acceptable 
for inclusion in the Inyo National Forest Travel Management System.
    Section 22 as indicated on the attached map includes a small 
section of an important motorized trail that was accepted for inclusion 
on the Inyo National Forest Travel Management Plan by the Collaborative 
Access Team. There has been some discussion as to whether motorized 
backcountry trails will be permitted within the boundaries of the 
Ancient Bristlecone Forest. If this is the case, the Ancient 
Bristlecone Forest Boundary should be modified to ensure the continued 
use of the designated road in Section 22. See attachment 4.
Very small detached Wilderness Designations
    The Wilderness boundaries currently indicated on the White 
Mountains Wilderness Map associated with H.R. 6156 include a number of 
very small detached Wilderness areas that should be eliminated. They 
really serve no useful purpose and contain very few Wilderness 
qualities, if any. The following areas should be considered for 
elimination from the proposed Wilderness boundaries in the White 
Mountains:

  <bullet> Near Piute Mine in Section 14, northeast of Chalfant Valley
  <bullet> Near Queen Dicks in Section 23
  <bullet> Along the Inyo/Mono County line north of Gunter Canyon
  <bullet> East of very short cherry-stem on the road along Cottonwood 
        Creek in Sections 32 and 33.

    The tiny portion of detached Wilderness area in Mono County east, 
where Cottonwood Creek Road crosses the Inyo County line, should be 
eliminated. It is very small, there are no significant Wilderness 
values within this area, and it would be hard to administer. 
Elimination of this small detached Wilderness would prevent the road 
along Cottonwood Creek from having to go through a very short cherry-
stem.
    The portions of the White Mountains Wilderness Study Area 
designated by SEC. 109 of the California Desert Protection Act of 1994 
that are not designated by H.R. 6156 should be released from further 
Wilderness review.
    Popular snowmobile areas should be removed from the proposed 
Wilderness:

  <bullet> Laurel Canyon
  <bullet> McGee Mtn.
  <bullet> Rickey Peak
  <bullet> Crater Crest
  <bullet> Eagle Peak
                                 ______
                                 
    Statement of Steven A. Brink, Vice President, Public Resources, 
            California Forestry Association, Sacramento, CA
    The California Forestry Association offers the following comments 
regarding the Boxer/McKeon proposed wilderness additions to California. 
The California Forestry Association (CFA) is a trade association whose 
members consist of forest products producers, forest landowners and 
natural resource professionals committed to environmentally sound 
policies, responsible forestry, and sustainable use of natural 
resources. Our members process over 90 percent of the wood products 
manufactured in the state of California.
    Though CFA is a trade association concerned about wood supply, we 
are also very concerned about the sustainability of all of California's 
natural resources. Essentially every one of the proposed wilderness 
additions (totaling 430,671 acres) will reduce or eliminate the ability 
of land management agencies to protect property and public safety when 
wildfires hit. All of these proposed wilderness areas are in fire-
adapted ecosystems. We all lose without the ability to manage 
vegetation and have access to suppress wildfires as needed to protect 
life, property and watershed values and function. No ability to manage 
natural resources is what additional wilderness would mean for 
California.
    Many of these proposed wilderness additions are: 1) adjacent to 
existing roads, 2) near communities, 3) in the proximity of private 
land and associated improvements, 4) support vegetation crucial to 
watershed function and production of clean water, and, thus are 
barriers to good land management rather than attributes.
    California has just burned over 880,000 acres since June 21. 
California had unhealthy air (2-10 times the Federal air standards 
several days) due to these unnecessarily large wildfires. Large 
portions of watersheds are now denuded and exposed to dramatic 
increases in sediment rates for the coming winters. Most, if not all, 
of the burned National Forest lands will type convert to brush fields 
due to the Forest Service's inability to salvage, rehabilitate and 
restore burned landscapes. Suppression costs are in the hundreds of 
millions of dollars. Without management of the overly dense vegetative 
conditions, these massive wildfires will continue to burn up more and 
more of California at faster rates into the future.
    Adding more wilderness additions is not the answer for California. 
Having access to and the opportunity for our land management agencies 
to address forest health so that we can have stands resistant to 
insects, disease, and wildfire is the answer.
    Please squelch any new wilderness additions for California.
                                 ______
                                 
Statement of John Sterling, Executive Director of the Outdoor Industry 
      Conservation Alliance, and resident of Bend, OR, on S. 3088
    Chairman Wyden and Members of the Subcommittee, thank you for this 
opportunity to offer testimony in support of S. 3088, the Oregon 
Badlands Wilderness Act of 2008. I am Executive Director of the Outdoor 
Industry Conservation Alliance, and a native Oregonian. I have lived 
full-time in Bend since 2002.
    The Conservation Alliance is a group of roughly 160 outdoor 
companies that work together to support conservation projects 
throughout North America. Our members are scattered throughout the US 
and Canada, but our offices are based in Bend, OR. Our goal is to help 
secure protection for wild lands and rivers for their habitat and 
recreational values. Our member companies make the outdoor clothing, 
footwear, backpacks, tents, and other gear that people use to fully 
enjoy the outdoors. We recognize that protected public lands play an 
important role in the economic health of the outdoor industry. Our 
member companies' customers need these lands and waters to participate 
in the outdoor activities--hiking, backpacking, climbing, paddling, 
birding, and skiing--that are so important to them.
    The Conservation Alliance strongly supports Wilderness designation 
for The Badlands because such protection represents an investment in 
the future of outdoor recreation in Central Oregon. Central Oregon is 
widely known for its spectacular outdoor recreation opportunities. We 
are fortunate to have the Three Sisters Wilderness, a world-class 
mountain landscape, in our backyard. We also benefit from the Wild and 
Scenic Deschutes River that flows just south of downtown Bend. And we 
have the Newberry Crater National Monument, recognized for its 
remarkable volcanic features. Each of these protected public lands and 
waters contributes to the high quality of life that has made Bend such 
a successful and prosperous community. These places also contribute to 
a wide range of outdoor recreation opportunities in the area.
    Protecting The Badlands as Wilderness would add a unique landscape 
to the collection of special wild places in Central Oregon. The 
Badlands offers a special experience to people who enjoy exploring 
ancient junipers, Native American rock art, and striking geologic 
formations. A mere 15 miles east of Bend, The Badlands offers 
recreational opportunities year-round, particularly for people who 
prefer not to recreate in deep snow and Winter conditions.
    As our economy shifts away from traditional industries--mining, 
wood products, farming and ranching--Oregon's economic growth is coming 
from the diverse sectors of finance, high-tech, real estate, business 
services, and outdoor recreation. A recent study by the Sonoran 
Institute (Prosperity in the 21st Century West, July 2004) concludes 
that:

          Wilderness, National Parks, National Monuments, and other 
        protected public lands, set aside for their wild 
        characteristics, can and do play an important role in 
        stimulating economic growth--and the more protected, the 
        better.

    My home town of Bend is a perfect example of how protected public 
lands support economic growth in the West. Bend is among the fastest 
growing towns in the country. Though that growth poses challenges for 
the community, it is irrefutable that Bend's economy is vibrant and 
strong. People move to Bend for a variety of reasons that all revolve 
around quality of life. Bend is surrounded by BLM and Forest Service 
lands that provide open space and recreation opportunities, and serve 
as a de facto urban growth boundary.
    People flock to Bend to take advantage of the outdoor opportunities 
provided by these public lands. These lands play a key role in 
attracting tourists and new residents alike. Prosperity in the 21st 
Century West found that, from 1970 to 2000, the closer a county was to 
protected lands, the faster that county's economy grew. Central to this 
study's findings is that the economy of the rural West has changed. 
Communities once dependent on logging, mining, and ranching have built 
new prosperity on high-end service industries like finance, 
engineering, real estate and business services. The reason for this 
shift is that people are increasingly moving to rural Western towns for 
their unique landscapes and quality of life. Many of these new arrivals 
are retirees with investment income. They buy or build new homes, eat 
out, and appreciate the public lands in their new communities.
    The study concludes that rural communities benefit substantially 
from protected public lands--Wilderness, National Parks, National 
Monuments--particularly when coupled with improvements in schools, 
transportation infrastructure, and the arts.
    This perspective is compelling when placed in the context of the 
proposal to designate The Badlands as Wilderness. If we accept that 
protected public lands are an important economic asset, then S. 3088 is 
an investment in Central Oregon's economic future. By protecting 30,000 
acres of wilderness in Oregon's high desert, this legislation responds 
to the demand from an overwhelming majority of Oregonians to ensure 
that future generations can enjoy Oregon's natural heritage the same 
way we have. It would also help safeguard Oregon's quality of life, and 
give Oregon's economy a competitive edge over states that lack our 
bounty of spectacular public lands.
    Thank you for considering my comments. We look forward to working 
with you to ensure that The Badlands Wilderness is designated this 
year.
                                 ______
                                 
                                           Trout Unlimited,
                                      Arlington, VA, July 11, 2008.
Hon. Jon Tester,
204 Russell Senate Office Building, U.S. Senate, Washington, DC.
Re: TU Comments on S. 3085, the Cooperative Watershed Management Act of 
2008

    Dear Senator Tester: Trout Unlimited applauds your leadership in 
offering a promising solution to resolving the growing water conflicts 
across the country. The Cooperative Watershed Management Act encourages 
local, engaged stewardship of watersheds through Department of the 
Interior grant support, a process that works, in Trout Unlimited's 
nearly 50 years of experience with hands-on watershed restoration when 
we have a seat at the table. Stakeholder knowledge is the best resource 
in formulating strategies for making the most of limited water 
supplies, and a collaborative approach to restoring watershed health 
built on local knowledge can provide some of the most enduring 
conservation benefits.
    Trout Unlimited (TU) is the nation's largest coldwater fisheries 
conservation organization with 150,000 members nationwide. TU's mission 
is to ``conserve, protect and restore North America's coldwater 
fisheries and their watersheds.'' Since TU was founded in 1959, on-the-
ground restoration of streams, watersheds, and fisheries has been our 
hallmark. Throughout the country, our staff has worked with our 
volunteers in their local chapters to implement restoration projects 
within their home watersheds.
    We believe this Act is intended to address ongoing and widespread 
water quality issues that aren't adequately addressed by the provisions 
in the Clean Water Act--like non-point source pollution, agricultural 
run-off, sedimentation, and alterations of a natural flow regime. In 
rural states like Montana, these sources of impairment account for 
nearly 90 percent of all water quality-related problems, yet the Clean 
Water Act has very limited authority and little effectiveness in 
addressing these problems. This Act fills a void created by the 
limitations of Federal and state water quality laws, and provides an 
avenue for effectively addressing problems that have eluded a 
regulatory approach.
    We recognize that it takes stakeholder involvement to successfully 
create and implement plans for using and preserving water resources. TU 
has been successful in investing in collaborative, local watershed 
projects. For example, our quarter-century involvement in a community-
based, watershed restoration effort in the Blackfoot River basin in 
Montana has been acclaimed nationally as a model of successful aquatic 
restoration and community building. Through collaborative partnerships 
with local ranchers, our local ``Big Blackfoot'' TU chapter and TU 
staff, the ``Blackfoot Challenge'' watershed group, and state and 
Federal agency staff, the success of this project has drawn landowners 
closer together as they manage their water and lands at the landscape-
scale. In the Blackfoot, over 400 individual restoration projects, 
involving more than 200 landowners and leveraging over $7 million for 
watershed restoration, has resulted in more clean, clear, cold water 
supporting more fish and wildlife along side satisfied landowners.
    In the Blackfoot, the United States Fish and Wildlife Service 
(FWS), has been an important agency partner in the success of this 
community restoration effort. Not only due to the long-term dedication 
of agency field staff to the on-the-ground restoration projects through 
FWS' Partners in Wildlife Program, but also because the agency has 
expertise in planning, monitoring, and participating in species' 
recovery and habitat restoration efforts. The FWS' effective 
partnership with TU in the Blackfoot and in other watershed efforts 
around the country, make FWS the logical agency to implement the 
Cooperative Watershed Management Act.
    Increasingly, our work at the watershed and landscape scale holds 
the promise of achieving sustainable, lasting improvements to both fish 
habitat and community dialog. The Cooperative Watershed Management Act 
offers a sensible approach to addressing our water challenges--it is 
based on a model that has been tested by on-the-ground efforts, and has 
paid dividends where regulatory approaches have failed at a high cost. 
For all of these reasons, we thank you for your leadership on this 
important issue and look forward to working to ensure the bill's 
passage.
            Sincerely,
                                               Steve Moyer,
                                        V.P. of Government Affairs.
                                 ______
                                 
              International Mountain Bicycling Association,
                                   Boulder, CO, September 11, 2008.
Hon. Jeff Bingaman,
Chairman, Committee on Energy & Natural Resources, U.S. Senate, 
        Washington, DC.
Hon. Pete Domenici,
Ranking Member, Committee on Energy & Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman and Ranking Member: On behalf of the 
International Mountain Bicycling Association (IMBA) and the millions of 
mountain bicyclists in California, I wish to again comment on the 
Eastern Sierra and Northern San Gabriel Wild Heritage Act, S. 3069 (and 
H.R. 6156) that seek to establish new Wilderness areas in California's 
eastern Sierra.
    The International Mountain Bicycling Association (IMBA) is a non-
profit educational association, whose mission is to create, enhance and 
preserve great trail experiences for mountain bikers worldwide. Since 
1988, IMBA has been bringing out the best in mountain biking by 
encouraging low-impact riding, volunteer trailwork participation, 
cooperation among different trail user groups, grassroots advocacy and 
innovative trail management solutions. IMBA's worldwide network 
includes 35,000 individual members, more than 700 bicycle clubs, more 
than 150 corporate partners and about 400 bicycle retailers. IMBA's 
members live in all 50 U.S. states, most Canadian provinces and about 
30 other countries.
    Mountain bikers are passionate about the outdoors. We believe in 
managing public lands as a public trust and as priceless national 
treasures. We share the concern with other trail users that the 
pressures of growth and industry threaten the qualities that make our 
favorite rides special. We want to see the forests and mountains where 
we ride protected in their natural state, with clean air and clean 
water.
    IMBA applauds the movement to preserve wild areas in California's 
and specifically the eastern Sierra. At a time when the state's 
population is approaching 37 million people, it is vitally important to 
preserve pristine backcountry for quality outdoor recreation. We are in 
general agreement with much of the proposed Wilderness areas in H.R. 
6156 and S. 3069, however there are some adjustments that we would like 
to see that would allow for current and future recreation opportunities 
for the mountain biking public.
    Wilderness rules exclude human powered bicycle travel, therefore, 
where possible, we request allowances for this type of low-impact 
activity. Our areas of interest in the proposed Wilderness legislation 
are the White Mountains, the Owens River Headwaters and the proposed 
Pleasant View Wilderness.
    In the case of the White Mountains, the recent boundary adjustment 
(from the original map dated May 16, 2008) that makes the Mono-Inyo 
county line the southern most border will eliminate existing riding 
opportunities for mountain bikers. We request that the oval section 
that includes Sage Hen Flat, Bucks Peak and Red Peak be excluded from 
the proposed Wilderness boundary and to re-establish the southern 
boundary line as portrayed in the map dated May 16, 2008.
    The Owens Headwaters proposed Wilderness area has strong potential 
for future mountain biking opportunity, and therefore we request that 
the area be withdrawn from Wilderness consideration. This area needs to 
be preserved in its pristine state from motorized intrusion under a 
land management category that allows trail recreation, but does not 
exclude human powered bicycle travel. The proposed parcel is adjacent 
to the popular Mammoth Lakes resort community that draws millions of 
visitors annually from the Los Angeles' basin. Current mountain biking 
opportunity is mostly limited to the Mammoth Mountain Ski Resort, where 
visitors are required to pay to mountain bike the private trails. 
Visitors to the area routinely request a backcountry biking experience 
away from the crowded ski slope. Bicycle enthusiasts and other local 
trail advocates view the Owens parcel as the optimal location to build 
sustainable, non-motorized trails to meet the growing demand for epic 
backcountry experiences.
    The proposed boundaries for the Pleasant View Wilderness will 
eliminate current mountain biking trails. Therefore, we request that 
corridors for these trails be allowed within the proposed Wilderness to 
preserve existing mountain biking opportunities. Mountain cyclists 
currently ride the trail from Devils Punchbowl to Buckhorn, as well as 
the trail that runs from South Fork Campground to the highway near 
Little Jimmy. These trails provide what mountain bicyclists call 
``epic'' rides because of the remoteness, natural beauty, length of 
ride, the opportunity for loop trail experience and the uniqueness of 
riding from a desert like environment to beautiful mountain top vistas. 
These trails, though remote, are in close proximity to the large 
population center of the Los Angeles basin, and the communities of 
Pasadena, Burbank, Mission Hills and San Fernando, that have a large 
community of mountain bicyclists.
    We welcome the opportunity to join with others to protect the 
eastern Sierra, to ensure current and future generations can enjoy 
high-quality outdoor experiences away from development, noise and 
pollution. We look forward to continued discussion of how best to meet 
the needs of mountain bikers and other trail users for this very 
special region of California.
    Thank you for your consideration.
            Sincerely,
                                                  Tom Ward,
                                        California Policy Director.
                                 ______
                                 
     Statement of Jon Bowerman, resident of Clarno, OR, on S. 3089
    Chairman Wyden and Members of the Subcommittee, thank you for the 
opportunity to submit testimony regarding S. 3089. My name is Jon 
Bowerman, and I am a lifetime resident of Oregon. I am writing to offer 
my strong support of the Oregon Spring Basin Wilderness Act of 2008 (S. 
3089). I have been a Wheeler County resident for over 35 years and live 
and ranch immediately adjacent to the proposed Spring Basin Wilderness.
    Spring Basin is located in Wheeler County, and in connection with 
the Oregon Museum of Science and Industry's Hancock Field Station and 
John Day Fossil Beds National Monument, provide a key attraction in the 
County. It is a wonderful place for both local residents and visitors 
to explore our public lands.
    The Spring Basin Wilderness Act would protect a special Palouse 
prairie landscape, which by some estimates currently exists in only 1 
percent of its historic range. Blooming wildflowers and cacti 
seasonally thrive in the protected basin, which is surrounded by 
ancient basalt rock formations. Year-long access to horseback riding, 
hiking, birding, and camping would showcase the wild beauty of this 
region.
    There are five landowners adjacent to the proposed Spring Basin 
Wilderness, including the Confederated Tribes of Warm Springs Indian 
Reservation who own and manage the Pine Creek Conservation Area. Each 
of the landowners support the wilderness proposal and the associated 
land exchanges that have been developed in conjunction with the BLM. By 
consolidating land ownership, these proposed land exchanges will 
improve public and private land management and secure public access to 
Spring Basin and the John Day Wild and Scenic River.
    Thank you Senator Wyden for introducing this important legislation 
and I encourage the Public Lands and Forests Subcommittee and the 
entire U.S. Senate to enact legislation as soon as possible to protect 
this natural treasure. Our community and the American public will 
benefit from this legislation for generations to come.
    Again, thank you for the opportunity to provide testimony, and I 
welcome any questions that you may have.
                                 ______
                                 
      Statement of Kirk B. Richardson, Chief of Corporate Social 
  Responsibility for KEEN Footwear, Board Member of the Conservation 
 Alliance of the Outdoor Industry, and resident of Portland, OR, on S. 
                                  3088
    Chairman Wyden and Members of the Subcommittee, thank you for 
taking the time to consider my testimony in support of the Oregon 
Badlands Wilderness Act of 2008. I am a native Oregonian, 55 years old, 
who has lived, worked and recreated in this great state for most of my 
life. I have worked as an executive in the athletic footwear industry 
(NIKE 27 years and KEEN Footwear, 2.5 years) for nearly 30 years.
    I am writing to express my support for wilderness designation for 
the Badlands in central Oregon. As a key stakeholder in the outdoor 
industry, KEEN is committed to protecting our country's last remaining 
wild and scenic places--especially in our own backyard of the high 
desert of Oregon. Outdoor recreation has always been a trademark of 
``Brand Oregon'' and our unique way of life. Saving the Badlands will 
preserve that way of life for generations to come and in the process 
create economic opportunities for the Central Oregon region in the form 
of eco-tourism, recreation, and outdoor education. The Badlands can and 
should be a pillar both for the quality of life in Oregon, but also 
protecting backyard access to the traditional outdoor recreation that 
Central Oregonians have enjoyed for decades.
    We often talk about Sustainability consisting of three main 
pillars: People--Planet--Profits. This Wilderness Act for the Badlands 
represents a balanced piece of legislation which supports all 3 
pillars:

  <bullet> People--Outdoor Recreation is vital to the health and well-
        being of Oregonians. Three-fourths of us participate annually 
        in Outdoor Recreation in Oregon, according to the Outdoor 
        Industry survey of 2006. We all know how fast Central Oregon is 
        growing, and access to Outdoor Recreation is a principal draw 
        to the region.
  <bullet> Planet--with 1000 year-old Juniper trees, Native American 
        pictographs, vital wildlife habitat and 30,000 acres of outdoor 
        recreational space, the preservation of the Badlands Wilderness 
        protects forever this incredible parcel of Federal land from 
        potentially destructive land-use choices owing to the speed of 
        development in Central Oregon this decade.
  <bullet> Profit--Outdoor Recreation is a $730 billion annual stream 
        of revenue in the US Economy which contributes $88 billion in 
        both Federal and state national tax revenues. In Oregon alone 
        this tax revue equates to $585 million per year as of 2006. 
        Salaries and Wages for Oregonians employed in this industry 
        surpassed $2.1 billion in 2006--and it is growing. Wild and 
        scenic outdoor destinations are critical to both companies like 
        KEEN and the Federal tax revenue picture.

    Oregon has a unique opportunity to preserve a very special place 
for future generations if we act now. As the population grows and 
pressures expand on public lands, now is the time to act and protect, 
preserve the Badlands for our future. I hope you will take these 
comments to heart when you make plans for S. 3088, the Oregon Badlands 
Wilderness Act of 2008. Thank you very much.
                                 ______
                                 
 Statement of Gary L. Fowles, central Oregon resident and real estate 
           broker at The Hasson Company Realtors, on S. 3088
    Senator Wyden and members of the Subcommittee,
    I have been a real estate professional in central Oregon for 29 
years. My career has allowed me to identify the features that make my 
area an attractive place for population in-migration and growth. 
Central Oregon is isolated from the larger population centers in Oregon 
and does not enjoy the geographic location normally associated with 
rapidly growing areas. Nevertheless, the tri-county area of Crook, 
Jefferson, and Deschutes counties has enjoyed the benefits of explosive 
growth, as more people choose to relocate here to enjoy all that 
central Oregon has to offer.
    It is clear to me that this growth is a direct result of the 
quality of life that can be experienced here. I am convinced that 
protecting the amenities that make central Oregon so special is 
imperative if we are to continue our growth. The proposed Badlands 
wilderness area adds an important element to the mix of amenities that 
attract people to our area.
    ``The Potential Economic Impacts of Badlands Wilderness in Central 
Oregon'' a study prepared by Bozeman, MT based Headwaters Economics 
confirmed what I know intuitively, that wilderness designation for the 
Badlands would bolster our economy and bring quality businesses and 
employees to the tri-county area. Today's growth in central Oregon is 
an example of a new economic model which is based upon ``migration 
first, then jobs''.
    Local governments, our state's Governor, various civic and business 
groups and 69 percent of central Oregon's citizens believe that the 
Badlands deserve wilderness designation. I thank Senator Wyden for 
recognizing the will of the people of central Oregon by introducing 
this legislation and ask the Subcommittee and the entire Senate to 
enact this legislation.
                                 ______
                                 
                                       Wilderness Workshop,
                                     Carbondale, CO, July 18, 2008.
Hon. Ron Wyden,
Chairman, Subcommittee on Public Lands and Forests, U.S. Senate, 
        Washington, DC.
    Dear Senator Wyden: We strongly endorse S. 3065, the Dominguez-
Escalante National Conservation Area (NCA) and the Dominguez Canyon 
Wilderness legislation, introduced by Sen. Ken Salazar (D-CO). We urge 
swift Committee action on this bill.
    S. 3065 will protect unique and beautiful lands that are important 
to citizens of Western Colorado. The proposed Dominguez-Escalante NCA 
includes a large diversity of geography, scenery, habitat, and 
recreation opportunities. The Dominguez-Escalante NCA surrounds the 
proposed Dominguez Canyon Wilderness. A wilderness designation will 
afford permanent protection for the Dominguez Canyon, which was 
recommended by the BLM for designation in 1991.
    S. 3065 is a well-crafted bill, which takes fully into account 
concerns and uses unique to the communities surrounding the proposed 
designation. In addition, the bill includes an innovative Federal-state 
water rights partnership allowing for natural flow of water through the 
wilderness, while ensuring complete protection for existing water 
rights and uses in and near the wilderness.
    Finally, the bill is well supported by environmental and 
conservation organizations statewide, the county commissioners from 
Delta, Mesa and Montrose Counties, the Colorado River Water 
Conservation Board, The State of Colorado, The International Mountain 
Bicycling Association, local and regional newspapers, and over 100 
local businesses.
    We are grateful for Senator Salazar's leadership on behalf of 
Dominguez Canyon and request your and the Subcommittee's full support 
for S. 3065.
            Sincerely,
                                           Sloan Shoemaker,
                                                Executive Director.
                                 ______
                                 
                                    Colorado Mountain Club,
                                    The Wilderness Society,
                                         Denver, CO, July 16, 2008.
Re: S. 3065

    Thank you, Mr. Chairman, and members of the committee, for this 
opportunity to express our strong support for the proposed Dominguez-
Escalante National Conservation Area (NCA) and Dominguez Canyon 
Wilderness, and for S. 3065, legislation to establish those important 
protective designations.
    We urge the committee to promptly recommend the legislation to the 
full Congress for passage into law this year.
                natural, wilderness, and cultural values
    The proposed Dominguez-Escalante NCA includes a large diversity of 
geography, scenery, habitat, and recreation opportunities, among them:

  <bullet> Cactus Park, found in the northern uplands portion of the 
        area, has become increasingly popular for motorized recreation. 
        Existing trails there and in the adjoining national forest will 
        be supplemented with select additions to handle the use without 
        damaging the landscape;
  <bullet> Cactus Park and other connecting portions also support 
        challenging and popular bicycling recreation;
  <bullet> Tributaries in the Dominguez-Escalante NCA and Dominguez 
        Canyon Wilderness flow into the Gunnison River, the major 
        waterway in the immediate region. The river is very popular for 
        boating and other forms of recreation. Improved management will 
        provide facilities for increasing use in order to protect the 
        scenic and fragile river corridor. Existing water rights in the 
        river will not be harmed by either the NCA or wilderness 
        designation;
  <bullet> The Gunnison Slopes tower over the west side of the Gunnison 
        River and afford long scenic views of the landscape;
  <bullet> Gunnison Bluffs on the east side of the river offers 
        extensive and popular recreational day-use;
  <bullet> The Old Spanish National Historic Trail (designated by 
        Congress in 2002), which passes through the proposed NCA along 
        the uplands east of the Gunnison River, will be supplemented 
        with interpretive facilities to improve visitor experiences;
  <bullet> The Escalante Canyon Area of Critical Environmental Concern, 
        a 1,900-acres reserve protecting sensitive plants, natural 
        seeps, hanging gardens and several globally unique plant 
        associations along Escalante Creek, the perennial stream that 
        transverses the southern portion of the proposed NCA;
  <bullet> The wide ranging elevations support a broad array of 
        ecosystems, including Desert Sonoran desert along the river, 
        pinyon juniper uplands, and Douglas fir-aspen forests on the 
        plateau above;
  <bullet> Dominguez & Escalante historic and cultural sites, which 
        will see increased protection, stabilization, and interpretive 
        information for visitors as part of the proposed NCA;
  <bullet> Dry Mesa, a sweeping upland cut by multiple canyons, 
        providing extensive, hiking, bicycling, motor-based day-use, 
        and successful hunting areas;
  <bullet> Livestock grazing will continue throughout the area, 
        especially in successful allotments on the uplands in the 
        western and southern portions of the NCA.
  <bullet> The proposed Dominguez Canyon Wilderness lies in the center 
        of the NCA.

    The Dominguez Canyon Wilderness designation will afford deserved 
and permanent protection for the diverse and unique values of the 
wilderness study area established in 1980 and recommended by the BLM 
for designation in 1991. Outstanding features of the area include:

  <bullet> Extensive artifacts, rock art, and dwelling sites--some 
        pieces 2,000 years old--from ancient civilizations that lived 
        and passed through here beginning perhaps 6,000 years ago;
  <bullet> Large and healthy desert big horn sheep herd well adapted to 
        the steep canyon walls and sparse water sources in the 
        wilderness;
  <bullet> Other wildlife, including eagles, native cutthroat trout, 
        bobcats, and songbirds.
  <bullet> Striking wildflowers that seasonally accent the scene;
  <bullet> Stark and scenic contrasts between sheer, dry, red canyon 
        walls and lush riparian areas along perennial Big and Little 
        Dominguez Creeks, which sport several striking waterfalls and 
        pools;
  <bullet> Broad delta canyon floors as the creeks approach confluence 
        with the Gunnison River, punctuated by cottonwood galleries and 
        native desert shrubs;
  <bullet> Cooler uplands of pinyon, juniper, and aspen that are part 
        of the headwaters for the creeks and that help diversify 
        seasonal habitation and safety zones for wildlife. The higher 
        lands afford scenic long views of the canyons below and 
        dominant Uncompahgre Plateau to the west;
  <bullet> Winding canyon bottoms provide over 30 miles of exploration 
        opportunities;
  <bullet> Outstanding opportunities for recreation, solitude, wildlife 
        protection, hunting, fishing, archaeological preservation, 
        fossil discoveries; and
  <bullet> Continued grazing in three primary allotments.
                     negotiations and collaboration
    The crafting of this bill includes elements both standard and 
unique to the area that were carefully and extensively negotiated with 
a diverse amount of groups. The negotiations include:

  <bullet> Full and normal wilderness protections under the term of The 
        Wilderness Act of 1964;
  <bullet> Affirmation of certain special provisions from that Act, 
        assuring continued grazing, emergency access, and state 
        wildlife management authority;
  <bullet> A unique form of protection for natural flow of water 
        through the wilderness, while ensuring complete protection for 
        existing water rights and uses in and near the wilderness 
        through a Federal-state water rights partnership. This language 
        was crafted in detailed negotiation among The Wilderness 
        Society (in behalf of the Colorado Wilderness Network), 
        advisors to that network (including former Department of the 
        Interior Solicitor John Leshy, University of Colorado Law 
        School Dean David Getches, and Colorado water attorney Barney 
        White), the Colorado River Water Conservation District (in 
        behalf of several local water districts and other water rights 
        holders), the State of Colorado (Governor, Department of 
        Natural Resources, Water Conservation Board, and Stream & Lake 
        Protection Program), and county commissioners for three 
        affected counties, in consultation with BLM water rights 
        specialist;
  <bullet> Land exchange authorization for clarifying ownership and 
        establishing enforceable wilderness boundaries;
  <bullet> The revision and refinement of the wilderness and NCA 
        boundaries to eliminate conflicts with private property owners, 
        allow effective management by the BLM, and create a boundary 
        that was clear with for non-wilderness recreation users;
  <bullet> Affirmation of an existing life estate for a long-time 
        resident who transferred his inholding to the BLM several years 
        ago; and
  <bullet> Language on stock ponds that will allow for continued 
        grazing in a manner that helps disperse stock and protect the 
        wilderness area.
                                support
    A wide and varying amount of organizations, government officials, 
and businesses have come out in support of the designation of the 
proposed NCA and wilderness area. The support includes:

  <bullet> Colorado Wilderness Network member organizations;
  <bullet> All three sets of affected county commissioners (Delta, 
        Mesa, Montrose);
  <bullet> Colorado River Water Conservation Board (for the water 
        language);
  <bullet> State of Colorado;
  <bullet> International Mountain Bicycling Association and local 
        bicycle clubs;
  <bullet> Local and regional newspapers;
  <bullet> Over 100 local businesses;
  <bullet> The proposal is accepted, if not heartily endorsed, by local 
        ranchers and grazers, and by other recreation organizations.

    Overall, this legislation will provide protection to unique and 
beautiful lands that are important to citizens of western Colorado. 
Extensive citizen involvement throughout the process has allowed all 
major concerns to be addressed. As a direct result, there is an 
overwhelming amount of support for this bill.
    Thank you again for allowing us to discuss why the bill would 
protect a beautiful and unique area in Colorado. Please act promptly to 
pass this important legislation into law this year.
                                               Steve Smith,
               Assistant Regional Director, The Wilderness Society.
                                              Bryan Martin,
        Assistant Director of Conservation, Colorado Mountain Club.
                                 ______
                                 
    Statement of Kevin Day, Tribal Chairman, Tuolumne Me-Wuk Tribal 
                  Council, Tuolumne, CA, on H.R. 3490
    My name is Kevin Day and I am the Chairman of the Tuolumne Band of 
Me-Wuk Indians of the Tuolumne Rancheria. Thank you for holding this 
hearing on H.R. 3490. We are especially appreciative of your 
willingness to entertain this measure at this time because, as I will 
discuss below, one of the things that this bill does is transfer land 
for a local tribal fire station and we are currently living through a 
very frightening wildfire situation in Northern California.
    I'd like to start by giving you some background; the Tuolumne Band 
of Me-Wuk Indians is a small federally recognized California Tribe with 
an approximate membership of around 400 people. Our modern tribal 
government was organized under the Indian Reorganization Act in January 
1936. As you can see on the California State map (attached as Exhibit 
A)* our small reservation is located in the western foothills of the 
Sierra Nevada, approximately 1 hour north of Yosemite National Park and 
2 hours east of Sacramento. We operate a successful casino under a 
compact with the State of California, a new and very successful health 
clinic that serve both, native and non-native customers, a native plant 
nursery business, and numerous governmental service programs.
---------------------------------------------------------------------------
    * Exhibits A-E have been retained in subcommittee files.
---------------------------------------------------------------------------
    While we are proud of our success, our limited tribal land base, 
and its rocky terrain have presented us with some serious problems. 
Among these, are the fact that: (1) only 150 of our 400 members are 
actually able to reside on our tribal lands and (2) our ability to 
construct things like an adequate tribal fire station are limited at 
best. Virtually all of our existing trust land is currently being used 
for administrative offices or housing, or it is not well suited for new 
construction. In fact, a study of our unused lands has found that their 
rocky and hilly terrain is best suited for the grazing of livestock.
    Lack of available housing for tribal members is one of most serious 
problems. Today, we have approximately 64 on-reservation homes, which 
are fully occupied. Many of these homes are seriously overcrowded, and 
we are constantly finding ourselves addressing health and safety issues 
within them. Many of our off-reservation members wish to return to the 
reservation, but our lack of housing sites makes those moves 
impossible. To make matters worse, many of our children, who were 
raised on the reservation, are being forced to leave when they reach 
adulthood in order to find their first home.
    Our lack of adequate fire protection is also a serious concern. 
Currently, we are only able to house one fire truck and our local 
Federal fire substation was severely cut back due to a lack of Federal 
funding. We have been thinking about this problem every day this month, 
as the Northern California wildfires continue to burn. We were already 
in contact with the Department of Interior and the U.S. Forest Service 
about our proposed solution to this problem before this round of fires 
broke out. If we can obtain this land and develop a new greatly 
expanded fire house, we have agreed to try to work out an arrangement 
with the U.S. Forest Service to house their emergency equipment in that 
expanded facility. Locating this facility on the lands we are seeking 
to acquire could easily make the difference between protecting and 
losing lives and property if a wildlife fire were to break out on any 
of the Federal lands which surround our reservation. I direct your 
attention to the attached letters from the Department of Interior and 
the U.S. Forest Service expressing their desire to work out a fire 
station arrangement with the Tribe if those lands can be acquired.
    H.R. 3490 is a very straightforward piece of legislation. It 
transfers three small parcels of surplus land from the Bureau of Land 
Management (BLM) to the Bureau of Indian Affairs (BIA) to be held in 
trust for the benefit of our Tribe. It also extends the boundaries of 
our reservation to encompass those new BLM lands as well as the other 
lands our Band has acquired in recent years. This reservation boundary 
extension is very important to us because many Federal programs, 
including some Indian housing programs, draw a clear distinction 
between on and off-reservation assistance. While the Secretary of 
Interior has the legal authority to extend the boundaries of most 
existing reservations, he lacks that authority in our case because many 
Federal programs, including some Indian housing programs, draw a clear 
distinction between on and off-reservation assistance. While the 
Secretary of Interior has the legal authority to extend the boundaries 
of most existing reservations, he lacks that authority in our case 
because our reservation, like many in California, was established by 
Executive Order. Thus, we need your help to accomplish this simple 
goal.
    If you will turn now to the map which is attached to my testimony 
and labeled as Exhibit B, I would like to describe the parcels we are 
requesting to transfer. This map has parcels that are color coded in 
yellow, blue and green. The light and dark Yellow parcels are lands 
which are currently held in trust for the Tuolumne Band. The star in 
the light yellow parcel is our tribal headquarters and the star in the 
dark yellow parcel shows you where our tribal casino is located. This 
casino is operated pursuant to an existing compact with the State of 
California and in accordance with an existing Memorandum of 
Understanding with Tuolumne County. The Blue parcels are the BLM lands 
we are seeking to acquire, and the green parcels are lands which the 
Tribe currently owns in fee simple. Those lands are pending tribal 
trust acquisition under the normal fee-to-trust process.
    All of the blue BLM parcels have been listed as ``potentially 
available for disposal'' on recent BLM land reports. The first parcel, 
identified as # 1, is located less than \1/2\ mile from our existing 
tribal trust lands. That parcel contains a historic Tuolumne Me-Wuk 
cemetery. Because of the site's cultural and religious significance, 
the BLM has, for all intended purposes, simply allowed the Tribe's use 
and maintenance of the parcel for many years. This cemetery is still in 
use today. In fact, one of our Tribal Members was buried there less 
than 3 years ago. We have always sought to acquire this parcel in trust 
because of its deep cultural significance to our people, but our 
efforts have become even more desperate since the BLM has listed it as 
``potentially available for disposal.'' Simply put, we cannot lose 
control of the graves of our people and of our ancestors.
    The BLM parcel identified as # 2 is a small site of around 15-16 
acres. As you can see on that map, this site is contiguous to lands 
already held in trust and in fee simple by the Band This is a vacant 
parcel which was originally set aside by BLM, in accordance with the 
Federal Recreation and Public Purpose Act, for the establishment of an 
inter-tribal health facility and a tribal cultural center. Due to 
unforeseen circumstances, the intertribal health facility was never 
developed and the Tribe is no longer apart of the intertribal health 
consortium. We have located our health facility on other tribal fee 
land; however, we have notified BLM that we are still pursuing the use 
of this land for our cultural facility. Our goal is to use this parcel 
for the tribal fire station discussed above, a tribal cultural center 
and perhaps some additional tribal government buildings, none of which 
are related to gaming in any way.
    The third BLM parcel, identified as # 3, is a slightly larger site 
of around 50 acres. Like parcel #2, it is vacant and it is also 
contiguous to our existing tribal lands holdings. This parcel has been 
totally unused by the BLM for many years and our goal is to put it to 
use for tribal housing and tribal infrastructure buildings. Like I 
noted above, we cannot bring our people home to their own tribal lands 
unless we can provide them with a place to live.
    The parcels identified in green are lands which the Tribe owns in 
fee simple. All of these parcels are currently awaiting a final 
transfer into trust. The Tribe submitted a standard 151 fee-to-trust 
application for these parcels and received the Secretary's approval of 
that application on January 12, 2007. Unfortunately, that transfer of 
title has been held up by a frivolous appeal filed by a contiguous 
landowner who is seeking leverage to force the Tribe to buy their 
property at an inflated price. The BIA and the Tribe are both fighting 
that appeal vigorously and we have every reason to believe that the 
Interior Board of Indian Appeals will simply dismiss the case and order 
the land taken into trust as soon as it gets the time to read the case 
files. Anything that you can do to help speed that process along would 
be greatly appreciated.
    With the exception of a small home-site of around 3 acres, which is 
surrounded by BLM Parcel #2, and which we are in friendly negotiations 
to acquire from its current non-Indian owner, every parcel of land 
encompassed within the new reservation boundaries drawn by H.R. 3290 is 
owned by the Tuolumne Band, either in trust or in fee.
    We are located in a Public Law 83-280 state, so the re-designation 
of our reservation boundaries will not alter the criminal jurisdiction 
over these parcels. Additionally, the fee properties at issue were 
already zoned residential when we acquired the title, and we have 
maintained that zoning under our tribal laws and started to prepare our 
housing development plans. All of those fee parcels have already 
undergone full NEPA review for housing and tribal infrastructure 
development.
    Finally, the Tribe and Tuolumne County have developed and executed 
a Memorandum of Understanding (MOU) which sets forth protocols for all 
interaction between the County and the Tribe. That Agreement, which was 
executed on January 16, 2001, has allowed us to maintain a good faith 
working relationship with our local governments. The MOU sets forth a 
binding payment in lieu of taxes agreement with the County, which 
provides the County with tribal payments to offset the tax losses they 
will incur when the fee parcels I have been describing are taken into 
trust. Thus, our future trust acquisition will have nothing but a 
positive impact on the County's tax base. We therefore believe that all 
of our local jurisdictional issues have already been resolved. In fact, 
Tuolumne County has signed written statements of support for the 
transfer of the BLM lands to the Tribe and for the Tribe's fee to trust 
application of the parcels codes in green. Those letters are attached 
to this testimony as Exhibits C. Finally, we have been working with our 
local Tuolumne Fire Protection District and they have also supported 
our fee to trust application by the letter found at Exhibit D.
    In closing, I would like to make it very clear that this bill has 
nothing to do with gaming. Under Section 3 (a) the bill makes it clear 
that the BLM lands we are seeking to transfer shall be ``held in trust 
by the United States for the benefit of the Tribe for 
nongamingpurposes''. Additionally, as I just noted, the fee parcels 
being added to the reservation are already zoned residential and our 
housing and infrastructure development plans are already underway.
    Mr. Chairman, I hope that I have provided you with all of the 
information that you require to report this bill to the House floor in 
the immediate future. I will be happy to answer any questions that you 
may have or provide you with any additional information that you need. 
Again, thank you for taking the time to entertain this very important 
bill for the Tuolumne Band of Me-Wuk Indians.

                                    

      

</pre></body></html>
